<html>
<title> - RESTORING THE FEDERAL LAND MANAGEMENT WORKFORCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
            RESTORING THE FEDERAL LAND MANAGEMENT WORKFORCE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 19, 2009

                               __________

                           Serial No. 111-12

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      
                  U.S. GOVERNMENT PRINTING OFFICE
48-109                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 19, 2009.........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1

Statement of Witnesses:
    Austin, James, Chairman, Fraternal Order of Police, U.S. Park 
      Police Labor Committee, Washington, D.C....................    87
        Prepared statement of....................................    90
    Downing, Elaine, Vice President, National Federation of 
      Federal Employees, Local 2152, California Bureau of Land 
      Management, Needles, California............................    66
        Prepared statement of....................................    68
    Kashdan, Hank, Associate Chief, Forest Service, U.S. 
      Department of Agriculture..................................     2
        Prepared statement of....................................     4
    Leonard, George M., National Association of Forest Service 
      Retirees, Fairfax, Virginia................................    73
        Prepared statement of....................................    75
    Simpson, Kevin, Executive Vice President and General Counsel, 
      Partnership for Public Service, Washington, D.C............    31
        Prepared statement of....................................    33
    Thatcher, Ron, President, Forest Service Council, National 
      Federation of Federal Employees, Libby, Montana............    43
        Prepared statement of....................................    45
    Wade, J.W. ``Bill,'' Chair, Executive Council, Coalition of 
      National Park Service Retirees, Tucson, Arizona............    59
        Prepared statement of....................................    61
    Waterman, John, President, Fraternal Order of Police, 
      National Park Rangers Lodge, Twain Harte, California.......    93
        Prepared statement of....................................    95
    Wenk, Daniel N., Acting Director, National Park Service, U.S. 
      Department of the Interior.................................     9
        Prepared statement of....................................    12



     OVERSIGHT HEARING ON ``RESTORING THE FEDERAL LAND MANAGEMENT 
                              WORKFORCE.''

                              ----------                              


                        Thursday, March 19, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1324, Longworth House Office Building, The Honorable Raul 
M. Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Holt, Heinrich, 
Inslee, Sarbanes, Shea-Porter, Tsongas, and Lummis.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Welcome to the hearing by the Subcommittee on 
National Parks, Forests and Public Lands. This is an oversight 
hearing on Restoring the Federal Land Management Workforce. 
Thank you very much for being here.
    Today our Subcommittee will be conducting an oversight 
hearing to explore the issues impacting the morale and the 
effectiveness of our public lands workforce. We will hear 
testimony from groups that represent the employees in the 
field, those who protect our forests, manage the range, and 
serve the millions of park visitors that we have each year. 
Their offices may be in the top of Mount McKinley or a raft in 
the Grand Canyon, cruising timber in the Pacific Northwest, or 
riding the Wyoming range. These are the jobs that most 
Americans have only dreamt of--yet, by all accounts, their 
morale is among the worst of all Federal employees. According 
to survey data, Federal prison guards and IRS agents enjoy 
their job more than park rangers. We want to know why.
    For years, we have increased our expectations of these 
employees while chronically underfunding their programs. ``Do 
more with less'' has been the common mantra. Today, we are 
asking these beleaguered employees, in addition, to begin to 
address the impacts of climate change, fight the increasing and 
more severe wildfires, balance energy development with resource 
protection, get every child to play outside, keep the trails in 
good shape, the range lands healthy, and the restrooms clean.
    Our Federal land management workforce faces a looming wave 
of retirements and the loss of institutional capacity and 
memory. At the same time, these same agencies routinely rate 
very poorly on surveys of employee satisfaction, surveys that 
young job seekers use to guide their career choices. Today, we 
look forward to hearing from the Partnership for Public 
Service, producers of the report ``Best Places to Work in the 
Federal Government'' who will shed light on these low ratings, 
and offer suggestions for improvement.
    Nobody knows the issues faced by these employees better 
than the employees themselves. So today we will also hear 
testimony from three witnesses representing rank and file 
employees of the Bureau of Land Management, National Park 
Service, and U.S. Forest Service. These witnesses dedicated a 
great deal of their personal time and energy to addressing 
these issues on behalf of their peers, and we appreciate the 
effort it took for them to be here today for this hearing.
    Last February, the Department of the Interior Inspector 
General completed a review of the problems in the United States 
Park Police, including those that directly impact employee 
morale. Today, we will hear testimony which will bring us up to 
speed on the progress to date in achieving what former NPS 
Director Bomar called ``Management Excellence with Park 
Police.''
    These dedicated stewards of our Federal land management 
agencies have protected and conserved our lands and the 
resources for over a century. The work they do is a model for 
nations around the world. This Committee must support them and 
give them the tools they need to face the challenges that lie 
ahead. I look forward to hearing the testimony of all our 
witnesses today, and now I will turn to our Ranking Member, Mr. 
Bishop, for any opening statement he may have. Sir.
    Mr. Bishop. I will yield until we actually hear the 
testimony.
    Mr. Grijalva. At this point let me welcome our first panel, 
and let me begin with Mr. Hank Kashdan, Associate Chief, Forest 
Service, Department of Agriculture.
    Sir, your verbal testimony, five minutes; your written 
testimony in its entirety, and other extraneous information you 
want to add will all be made a part of the record. Sir.

          STATEMENT OF HANK KASHDAN, ASSOCIATE CHIEF, 
         FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Kashdan. Thank you, Mr. Chairman, and Mr. Bishop, 
Members of the Committee. Thank you for the opportunity to be 
here today to talk about restoring the Federal public lands 
workforce. Also appreciate being here with my Department of the 
Interior colleagues, and I also want to acknowledge being here 
with Ron Thatcher, the President of the National Federation of 
Federal Employees, which is our principal union in the Forest 
Service, and one key to as part of a partnership to address 
workforce issues that you have cited this morning.
    Let me say, Mr. Chairman, that I am close to 36 years with 
the Forest Service. I am joined by 32,000 plus other career 
employees who have decades of service and are often second and 
third generation employees. I feel it is very fair to say that 
these employees are passionate about the mission of the agency, 
proud to work for the Forest Service and really optimistic 
about the future.
    Part of that pride and optimism about the future is 
addressing the opportunities brought to the Forest Service by 
the American Recovery and Reinvestment Act where we are going 
to be putting additional focus on several of the priorities 
that were mentioned in your opening remarks, and we have 
already put $100 million of that act out into the field and are 
already creating jobs and our employees are working with those 
new contractors to deliver on those priorities.
    Now, clearly there have been major issues facing the Forest 
Service in the past couple of decades. Just profound changes we 
have gone through that has had an effect on the workforce. In 
the early 1990s, we were routinely criticized for poor 
financial controls, the inability to account for performance, 
very expensive overhead. We simply had to make major changes. 
We have done that.
    In a passionate workforce when you make major change and 
that change goes well, it is stressful, it creates some degree 
of frustration even if it is executed very well. When it is 
executed poorly, it is extremely demoralizing to the workforce 
and, frankly, we have had the best and the worst of major 
changes in the past 15 years.
    Let me focus on one aspect of that change, a major 
centralization of administrative programs in order to reduce 
overhead. We have centralized our financial management. We have 
centralized our human resources. We have dramatically changed 
how employees receive computer support, and this has involved a 
downsizing of roughly 1,500 employees that had historically 
been spread through the field, many of them had to move. Many 
of the employees had to move. Many of them actually elected to 
leave the Forest Service as opposed to moving, and that was a 
very, very disruptive period in time to the agency, and we 
continue to have some effects from that major centralization 
today.
    We implemented some major IT systems, notably ``EmpowHR'' 
and ``GovTrip'' that have been extremely difficult for the 
agency to deal with. The EmpowHR system was implemented well 
before its time, and it had major significant, almost 
catastrophic impacts on many of our employees that are now 
adjustment from today.
    Centralization of our human resources program has been very 
difficult and has contributed to some of our employee morale 
issues. We had some unrealistic downsizing goals, and we had 
some very poor system implementation associated with that.
    In addition, there were other changes that have affected 
the employees in the Forest Service, the recent experience with 
competitive sourcing--that is no longer occurring now--had the 
effect of causing employees who have worked for decades and 
were very proud of the work they were doing, as a manner of 
speaking, looking over their shoulder to see if their job might 
be competed in the future, and that created tremendous negative 
will toward Forest Service leadership and a fear for their 
jobs.
    Also, in the area of fire suppression, in five of the last 
seven years we have had to transfer money from other funds in 
order to pay for the cost of fire suppression when that cost 
exceeded the money that we had appropriated, and this funding 
came from recreation, foreign management, you name it, 
wildlife, et cetera, and that resulted in projects being 
canceled, projects being delayed, projects being redone, it 
created angry partners, broken promises. It was, frankly, no 
way to run a railroad, and that has had a tremendously negative 
effect on this organization.
    So there are many other changes that I could cite, but that 
is kind of a capsule of some of the major changes that have 
affected the organization.
    But I also believe as we look to the future we have every 
reason to be optimistic. We have received seven successful 
clean audit opinions. The President's budget addresses the fire 
transfer situation, and if enacted as proposed, the changes of 
fire transfers are very minimal in the future. Our financial 
management centralization is now clearly a success. It has 
moved into what I would call the savings category, and 
demonstrates that change takes two or three years to implement.
    Human resources redesign is now functioning fairly well and 
will address, I am confident, some of our staffing backlogs. We 
are about to introduce some new organizational alternatives to 
deliver computer support to our employees who have been 
frustrated with the local service they have been receiving. We 
are making major progress in establishing a new safety culture 
in our organization, and most recently we are going through the 
Fiscal Year 2009 Omnibus Act we will be transferring six Bureau 
of Reclamation job corps centers to the Forest Service, which 
means the Forest Service will be operating all 28 civilian 
conservation job corps centers in the country, which is going 
to be an essential aspect of future career paths for potential 
agency employees and new careers for young adults.
    So, with that, Mr. Chairman, I would have to say that 
clearly we have gone through a series of profound change. I 
think the future is looking very bright for the Forest Service, 
and we would look forward to discussing more with you any 
questions you might have. So that concludes my verbal remarks. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kashdan follows:]

      Statement of Hank Kashdan, Associate Chief, Forest Service, 
                United States Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on restoring the federal public 
lands workforce.

INTRODUCTION
    I am Hank Kashdan, Associate Chief of the Forest Service and during 
this transition to the Obama Administration, Acting Deputy Under 
Secretary for Natural Resources and Environment at USDA. I have a long 
career with the Forest Service serving as Budget Director, and until 
December as Deputy Chief for Business Operations before assuming my 
current position. It was during my tenure as Budget Director that the 
Forest Service decided to centralize the business operations for budget 
and finance (B&F), human resource management (HRM) and information 
technology (IT). Later, I became the Forest Service Deputy Chief for 
Business Operations. I had to implement and make operational the 
centralized operations for B&F, HRM and IT.
    The Forest Service and its employees are dedicated to the Forest 
Service mission ``to sustain the health, diversity, and productivity of 
the Nation's forests and grasslands to meet the needs of present and 
future generations.'' The current workforce of the Forest Service is 
approximately 33,000 employees. Each year our staff grows to almost 
50,000 employees with the hiring of about 15,000 temporary and seasonal 
employees to assist in managing the various conservation and multiple 
use management programs for forestry, wildlife, recreation, range, fire 
suppression, forestry research and other resource areas is greatly 
dependent upon our centralized information, business, finance, and 
personnel organizations. To achieve our mission, business operations 
and the processes and designs for workflow are critical to agency 
success and employee morale.
    Forest Service employees have faced important changes in the past 
10 years associated with service centralization, implementation of new 
technology, major changes in the dynamics of wildfire suppression, and 
a heightened focus on climate change.
    Forest Service employees are ``fired up and ready to go'' in 
implementing the American Recovery and Reinvestment Act. We are excited 
about our contribution in creating and sustaining jobs through a focus 
on infrastructure, reducing the threat of catastrophic wildfire, and 
developing alternative energy based on woody biomass that will support 
the President's goal of energy independence.
    Forest Service employees are passionate about the agency's mission 
and the opportunity to contribute to the economic recovery in the short 
and long term. When changes occur, there can be major adjustments 
needed in behavior and operational procedures. Within a passionate 
workforce such as ours, changes can be, and usually are, debated 
vigorously. We fully encourage this debate since it points out what is 
working well and where we can do better. We have learned from these 
discussions that sometimes change can have a negative affect, even when 
change is implemented well. However, the situation would be far worse 
when change is poorly implemented. The Forest Service has experienced 
the best and worst of change.

CENTRALIZED BUSINESS PROCESSES
    From its inception, more than 100 years ago, the Forest Service had 
been a decentralized agency. During the majority of this time, however, 
policy and guidance relating to human resources, financial management, 
budget, and information were largely concentrated at headquarter levels 
of the agency. In the last 25 to 30 years, most field units came to 
have had a full complement of business, personnel and more recently 
information technology services and programs, largely because of 
advances in computing capacity. The Forest Service organization 
includes more than 600 ranger districts, 155 national forests, and 20 
grasslands. It has nine regions, 92 research work units and five 
research stations, the Forest Products Laboratory, the International 
Institute for Tropical Forestry, and the Northeastern Area office for 
State and Private Forestry. Each level has responsibility for a variety 
of functions.
    Beginning in 2004, the Forest Service began an effort to centralize 
certain business-related operations. Centralized business operations 
can achieve an economy of scale and eliminate duplicative efforts 
across many field units, and we have seen significant benefits from 
these efforts. In recent years, the shift to centralized business 
operations has occurred, thus breaking with our long-standing 
organizational history. This has a strong effect on morale. This shift 
is particularly notable for employees and managers accustomed to 
receiving advice and service from an employee with whom, in most cases, 
they had a personal relationship. Now, under the centralized model of 
business operations that service person is not on the field or 
headquarters unit any more. At the same time, some work associated with 
business operations remains at field units where individual employees 
must assume the responsibility for administrative functions. This work, 
coupled with the shift, has contributed to a circumstance in which some 
employees feel like they have more workload and can add pressure and 
stress on them. In some cases, the consequence is reduced employee 
morale.

CENTRALIZED INFORMATION TECHNOLOGY
    From the 1960's through 2003, the labor force providing information 
technology (IT) infrastructure services and information management (IM) 
policy and standards was highly decentralized throughout the Forest 
Service. About 1,250 employees devoted at least part of their time to 
these roles. Industry experts advised agency leadership to replace 
localized customer support with a model that included ``self help'' 
approaches and centrally managed operations. In 2003, a Competitive 
Sourcing (A-76) study identified a centralized, most efficient 
organization (MEO) for the Chief Information Officer's (CIO) 
organization. The study identified improved efficiencies through a 45 
percent reduction of the agency's IT support staff.
    Two years later, in 2005, the responsibility for the agency's 
applications, databases, and geospatial information assets was added to 
the MEO. The implementation of this change had a significant effect on 
Forest Service employees who now had to exercise ``self help'' 
principles in meeting basic technology needs. This process has had some 
success and some failure. Because of the 2008 Omnibus Appropriations 
Act,--which states ``sec 415(a)(2) None of the funds made available by 
this or any other Act may be used in Fiscal Year 2008 for competitive 
sourcing studies and any related activities involving Forest Service 
personnel.'' The Forest Service terminated its competitive sourcing 
activities and initiated an assessment of alternatives for improving 
technology services through reorganization. This reorganization seeks 
to improve the coordination and integration of information management 
for the Forest Service, and improve the delivery of IT services.

CENTRALIZED BUDGET AND FINANCE OPERATIONS
    As you can imagine, with the Forest Service performing its 
accounting and budgeting work at ranger districts, forests, regions, 
research work units, research stations and the Washington headquarters 
(WO) locations, there were consistency and accountability issues in the 
manner and methods in which the agency conducted its financial 
operations.
    In the late 1990s, the Forest Service was poorly performing in 
proper execution of financial accounting and controls. The agency 
repeatedly received disclaimers in audits of its financial statements. 
The issues were so significant that an overall lack of confidence in 
Forest Service's ability to manage its finances culminated in placing 
the Forest Service on the GAO Watch list. This led to lost credibility 
in all aspects of agency performance.
    In part to correct the accountability problems, the Budget and 
Finance (B&F) program, which tracks expenditures, payments, grants and 
agreements, collections and revenues, travel and budget accomplishments 
was centralized in Albuquerque, New Mexico in 2005. The Albuquerque 
Service Center (ASC) B&F centralized operating model reduced the total 
number of personnel involved in these functions from 1,920 to 444 
employees specializing in budget and finance operations.
    The resulting combination of reducing the size of the field 
workforce, establishing new procedures, implementing new systems, and 
even dealing with the impact of Hurricane Katrina which occurred just 
as the new B&F center was established, had a serious impact on agency 
employees throughout the organization.
    At the outset, the operation encountered major issues with payments 
to contractors and support to agency employee travel. Fortunately, a 
planned phase-in of operations, as well as a rigorous monitoring and 
evaluation program, allowed for corrections and changes to address 
unintended consequences. While we continue our efforts at improvement, 
particularly in the area of payments, it is clear this centralization 
is a major success and is both improving the agencies financial 
management and leading to significant savings. We fully expect that our 
continuous improvement efforts will lead to even better service from 
the B&F organization.

FIRE PROGRAM TRANSFERS
    The Forest Service and its employees understand that we have a 
nation-wide responsibility for the suppression and management of 
wildland fire. Wildland fire is an integral part of our mission. In 
some recent years, the costs associated with wildfire suppression have 
exceeded the inflation-adjusted ten-year average of suppression costs 
appropriated by the Congress. When the ten-year average is not 
sufficient to cover all fire suppression needs, the Forest Service is 
authorized to transfer unobligated funds from other non-fire accounts 
to pay suppression costs. While this transfer authority is essential to 
ensure there will never be a lapse in emergency firefighting activities 
due to a lack of funding, these transfers delay implementation of other 
critical natural resource protection programs.
    The FY 2010 Budget reflects the President's commitment to wildfire 
management and community protection by establishing a new $282 million 
contingent reserve fund dedicated to addressing catastrophic wildfires 
in addition to fully funding the ten-year average of suppression costs 
adjusted for inflation at $1.13 billion. By establishing a dedicated 
fund for catastrophic wildfires, fully funding the inflation-adjusted a 
ten-year average of suppression costs, and providing program reforms, 
the Budget minimizes the need for agencies to transfer funds from non-
fire programs to pay for firefighting when their appropriated 
suppression funds are exhausted. Establishment of this contingency fund 
will be a tremendous boost to employee morale.

CENTRALIZED HUMAN RESOURCES MANAGEMENT OPERATIONS
    Prior to centralizing, the agency's indirect costs to support human 
capital management programs were much higher for the Forest Service 
than for other comparable organizations in the public and private 
sectors. In October 2004, the Forest Service began centralizing human 
resources management functions in Albuquerque, New Mexico. To be blunt, 
this implementation did not go well.
    The Human Resource (HR) organization provides customer service to 
approximately 50,000 Forest Service permanent, seasonal and temporary 
employees. The success of the service center will be achieved through 
consistent agency-wide applications of personnel policies, procedures, 
and processes; a significant reduction of the backlog of work that 
transferred to ASC-personnel; and a structured support system for 64 
Human Resource Liaisons that are located at field offices throughout 
the agency. For human resource management, there is an approved 
organization of 612 employees. This is a reduction of approximately 400 
positions, compared with the decentralized human resource organization 
that existed prior to centralization.
    The human resource management operation employs Industry and 
Government Best Practices designs from the Bureau of Land Management, 
National Park Service, Defense Finance and Accounting Service, Defense 
Logistics Agency, Motorola, Weyerhaeuser, and the United Parcel 
Service. In keeping with these models, we want to improve customer 
service; increase operational efficiencies; reduce or avoid costs and 
improve management.
    Implementation challenges included dealing with the departure from 
the ``high touch'' nature of having an HR person ``down the hall'' in 
most offices, the tremendous learning curves associated with new 
processes, and overly ambitious personnel reduction goals. To 
compensate, the Forest Service has had to expend monetary and personnel 
resources to create and develop ``work-around'' solutions to perform 
daily business operations in a centralized environment. Intended as 
temporary, because of delays in deploying viable enterprise solutions, 
we continue to use these ``work-arounds'' longer than planned, 
resulting in inefficiencies and higher than planned costs. We look 
forward to working with USDA to implement significantly better 
operations.

HUMAN RESOURCES REDESIGN
    We recognize that there are continuing concerns with the current 
systems for the delivery of human resources management services and 
products. To address these concerns and to improve the human resources 
organization, Forest Service leadership approved a new path forward in 
July 2008. An ``optimization team'' is reviewing current processes, 
procedures, and tools to clarify, streamline, communicate and educate 
system users and program customers. The focus is on improvement of 
product and service delivery. A ``redesign team'' is taking a longer-
term view at revising Human Resource's vision and programs based on 
agency needs, program efficiencies, and customer input. Notwithstanding 
the Herculean efforts to improve product delivery and service for human 
resource operations, services and program delivery are still lagging. 
It is clear that employee morale has been affected by the 
implementation of centralized HR services. Through a comprehensive 
redesign, we expect services to improve; but it will take time.

FIRE MANAGEMENT SPECIALIST QUALIFICATIONS
    Following the deadly South Canyon Fire in 1994, an interagency team 
was formed to investigate the factors contributing to the fatalities. 
The subsequent 1995 Federal Wildland Fire Policy and Program Review, 
signed by the Secretaries of Agriculture and the Interior, directed 
Federal wildland fire agencies to establish fire management 
qualifications standards to improve safety and increase professionalism 
in fire management programs. After extensive effort, the Interagency 
Fire Program Qualifications Standards (IFPM) and Guide were completed. 
The occupational series chosen was 401, General Biologist. The 
implementation of this standard has had an effect on the morale on a 
small portion of our wildland firefighting personnel.
    The Forest Service conducted qualifications review of employees in 
the GS-401 series affected by the positive education requirements as 
defined by the Office of Personnel Management, which prohibit the use 
of National Wildfire Coordinating Group (NWCG) courses not supported by 
official transcripts from accredited institutions of higher learning. 
In 2008, human resource management reviews of affected employees' 
educational classes were completed. Affected employees were notified of 
the findings of the review and their status was clarified. However, in 
October of 2008, the USDA Office of Inspector General (OIG) advised the 
Forest Service of a ``Management Alert'' regarding its use of the GS-
401 series for Fire Management Specialists. The Management Alert cited 
major concerns for using the 401 series by the Forest Service to meet 
its fire management staffing needs. As a result, the Chief directed all 
units to ``stand down'' further implementation of the GS-401 series at 
grades GS-9 through GS-12 in fire management occupations.
    Some employees did complete the NWCG training course work and later 
some courses were determined ineligible by OPM because of changing 
standards and requirements for positive education requirements. There 
are over 10,000 wildland firefighters in the Forest Service and most 
employees are unaffected by this issue. However, at this time 300 
employees out of 341 <SUP>1</SUP> have been successful in reaching the 
positive education standard.
---------------------------------------------------------------------------
    \1\ January 30, 2009 letter to Jill M. Crumpaker Acting Director, 
USDA Office of Human Capital Management
---------------------------------------------------------------------------
EMPLOYEE HEALTH AND SAFETY PROGRAM
    The Chief is committed to ensuring that employees' health and 
safety is integrated into all aspects of the Forest Service mission. 
The Forest Service is ensuring an enhanced quality of life for 
employees and cooperating partners by providing safety and occupational 
health services and leadership for the prevention of work related 
injuries and illnesses to personnel and damage to public and private 
property.
    Agency leaders and health and safety professionals are transforming 
the Forest Service health and safety culture, using as their models 
high reliability organizations (HRO). HRO's are organizations that are 
engaged in high-risk activities but have a lower then normal accident 
rate. Some characteristics of HRO's that the Forest Service is adopting 
include: taking small errors seriously in order to identify and 
mitigate system hazards; encouraging employees to report errors to 
improve organizational learning and promoting the free flow of 
differing viewpoints by encouraging diversity of thought in the 
workplace. In other words, employees are encouraged to contribute and 
participate without fear of retaliation.
    Employees appreciate a rigorous health and safety program because 
they know that managers and co-workers value their personal health and 
safety.

OPM HUMAN CAPITAL SURVEY AND BIENNIAL BEST PLACES TO WORK REPORT
    The 2007 Best Places to Work Survey conducted by the Partnership 
for Public Service and American University's Institute for the study of 
Public Policy Implementation, which was based on the 2006 OPM Federal 
Human Capital Survey, ranked the Forest Service 143rd of 222 agency 
work places for a ranking score of 59.9. Overall, this leaves the 
Forest Service with a lot of room for improvement. While we ranked 209 
of 222 for work life/balance (ranking 54.6) and 181 of 222 (ranking 
51.3) for strategic management--low in the rankings--there are some 
definite bright spots.
    Over the past several years, the Forest Service has consistently 
scored high (the response rate over 80% positive) for several key 
morale indicators on the Federal Human Capital Survey. The indicators 
include: people in your organization (who) cooperate to get the job 
done; I like the work I do; and the work I do is important. For these 
survey questions, over 80% of the Forest Service employees polled 
responded either ``Strongly Agree'' or ``Agree''.
    African Americans rank the Forest Service as the ninth best federal 
agency for overall employee satisfaction and engagement, out of 222. 
The Forest Service also ranked high for the availability of training 
and development (ranking 46) and 48th in support for diversity. Males, 
females, over 40 and under 40 demographic strata all ranked the Forest 
Service between 97 (males) and 138 (under 40) indicating similar 
attitudes and work experiences.

EMPLOYEE DEVELOPMENT AND EMPLOYEE RETENTION
    The Forest Service is actively addressing leadership and management 
succession. The Human Resource's plan for succession addresses this 
need, which has major functions for training policy, strategy, design 
and delivery. The Human Resource Staff identifies and develops the best 
solutions for meeting the training needs of all Forest Service 
employees including succession planning. There are five separate 
leadership programs addressing aspiring leaders to executives. These 
seminar programs address career paths for new employees as well as 
veteran employees; each program examines and develops the leadership 
competencies required of successful leaders.
    Employee development and retention for the Forest Service is 
achieved sometimes through temporary promotion details, where employees 
can serve as acting line officers, managers or technical specialists. 
Coveted by employees and widely accepted by managers, detail 
assignments are a very successful pattern for Forest Service leadership 
development. Details, along with developmental training and an agency 
culture of delegated decision-making, ensure long competitive lists for 
district ranger, forest supervisor, and research work unit project 
leader positions. This enhances esprit de corps within the workforce.
    The awards and recognition program can assist in improving the 
morale of the workforce. Recognition for hard work, exceptional service 
or innovation is part of valuing individuals' contributions to the 
agency and the U.S. taxpayer. The appropriate and judicious use of the 
awards and recognition programs available in U.S. government personnel 
regulations can motivate employees to fulfill their duties and further 
agency mission. When employees are valued for their contribution, 
morale in the workforce is usually improving or high. However, the 2007 
Best Places to Work Survey ranked the Forest Service 167th out of 222 
agencies studied for awarding and recognizing employees; obviously, 
there is room for improvement.
    As in most organizations, it takes thoughtful supervisors to give 
awards and recognition for jobs well done. Some of our supervisors are 
better at employee recognition than are other supervisors. The agency 
supports several formal awards programs that garner pride in the work 
employees do, and help them gain recognition for that work. The 
Secretary's annual awards are tied to the Chief's annual awards, which 
are tied to annual awards at regions and research stations. Competition 
for these awards is often keen, and the annual awards ceremonies 
provide occasions that often inspire awe at innovative work and truly 
heroic deeds.

CONCLUSION
    The Forest Service has a large work force of approximately 50,000 
permanent, temporary, and seasonal employees. Employees are dedicated, 
tenacious, and hard working. They love the mission of the agency. Many 
come to the agency as students, seasonal, or part-timers, and are 
desirous to sign on for permanent work. Many are second and third 
generation employees, with mothers, fathers, grandparents, sisters, and 
brothers as role models. Many employees spend an entire career of 30 or 
more years in the agency, ``caring for the land and serving people.'' 
Indeed, Forest Service employees are recognized both internationally 
and nationally as Nobel Laureates, wildland fire fighters, disaster and 
emergency relief specialists and thoughtful stewards of some of 
America's great ecosystems found in the National Forests and 
Grasslands. The Chief and I appreciate their dedication and the 
excellence to their craft and we are committed to devising business 
operations systems that are worthy of the stature of the employees.
    We recognize, too, that contentious issues and the associated legal 
complexities that can delay or halt implementation of plans and 
projects for long periods, sometimes indefinitely may affect employee 
morale. Over the years, this has been a source of frustration for some 
employees, who may find their projects held up in the Courts and at 
times not come to fruition. We recognize and understand how this can 
reduce morale among motivated forest management professionals. As 
agency leaders, the Chief and I are empathetic about the disappointment 
of a hard-worked project being delayed or cancelled. We know, as do our 
employees, that the National Forests and Grasslands belong to all 
citizens and we are the steward of that trust.
    Leadership is well aware, there continue to be problems with 
delivery of services provided by HR and CIO operations that have a 
negative effect on the morale of employees, managers, partners and 
collaborators when they call upon the centers for service. We recognize 
the general and specific frustrations experienced by employees and the 
public and we are committed to improving, and correcting service 
problems. Our center employees are courteous and dedicated to service 
and operational improvement. They want to be a credible solution in the 
work place. The Chief and I are committed to improving the service and 
function of these operations to provide the level of performance needed 
to improve morale for our employees and improve credibility for our 
partners and collaborators.
    Mr. Chairman and Members of the Committee this concludes my 
prepared statement. I am happy to answer any questions that you or 
Members of the Committee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Mr. Daniel Wenk, Acting Director, National Park Service, 
Department of the Interior. Welcome, and thank you for being 
here again, sir.

  STATEMENT OF DANIEL N. WENK, ACTING DIRECTOR, NATIONAL PARK 
   SERVICE, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
     MICHAEL NEDD, ACTING DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman.
    Acting BLM Deputy Director Michael Nedd is here to answer 
questions that are specific to the BLM, and also I have U.S. 
Park Police Chief Sal Lauro is here and is available to answer 
questions about the park police that you may have later.
    The National Park Service and the BLM both have a strong 
interest in their employees' career development and 
satisfaction in their workplace concerns. Both bureaus have 
implemented wide ranging, positive programs to enhance the 
quality of the work experience and prepare employees in the 
organization for the future. Some of the steps the National 
Park Service has taken recently to improve the skills of our 
workforce include: initiating a new superintendent's academy; 
completing and beginning the implementation of the NPS learning 
and development report; establishing partnership with 
universities for leadership development; improving the 
applicant pool through the online hiring system. NPS is one of 
the last large Federal agencies that did not have online 
application procedure and we were losing top-quality applicants 
to other agencies whose automated staffing processes made it 
easier for candidates to apply for jobs and allowed agencies to 
respond more quickly. We are developing a culture of safety 
awareness and adopting professional excellence as one of our 
centennial goals.
    The National Park Service has also acted to better 
understand and address the concerns of our workforce. In 
response to the results of the 2007 Best Places to Work 
Analysis conducted by the Partnership for Public Service, which 
was based on the 2006 OPM Federal capital survey, the National 
Park Service leadership brought together a broad-based team of 
employees to analyze the NPS results and recommend actions for 
improvement.
    The team's recommendations principally addressed training 
and development, leadership communication to the workforce and 
efforts to make the survey available to a broader range of NPS 
employees. We have been taking action in all three areas.
    We have also acted to improve the functioning and morale of 
the U.S. Park Police. The February 2008 IG report on the park 
police was a catalyst for change. Sal Lauro, a former park 
police official with 32 years of law enforcement experience, 
was brought in to oversee the force on an interim basis, and 
was named chief of police in January. Chief Lauro is working 
with the NPS to fill vacancies in various command-level 
positions. Sergeant and lieutenant positions are being filled 
from the first new promotional list in five years. We are 
making significant improvements in staffing levels, meeting 
firearm qualification standards, the upgrading of ballistic 
vests, and replacing vehicles; all issues of major concern to 
park police officers in leadership of the National Park Service 
and U.S. Park Police.
    To help address morale, the park police has developed a 
partnership with OPM, Center for Talent Services, to conduct a 
survey to identify specific concerns employees had with regard 
to their workforce environment and the resources they needed to 
carry out the mission, followed by focus groups designed to 
elicit specific suggestions for improvement. The information is 
being reviewed by research psychologists who will recommend 
specific goals for the organization to focus on and will be 
further developed through a process that uses employee teams to 
formulate specific recommendations. OPM will be providing an 
intense leadership development and training program designed to 
identify individuals' strengths and weaknesses as well as 
strategies for improving the effectiveness of police force 
leaders.
    NPS is also taking steps to address the concerns of the law 
enforcement rangers who work in parks along the border with 
Mexico, who, of course, have very serious safety issues. We are 
implementing operational protocols, hiring more rangers, 
closing high-risk areas to visitors and staff as necessary, and 
using an encrypted radio system to provide seamless 
communication between the Park Service and the U.S. Border 
Patrol personnel. A significant budget increase of $8.5 million 
was enacted in Fiscal Year 2009, to accelerate this important 
endeavor.
    The National Park Service leadership believes more efforts 
needs to be made in the areas of increasing the diversity of 
the workforce, improving training and recruitment, improving 
capacity in contracting and workforce management, and 
addressing other employee concerns.
    The steps we are taking in each of these areas are 
described in my full statement. They are areas we hope to have 
more results to show in the future.
    We are just now receiving the results from OPM's 2008 
Federal Human Capital Survey, the basis for what will be the 
2009 Best Places to Work ranking. Early indications are that 
many of the issues identified in 2006 survey--training, 
supervisory skills, communications, leadership, workforce and 
lack of resources--also will show up in the 2008 survey. Most 
of the NPS efforts in response to 2007 Best Places to Work 
rankings are just now beginning to be implemented, so it is 
unlikely that the 2008 survey and rankings will register much 
change. However, we believe that we are pursuing appropriate 
actions to improve the work environment and practices that will 
address those concerns.
    Shifting to the BLM, the Bureau's multiple use 
responsibilities require wide range of occupations and skills. 
BLM has long recognized that its success rests entirely on the 
collective knowledge, experience, and dedication of its 
employees. The BLM has established a Human Capital Management 
Program to enhance the quality of the work experience of its 
employees and prepare for the future. This program has four key 
goal: recruit skilled and diverse candidates; enhance skills 
and prepare employees for greater responsibilities; retain 
satisfied and motivated employees; and engage employees in 
reaching performance goals and recognize their achievements.
    The BLM has established a variety of programs to advance 
these goals and is continually working to improve the morale 
and effectiveness of employees.
    To interest minority candidates in working for the BLM, the 
Bureau has partnerships with the Historically Black Colleges 
and Universities and Tribal Colleges and Universities. The 
Bureau has also established an agreement with the League of 
United Latin American Citizens on a program to increase 
awareness within the Hispanic community of the BLM and its 
career opportunities.
    BLM is also preparing employees for career advancement in 
future leadership positions, which is critical because nearly 
half of the Bureau's managers and supervisors are eligible to 
retire within the next five years. The training program called 
``Pathways'' introduces new employees to the BLM's history, 
scope of work, and diverse career opportunities. Emerging 
leaders target mid-level employees with interest in management 
positions and the Leadership Academy prepared selected 
candidates for positions of greater responsibility.
    The BLM has a National Employee Development Program since 
1969, which is now housed at the BLM training center in 
Phoenix, Arizona. The program and center have become world-
class institutions which meet multi-agency training needs 
through the offering of over 300 courses annually in natural 
and cultural resources management and leadership development.
    The Employee Development Program at NTC serves more than 
4,400 employees each year through instructor-led training and 
serves as the center for the BLM community to discuss issues, 
share experiences and develop better approaches for protecting 
wildlife habitat, fighting wildfire, provide energy resources, 
and managing the diverse uses of America's public lands. Other 
initiatives are making important contributions to the Bureau's 
workforce development, including greater emphasis on coaching 
and mentoring employees.
    The BLM uses the OPM Federal Human Capital Survey to help 
provide insight into understanding the Bureau's human capital 
management efforts, if they are succeeding in learning how to 
improve the development of the best possible organization. 
Initial conclusions from the 2008 survey indicate that a key 
strength of the BLM is that most of the Bureau's employees feel 
the work they do is important. Additional strengths include a 
cooperative workforce, employee satisfaction with work/life 
balance, and an understanding among employees of how their work 
relates to the agency's goals and priorities.
    The 2008 survey showed positive overall trends for the BLM, 
but also highlights areas of weakness that require greater 
attention, including recognition of performance workload and 
employee retention.
    These survey results are being utilized to involve and 
strengthen the BLM's continuing efforts to recruit, enhance, 
retain, and reward its workforce.
    That concludes my prepared remarks. Acting Deputy Director 
Nedd and I will be happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Wenk follows:]

             Statement of Daniel N. Wenk, Acting Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before you 
today at this oversight hearing on restoring the Federal public lands 
workforce. My remarks will focus on the progress we are making in 
addressing workforce issues within the National Park Service (NPS), 
including those affecting the U.S. Park Police, as well as areas that 
require more attention. They will also include a brief discussion of 
workforce issues that are being addressed by the Bureau of Land 
Management (BLM).
    The NPS and BLM have a strong interest in their employees' career 
development and satisfaction, and their workplace concerns. Both 
bureaus have implemented wide-ranging, positive programs to enhance the 
quality of the work experience and prepare employees--and the 
organizations--for the future. In national surveys of Federal employees 
conducted by the Office of Personnel Management (OPM), a large majority 
of employees in the NPS and BLM say that they like the work they do, 
feel that it is important, and that it provides a sense of personal 
accomplishment. While these findings are gratifying, other findings 
show room for improvement. And, as in any organization, continued 
improvements can and will be made. The NPS and BLM both are working to 
create a more productive, satisfying and rewarding workplace.
National Park Service
    These are promising times for the NPS workforce. Our bureau enjoys 
strong support from our new President and Secretary, and from Congress. 
We have embarked on preparing for the NPS Centennial in 2016 with 
substantial increases in operating funds in the last two fiscal years, 
which will be followed, if Congress approves the President's request, 
with another substantial increase in FY 2010. Those increases have 
provided for hiring 3,000 seasonal employees and making many 
improvements at our parks. We have moved forward on many new 
partnership projects and programs as part of our Centennial Initiative. 
The NPS was fortunate to receive $750 million from the American 
Recovery and Reinvestment Act, which will be put to good use addressing 
the maintenance backlog and constructing new facilities, with an 
emphasis on energy-efficiency projects, youth work projects, and 
rehabilitation of treasured landscapes and structures.
    Other trends are also contributing to employee morale. Our 275 
million visitors continue to have positive experiences, as demonstrated 
by visitor surveys which consistently show a satisfaction rate in the 
mid-90 percent range. We now reach 60 million people through our 
website, which improves in quality each year. Preview showings of a Ken 
Burns film series on the history of the national parks that will air in 
September, 2009, have generated enormous excitement within NPS. The 
ranks of volunteers at national parks continue to grow, with our 2008 
count at 172,000. The National Park Service leadership recognizes that 
none of the success we have as an agency, none of the support we enjoy 
from political leaders and the public, would be possible without the 
hard work, commitment, and enthusiasm of our 20,000 employees. Our 
efforts are focused on ensuring that we have a skilled, efficient, and 
satisfied workforce as we move into our second century of service to 
the American people. Recent budget increases in FY 2008 and FY 2009 
have heightened these efforts.
Recent Workforce Management Accomplishments
    The NPS has taken several steps recently to improve the skills of 
our workforce, including:
    <bullet>  Initiating a New Superintendent's Academy. In 2008, NPS 
launched a new formal training program for first-time superintendents. 
The program addresses key competencies required of superintendents 
through an 18-month program tailored to each participant's 
developmental needs.
    <bullet>  Completing and implementing the NPS Learning and 
Development Report. In 2007, the NPS carried out a year-long, 
comprehensive review of training and development across the Service. 
Its recommendations will significantly change the infrastructure, 
operations, and curriculum of the learning and development program.
    <bullet>  Establishing partnerships with universities for 
leadership development. Growing out of the Learning and Development 
Report, NPS has undertaken a new initiative to work with partnering 
universities to enhance our leadership development opportunities. At a 
summit of university and non-profit partners in the fall of 2008, this 
``Leadership Roundtable Group'' laid the groundwork for what is 
envisioned as an institutionalized effort to identify and address NPS 
leadership training needs.
    <bullet>  Improving the applicant pool through an on-line hiring 
system. The NPS has been implementing the USAStaffing system, developed 
by the Office of Personnel Management (OPM). As one of the last large 
agencies that did not have an on-line application procedure, NPS was 
losing top-quality applicants to other agencies whose automated 
staffing processes made it easier for candidates to apply and allowed 
agencies to respond to applicants more quickly. USAStaffing performs an 
initial screening and evaluation of job applicants, speeding up the 
otherwise labor-intensive process of candidate referral to managers 
seeking to fill vacancies.
    <bullet>  Developing a culture of safety awareness. Recognizing 
that traditional approaches to workplace safety management were 
insufficient to address the wide range of hazardous jobs and tasks 
throughout the NPS workforce, in May, 2007, the NPS established a 
Safety Leadership Council to reexamine and reenergize the safety 
efforts ongoing within the NPS. A key result has been the adoption of a 
U.S. Coast Guard safety program for our own use. ``Operational 
Leadership,'' as we have dubbed it, is a bottom-up approach to safety 
awareness that emphasizes the responsibility of all employees for their 
own safety and that of their co-workers.
    <bullet>  Adopting Professional Excellence as a Centennial goal. 
Reflecting our deep belief in the importance of supporting our 
workforce, the NPS established ``Professional Excellence'' as one of 5 
overarching themes of our Centennial Initiative in our Report to the 
President in May, 2008. Goals within this theme include advancing the 
NPS to become one of the top 10 places to work in America, promoting a 
safety and health culture for all employees and visitors, and 
establishing a structured professional development curriculum to 
provide park managers with the skills to apply best business practices 
and superior leadership.
    The NPS has also taken steps to better understand and respond to 
the concerns of the workforce. In response to the unsatisfactory 
results of the ``2007 Best Places to Work'' analysis conducted by the 
Partnership for Public Service, which was based on the 2006 OPM Federal 
Human Capital Survey, the NPS leadership commissioned a team of diverse 
employees from all regions and from a range of skill areas to analyze 
the NPS results and recommend actions for improvement. This team's 
recommendations principally addressed training and development, 
leadership communications to the workforce, and efforts to make the 
survey available to a broader range of NPS employees. Recommendations 
involving training and development were incorporated into the 
comprehensive review of NPS training and development that was underway 
at that time.
    In addition, the NPS entered into an agreement with the National 
Parks Conservation Association's Center for Park Management to support 
NPS' efforts to achieve the Centennial ``Professional Excellence'' goal 
of becoming one of the top 10 places to work. A series of focus groups 
were also conducted in the fall of 2008 that included not only full-
time permanent employees but also seasonal and term employees, who are 
not provided access by OPM to the survey. Through these focus groups, 
the Center for Park Management collected more in-depth information 
about employee concerns in areas that the OPM survey covered. Focus-
group data will help us to better understand the 2008 survey results.
Progress on Law Enforcement Workforce Issues
    In February 2008, the Department's Office of Inspector General 
released its ``Assessment of the United States Park Police,'' 
containing twenty recommendations for improvements. Following receipt 
of this report, the Department and the NPS installed a Command 
Management Team to oversee the operation of the Park Police and to 
address the weaknesses which had been identified in the report. 
Salvatore Lauro, a former Park Police official with 32 years of law 
enforcement experience, was named Chief of Police in January following 
ten months of overseeing Park Police operations on an interim basis. 
Chief Lauro is working with the NPS to fill vacancies in various 
command level positions. Sergeant and lieutenant positions are being 
filled from the first new promotional list in five years.
    A major portion of the Inspector General's report focused on the 
level of security at national icons, but the report also covered 
significant officer safety issues, including:
    <bullet>  Staffing. The Park Police have been reassessing staffing 
levels and priorities to identify the most efficient and practicable 
means of addressing mission needs and alleviating officer safety 
concerns. We anticipate reaching a workforce of 630 sworn police 
officers by the end of the FY 2009.
    <bullet>  Firearms qualifications. We now have a computer 
application suitable for tracking firearms-qualification statistics and 
have developed a standardized data collection format. The Park Police 
force was in compliance with firearms-qualifications standards in its 
last two quarterly reports to the Secretary.
    <bullet>  Ballistic vests. In the spring of 2008, the Park Police 
conducted a comprehensive inventory that documented the status of body 
armor issued to every officer. As a result, working with the vest 
manufacturer, the Park Police worked to ensure that any officer wearing 
a vest that was not National Institutes of Justice-compliant was 
properly fitted with an appropriate replacement vest. All officers now 
have compliant vests, with the exception of the 35 new recruits who 
will receive their body armor prior to graduating from training. 
Additionally, each supervisor is required to check the condition of 
subordinate personnel vests on an annual basis.
    <bullet>  Vehicles. In coordination with the NPS Comptroller, the 
Park Police has completed a Fleet Management Strategic Plan and 
submitted orders for FY 2009 and FY 2010 consistent with this plan. The 
110 vehicles received this year have replaced high-mileage vehicles. A 
comprehensive evaluation of the vehicle needs is underway.
    In addition, as a result of low workforce morale and other 
concerns, the Park Police developed a partnership with the OPM Center 
for Talent Services to conduct an Organizational Assessment Survey 
designed to assess workplace culture and climate. This survey was 
administered by personnel research psychologists with the objective of 
further identifying specific concerns employees had with regard to 
their workforce environment and the resources they needed to carry out 
the mission. As a follow-up to the survey administration, 
representatives from the various geographic locations covered by the 
Park Police were invited to participate in focus groups for both non-
supervisory and supervisory officers as well as civilian employees. 
These focus groups were designed to elicit specific suggestions for 
improvement. Information from both the survey and the focus groups is 
being reviewed and evaluated by the research psychologists who will 
recommend specific goals on which the organization as a whole should 
focus in order to address employee concerns. These recommendations will 
be further developed through an employee-driven action planning process 
that empowers teams to formulate specific actions and recommendations 
for improving morale and organizational effectiveness.
    In addition to providing a structure for engaging employees in the 
decision-making process, OPM will be providing an intensive leadership 
development and training program designed to identify individual 
strengths and weaknesses as well as strategies for improving the 
effectiveness of the Force's managers and leaders.
    The NPS law enforcement workforce also includes park law 
enforcement rangers. Rangers who work in the 19 national park units 
along the border with Mexico, in particular, face serious safety issues 
due to the growth in illegal cross-border activities. The NPS has taken 
steps to improve employee safety there by implementing operational 
protocols for ``working on the border'' which include check in/out 
procedures, working in pairs, and receiving specialized training. 
Additional rangers have been hired, and high-risk areas are being 
closed to visitors and staff as necessary. A digital, encrypted radio 
system has also been installed to provide seamless communication 
between the NPS and U.S. Border Patrol personnel. A significant budget 
increase of $8.5 million was enacted for FY 2009 to accelerate this 
important endeavor.
    NPS staff in border parks, north and south, have increased 
collaborative efforts with sister agencies. At Big Bend National Park, 
the NPS hosts U.S. Border Patrol agents who live in and are stationed 
within the boundaries of the park. The parks have increased 
coordination with the U.S. Coast Guard, U.S. Border Patrol, Immigration 
and Customs Enforcement (ICE), and the other land management agencies 
and tribes. In conducting periodic operations aimed at interdicting the 
high level of smuggling by boat, and along the northern border, NPS 
rangers in some parks have been cross-designated as U.S. Customs 
Inspectors. Additionally, the Caribbean parks are currently working 
closely with ICE to obtain dispatch services for law enforcement 
operations. These developments are helping improve the safety and well-
being of NPS rangers.
Areas of Concern in NPS Workforce Management
    The NPS leadership believes more effort needs to be made in the 
areas of increasing the diversity of the workforce, continued 
improvement in training and recruitment, improving capacity in 
contracting and workforce management, and addressing other employee 
concerns.
    To have a workforce that better represents the growing diversity of 
the U.S. population, we have developed and are working to meet 
diversity recruitment goals. We engage several national-level 
organizations that represent ethnic minorities. Our Recruitment Futures 
Implementation Team (RFIT) has completed its third year of supporting 
job fairs, training NPS employees who serve as recruiters at specific 
schools or events, and working with a consortium of minority-serving 
schools to sponsor targeted recruitment events.
    An ethnic minority youth intake initiative was developed by Santa 
Monica Mountains National Recreation Area that brings students from 
minority-serving high schools to work as park interns, and we are 
exploring the possibilities for expanding this initiative to other 
parks for recruiting outreach to minorities at early ages. In addition, 
the Office of Workforce Management and the Youth Programs Division have 
initiated a collaboration involving programs supported by the division 
(Youth Conservation Corps, Public Lands Corps, Youth Partnerships 
Program, Student Conservation Association) to channel their 
participants to programs aimed at higher-level students as they outgrow 
their initial program. We are also developing stronger connections 
between human resource recruitment planning and the potential 
candidates these programs provide. Promoting youth conservation work at 
our national parks is a high priority for Secretary Salazar, and we 
anticipate more efforts in this area as we move forward.
    NPS piloted a centralized summer seasonal hiring effort in 2008 to 
facilitate the hiring of the 3,000 seasonal employees made possible by 
Centennial Initiative funding. This centralized effort has the added 
benefit of enabling us to provide more focused attention on outreach to 
diverse candidates.
    NPS is continuing to work toward improving employee training and 
development programs and recruitment efforts. We plan to fully develop 
a proposal for turning Mather Training Center into a NPS distance-
learning center and determine what will be required to make better use 
of our TELNET capacity. We also plan to develop a new employee 
orientation package for all new employees, partners, concessionaires, 
and volunteers. Aligned with a Departmental initiative on learning and 
development, we are working with other bureaus to develop comprehensive 
training for new supervisors to help us respond to a 2006 Federal Human 
Capital Survey result (which was reconfirmed in the 2008 results) 
showing that new supervisors lack awareness about their supervisory 
responsibilities.
    Recognizing the lack of capacity in several of our administrative 
functions, notably contracting, human resources, and learning and 
development, we are developing servicewide strategies to support these 
functions. Budget increases were provided in each of these functional 
areas for FY 2009 to invest in the training needs of the employees in 
these disciplines, so that we can provide employees with the 
competencies needed to proactively manage new initiatives and programs 
rather than reactively process individual transactions as they have 
done in the past.
    We are just now receiving the results from OPM's 2008 Federal Human 
Capital Survey, the basis for what will be the 2009 ``Best Places to 
Work'' rankings. Early indications are that many of the issues 
identified in the 2006 survey (training, supervisory skills, 
communication, leadership, workload and lack of resources) continue as 
issues. Most of the NPS' efforts undertaken in response to the 2007 
``Best Places to Work'' rankings are just now beginning to be 
implemented, so it is unlikely that the 2008 survey and the 2009 
rankings will register very much change. However, we believe that we 
are pursuing appropriate actions to improve the work environment and 
the workplace practices that will address these concerns.
Bureau of Land Management
    The BLM's multiple-use mission and responsibilities are uniquely 
varied and complex, and its mission requires a wide range of 
occupations and skill sets, ranging from wildlife biologists, to 
cadastral surveyors, to petroleum engineers, to financial managers. The 
BLM has long recognized that its success rests entirely on the 
collective knowledge, experience, and dedication of this diverse 
workforce. This understanding is fundamental in the BLM, and it 
motivates and shapes the BLM's wide-ranging efforts to recruit, 
develop, and retain highly skilled and satisfied employees.
BLM's Human Capital Management Program
    The BLM has established a Human Capital Management Program (HCMP) 
to enhance the quality of the work experience of its employees and 
prepare for the future. The HCMP has four key goals and components:
    <bullet>  Recruit skilled and diverse candidates;
    <bullet>  Enhance skills and prepare employees for greater 
responsibilities;
    <bullet>  Retain satisfied and motivated employees; and
    <bullet>  Engage employees in reaching performance goals and 
recognize achievements.
    The BLM has established a variety of programs to advance these 
goals and is continually working to improve the morale and 
effectiveness of employees.
BLM's Workforce Planning
    The BLM is committed to recruiting a diverse workforce that 
reflects the multicultural heritage of the American people. This can be 
a special challenge for natural resource management agencies, which 
have offices in some locations where populations may be less ethnically 
diverse. The BLM has established programs that engage and encourage 
minority candidates to consider a career in public service with the 
BLM. For example, through partnerships with the Historically Black 
Colleges and Universities (HBCUs), the Bureau recruits students at 
Alabama A&M University, Alcorn State University, and other HBCUs. A 
similar partnership was recently established with Tribal Colleges and 
Universities (TCUs), and the BLM now conducts recruiting at primarily 
Native American schools such as Salish Kootenai College in Montana and 
Oglala Lakota College in South Dakota. The BLM has also established an 
agreement with the League of United Latin American Citizens to build a 
program to increase awareness within the Hispanic community of the BLM 
and its career opportunities.
    In addition to building a diverse workforce, the BLM is working to 
prepare employees for career advancement and to assume future 
leadership positions. These efforts are critical, because over 25 
percent of the BLM's employees are eligible to retire in the next 3 
years. Nearly half of the BLM's leaders are eligible to retire within 
the next 5 years. The BLM has established a series of training and 
succession programs to prepare for this transition. The first, 
``Pathways'', introduces new employees to the BLM's history, scope of 
work, and diverse career opportunities. The second, ``Emerging 
Leaders'', targets mid-level employees with an interest in leadership 
positions. The final program is the BLM's Leadership Academy, which 
prepares selected candidates for positions of mid-level and above 
leadership. The BLM leadership invests time and energy into these 
programs, including providing opportunities to meet and talk with 
senior BLM officials.
BLM's Focus on Enhancing Skills
    The BLM has a long-standing commitment to and emphasis on 
developing a highly professional and diverse workforce using a wide 
variety of educational opportunities. To help achieve this, in 1969 the 
BLM established a National Employee Development program which is now 
housed at the BLM National Training Center (NTC) in Phoenix, Arizona. 
The program and the center have become world-class institutions which 
meet multi-agency training needs through the offering of over 200 
courses annually in natural and cultural resource management and 
leadership development. The BLM's Employee Development program has 
become a pioneer in distance learning, providing a web-based Knowledge 
Resource Center (KRC) for just-in-time information and web-based 
courses and training broadcasts to over 130 BLM satellite network sites 
nationally. The Employee Development program and NTC serves more than 
4,400 employees each year through instructor-lead training. Nearly 
every BLM employee accesses some type of on-line course or utilizes the 
KRC numerous times throughout his or her careers.
    The NTC is more than a training facility. It has become a town 
center and crossroads for the BLM community, where employees discuss 
issues, share experiences, and develop better approaches for protecting 
wildlife habitat, fighting wildfire, providing energy resources, and 
managing the diverse uses of America's public lands. While the training 
programs at the NTC remain central to enhancing employees' skills, 
other initiatives are making important contributions to the BLM's 
workforce development, including a greater emphasis on coaching and 
mentoring employees, the use of action learning teams and the 
development of well-designed employee performance plans.
The Federal Human Capital Survey
    The BLM is both interested and deeply committed to knowing if our 
human capital management efforts are succeeding. We are continually 
working to improve and develop the best possible organization. The 
Office of Personnel Management (OPM) has conducted the Federal Human 
Capital Survey (FHCS) to help provide this insight. The survey began in 
2002 and has been conducted biannually.
    The latest FHCS was conducted in 2008 and its results were released 
recently. It surveyed more than 210,000 Federal employees on a wide 
range of issues, and the methodology provides comparison data across 
the last three surveys: 2004, 2006, and 2008. About 54 percent of BLM 
employees participated in the survey (compared to 51 percent 
government-wide). The BLM is now examining the results to learn its 
relative strengths and weaknesses and to identify areas for 
improvement. We have some initial conclusions.
    A key strength of the BLM is that most of our employees feel the 
work they do is important. This sense of commitment and united purpose 
is perhaps our greatest asset. Additional strengths include: a 
cooperative workforce; employee satisfaction with work-life balance and 
an understanding among employees of how their work relates to the 
agency's goals and priorities. Further, the 2008 survey showed positive 
overall trends for the BLM. In comparison with the 2006 Federal Human 
Capital Survey, the BLM improved on 54 of 73 questions by 2 percent 
points or more, including questions on leadership, diversity, and 
resources.
    The survey also highlights areas of weakness that require greater 
attention. These areas include: recognition of performance, workload, 
and employee retention. In response to previous surveys, the BLM has 
initiated several efforts to address these challenges. For example, the 
BLM's succession development program encourages retention by providing 
a guided pathway for career advancement. To address workload concerns, 
the BLM has linked strategic goals with annual budget plans, workload 
targets, and performance plans. This process provides clear national 
priorities that correspond with field capabilities and individual 
accomplishments. The recent survey results are being utilized to 
further evolve and strengthen the BLM's continuing efforts to recruit, 
enhance, retain, and reward its workforce.
    The BLM's mission is complex and challenging, and its workforce is 
highly skilled and dedicated to managing the public lands for the 
American people. The BLM has a strong history of commitment to employee 
development and growth, and we remain committed to creating a more 
productive, satisfying, and rewarding workplace.
Conclusion
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or the other members of the Subcommittee 
have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, and I was remiss in not 
welcoming Deputy Director Nedd here again to the hearing room. 
Thank you very much for being here.
    Let me begin with more--I do not know if there is a real 
good answer to this question, but all jobs have value but 
having said that, how is it possible that a Federal prison 
guard rates their job as more satisfactory than the park 
rangers rate their job? I just find that difficult to 
understand.
    Mr. Wenk. I think the job satisfaction, Mr. Chairman, 
relates to we have a passionate and committed workforce. They 
deserve and expect to have the resources at their disposal to 
do their job in the best possible way. I think some of the 
frustration rests on the fact that they may not have all the 
resources that they need to do their job, and I cannot speak 
for the prison guard, but I know that our employees want to do 
their job at the highest level possible, and I think sometimes 
they feel frustrated that they do not have the support to do 
that that they would like to have.
    Mr. Kashdan. Mr. Chairman, when the results of that survey 
came out, I would have to confess that the chief and I looked 
at this and were, frankly, shocked. It was very, very 
concerning to both of us, and did not sink with what we tend to 
encounter when we see employees in the field and how proud they 
are of the work.
    I would have to say that there were some clear factors 
associated with that. The passion that Mr. Wenk talked about, 
when you are passionate you also tend to not like anything to 
rock the boat, and we had really rocked our employees' boat 
tremendously with some of the administrative changes we had 
worked out, some significantly poor execution of some of our 
new personnel systems.
    I want to think that a great deal of that has been 
addressed, and if we took that survey again today, we would see 
marked improvement. Again, cannot speak to the prison guards, 
but we are very concerned about that, and we have tried to 
address it through quickly improving some of our administrative 
problems, and working with the union to address their 
partnerships.
    Mr. Grijalva. I do not want to diminish the prison guard, 
but as we work a lot of it I would hope that our park rangers 
are as satisfied as the prison guards in terms of, at the 
minimum, in terms of their job.
    Anyway, I am going to ask, if I may, Mr. Kashdan, a 
specific question. The efforts to reclassify the fire managers 
into a whole new job series, I think has affected morale 
throughout the fire fighter ranks. Let us say I am a wild land 
fire fighter, I have no college education, I have 15 years of 
experience at that job, good evaluations. What advice would you 
give that employee about moving up in the career ladder in the 
agency, and can such an employee that has experience and tenure 
as part of their evaluation have the opportunity to move up in 
general?
    Mr. Kashdan. Yes, sir. You are referring to the 
reclassification of positions into what we call the GS-401 
series, a professional series versus a technical series. Our 
fire operations positions have historically been in the 
technical series, and did not require a college degree. I am 
saying that simply did not require a positive education 
requirement as OPM would define it.
    We embarked, and admittedly DOI and Forest Service have to 
come together on this issue, but we had embarked on 
reclassifying positions into the GS-401 series on the premise 
that courses certified by the National Wildfire Coordinating 
Group would suffice to meet our requirements, which we felt was 
appropriate and would allow our technical employees to move 
into that series.
    A redefinition has basically said you have to have positive 
education requirements now to fill a 401 series, and that 
caused a great deal of concern to the chief and I, and in 
response to an Office of Inspector General management alert we 
in the Forest Service basically issued a stand-down order on 
implementing that because we value the fire operations 
technical career.
    So what I would tell those employees is stay with us, we 
are working on that. We are very concerned about the 
implications of the direction we took in the 401 series, and we 
have a lot of work to do there.
    Mr. Grijalva. Thank you. I am going to probably have other 
questions but my time is up. Let me turn to Mr. Bishop if he 
has questions.
    Mr. Bishop. Thank you, Mr. Chairman. I appreciate it.
    Mr. Wenk, let me ask you a few questions, and if others 
have answers to them, that would be fine as well.
    You recently signed an order banning sportsmen from using 
lead tackle or ammunition in national parks. Can you explain 
why this decision was made without providing any evidence that 
the lead gear poses a risk to wildlife at the species level?
    Mr. Wenk. Congressman Bishop, the memo that I sent to the 
field did not do that, sir. What it did was it said the 
National Park Service in its own internal operations would 
stop--would switch from lead-based ammunition in our own 
internal culling operations, resource management activities, 
management activities; that we would look to engaging with the 
sportsmen groups and organizations between now and 2010, and 
engage in a dialogue to look at banning those lead ammunitions 
from those park areas where hunting is allowed. But there is no 
ban at this time on the public from using those.
    Mr. Bishop. So the ban only applies to government 
officials?
    Mr. Wenk. The ban is on our own internal operations.
    Mr. Bishop. Does that include law enforcement?
    Mr. Wenk. Law enforcement? Until there is ammunition that 
is developed that has the characteristics of the lead 
ammunition, that ban will not be on their active-duty carry 
ammunition, sir.
    Mr. Bishop. OK. As I understand, part of the memo said you 
want to take a leadership role in removing lead from the 
environment. Is that an accurate statement of the National Park 
Service goal?
    Mr. Wenk. Yes, it is, sir.
    Mr. Bishop. OK. Your testimony describes a situation on our 
public lands along the southern border. How has the inability 
to secure the border and the resulting impediments to 
scientific research damaged the protective habitat death and 
injury to park employees in the park impairment damage morale?
    Mr. Wenk. I think it has had a significant effect, 
Congressman Bishop. I believe that we have recognized that we 
have areas of some of the parks along the border that are not 
currently safe for visitors and/or our own employees, and we 
are closing those areas until we can secure them. We are taking 
active resource management restorative actions within the park 
area. We have identified it as an effort, and we have increased 
our budget for those border parks by $8.5 million in 2009 in 
order to hire additional employees and to deal with some of 
these issues.
    One other important factor, sir, is that we also have 
instituted an operational leadership which is, I will call, a 
base-driven assessment of the risk that people have associated 
with their jobs that we are very actively listening to, to try 
to provide an environment that will not only protect our parks 
but also allow for our employees to work in a very safe and 
effective manner.
    Mr. Bishop. Thank you. In your written testimony, you also 
mentioned you have an arrangement with the National Park and 
Conservation Association, which is, of course, a lobbying 
group, for their support of professional excellence in NPS 
employees. Does that arrangement involve a grant or a contact 
with NPS?
    Mr. Wenk. It does not. What that arrangement is, sir, is 
that they have an organization within the National Parks and 
Conservation Office called the Center for Park Management. We 
are working for the Center for Park Management, reaching out to 
universities that we can work with from around the country who 
have programs and resource management leadership that we can 
work collaboratively with to develop leadership programs within 
the National Park Service. They are serving as an organizing 
force in helping us work with those universities.
    Mr. Bishop. Did you have any kind of competitive bidding 
process or look at other groups before you entered into that 
arrangement?
    Mr. Wenk. We did not have a competitive bidding process. 
There was no bid. There was no funds, government funds that are 
used with the NPCA.
    Mr. Bishop. Last year I asked the Interior Department for 
copies of communications between the National Alaska 
Conservation System and certain lobbying and political advocacy 
organization. It triggered an investigation by the Inspector 
General who in a couple of weeks, I think, will be presenting 
his report. I am making the assumption that there will probably 
be some level of improper activities identified.
    I have made a similar request from the Park Service. When 
do I expect to get a reply?
    Mr. Wenk. Mr. Bishop, I do not know the answer to that. I 
will find out and get you a response immediately after the 
hearing.
    Mr. Bishop. Has the Department of the Interior taken any 
steps since the scandal came to light dealing with NLCS to 
ensure that Department of the Interior employees cease any kind 
of improper collusion with political advocacy groups or 
lobbying groups?
    Mr. Wenk. I believe the Department of the Interior has in a 
very forthright manner tried to address the ethical behavior of 
all of our employees throughout the service. I cannot cite any 
specific examples for the instance that you have stated.
    Mr. Bishop. Can I make an assumption that probably once the 
report is finalized and actually presented by the Inspector 
General, that then would be an appropriate time to take----
    Mr. Wenk. Yes, you can.
    Mr. Bishop.--reconsideration of those actions.
    Mr. Wenk. Yes, you can, sir.
    Mr. Bishop. I have other questions but for now let me let 
my colleagues go.
    Mr. Grijalva. Thank you very much, and thank you, Mr. 
Bishop. You reminded me, Mr. Wenk, let me extend the 
appreciation of at least myself for those public lands that are 
on the border for not only the resource attention by I think 
the focus that has been placed on those challenges that the 
employees there face. It is very much appreciated by the 
employees, and I think by a better sense of security for 
visitors and it is appreciated a lot.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Heinrich, any questions, sir?
    Mr. Heinrich. I will apologize ahead of time for my voice 
today. Mr. Kashdan, the Albuquerque Service Center which you 
mentioned in your testimony is in my district, and it has 
obviously had its challenges, and there are a wide range of 
activities that have been moved there from around the country, 
and around the country meaning down the hall for most Forest 
Service employees.
    I am wondering, one, where is that process going on? Do you 
feel like you are ahead of the curve in terms of some of the 
challenges that that is faced? And what measures are you taking 
to make sure that that system where those activities are 
centralized is working to the benefit of Forest Service 
employees, and more importantly, the resources as well all 
across the country?
    Mr. Kashdan. Thank you for the question. In Albuquerque, we 
have three major operations that we have located here. Our 
financial management operation, which was the first to move 
there, is part of the Albuquerque Service Center. Our human 
resources program moved there about two years later, and then 
our information technology has been slowly moving people to 
Albuquerque, and I would expect to be moving about another 150 
to 190 information management employees there. So it is in 
various stages.
    I mentioned earlier in my opening remarks that the 
financial management operation, the first to go there, I would 
say is now very, very successful, running at about 450 
employees. That is down about 500 employees less than we used 
to have, and I would call that clearly a success. We are 
realizing about 28 to 30 million dollar annual savings as a 
result of the financial management operation.
    When I say savings, that is different than operating costs, 
and in human resources we targeted reducing about 20, actually 
saving about 28 million, and I would say that we are not 
experiencing savings yet because of some of the problems you 
had discussed.
    Our human resource operation, we are now going through what 
we are calling a strategic redesign to address some severe 
staffing backlogs, classification backlogs that I think are 
probably the primary sore point, if you will, for the rest of 
the organization. Those people used to be down the hall in our 
remote locations. So HR, we have a ways to go, and I would say, 
although we are not experiencing some of what I would call 
catastrophic problems of employees not getting paid, getting 
terminated without explanation, from a system problem we have a 
long way to go in HR, and I expect another couple of years 
before we can actually say we are in a savings mode there.
    In our information technology, like I said, we will be 
moving another 150 plus employees to Albuquerque. We have some 
key improvements we have to make in local service which I think 
is reinstating people down the hall in some of our local units, 
but I am very pleased with the decision we made about 
Albuquerque, and look forward to making it continue on the path 
to success.
    Mr. Heinrich. With that, Mr. Chair, I would just echo your 
comments about the importance of focusing on some of these 
public lands on the border. I have certainly had constituents 
who have been directly impacted by the challenges that the 
national wildlife refuges, the parks along the border have 
imposed on people visiting those facilities, and I think the 
extra attention there is well deserved and important if we are 
going to protect the resources that those were created to 
protect.
    With that, I would yield back the balance of my time.
    Mr. Grijalva. Thank you. Ms. Tsongas, questions, comments?
    Ms. Tsongas. Yes, thank you, Mr. Wenk, for your testimony. 
I happen to represent the Fifth District of Massachusetts that 
has--there are 14 national parks up in Massachusetts, and two 
of them are located in my district. The Minuteman National Park 
and the Lowell National Historical Park, they make up a part of 
our very unique history and culture and bring thousands of 
people a year to visit. In fact, in Lowell, Massachusetts, the 
initiation of the national park has been key to its 
revitalization as an old industrial city.
    If it were not for the knowledge and enthusiasm and 
experience of the people who work at these parks, I doubt the 
parks would experience so much popularity. My district has been 
lucky to have its parks run by extremely dedicated staff, two 
extraordinary superintendents and staff who have stayed with 
the parks for a long time. But many of them will be retiring, 
and I am concerned that the future of these parks and parks 
across the country, if they are unable to retain and attract 
good employees, they may be very much compromised.
    We have just heard about the challenges in the morale of 
the workforce, and we all know that the morale improves, not 
only how people do their jobs, but our ability, the park's 
ability to attract good people. So specifically I would like to 
know what you are doing to engage employees to improve morale 
and how, as you are looking forward to potential retirements, 
you are beginning to cast a net to bring in good people to 
replace the extraordinary ones who might be leaving.
    Mr. Wenk. If I can deal with your last question first. One 
of the opportunities that we were presented with the funding we 
received in advance of and in preparation for the centennial of 
the National Park Service in 2016, we were able to engage 3,000 
additional seasonal employees within the National Park Service. 
Those seasonal employees last year and again this year and in 
future years will help us in terms of outreach to new, to 
diverse employees, non-traditional employees to come in and 
work with the National Park Service.
    We also completed, based on the 2007 Best Places to Work, 
we took that very seriously, and we engaged with our learning 
and development organization to really look at what do we need 
to do within the National Park Service to be more effective, to 
provide a better work environment for employees to be able to, 
not only once we attract them, to retain them.
    Certainly we have initiated a fundamentals program that 
really steeps in the employees in the policies and the mission 
of the National Park Service, that we will train over 700 new 
employees to the Park Service this year in that program.
    We have initiated a new superintendent's academy so that 
people who get to the level where they are ready to take on 
that increased responsibility, we have a superintendent's 
academy that will help prepare those for that increased 
responsibility. I talked a little while ago we are partnering 
with universities to talk about leadership development. We have 
hired a new chief of training within the National Park Service 
who comes to us with great skills we believe is looking and 
doing the right things so that we are taking the steps 
necessary to, once we have attracted those employees, retain 
them and make them the best employees we can within the 
National Park Service.
    Ms. Tsongas. Thank you. That sounds promising. I can say 
from my experience with our national parks that the caliber of 
the superintendent is really key to how the overall park is 
managed and run, and the kind of presence it has in a 
community. So I think all your efforts on behalf of fostering 
superintendents can only serve us well.
    I have another question. I am concerned, and I have heard 
from those in my district with the centralization efforts of 
the agency, that many national parks have lost their ability to 
contract and execute projects; that they really have to look to 
a centralized location to move forward. With this diminished 
capacity, how are our national parks going to be able to spend 
the money under the American Recovery and Reinvestment Act 
effectively and expeditiously because we all know that the goal 
of that act is to move quickly and to get funds out into our 
economy and projects going quickly?
    Mr. Wenk. We are also very aware of the need to be able to 
have effective contracting for these projects within the Park 
Service. There is good news. In fact, at our central location, 
our Denver Service Center, which has a primary responsibility 
for the line item construction or the large construction 
programs, of which approximately three-quarters of the money 
that has been given to us under the recovery act, they have 
already increased their contracting staff.
    In addition to that, we did not centralize all contracting 
functions within the National Park Service. We have, we hope, 
hit a very good compromise between a number of contracting 
offices within each region that allows for the most effective 
contracting for projects and programs that can be done. We 
will, by centralizing or bringing people together and there may 
be three or four different contracting offices for every 
region, so I believe there is 21 or 22 across the National Park 
Service. They will be very efficient in their work. They will 
be very effective, being able to concentrate on the work that 
they know best and do best, and we believe that it is a--if you 
will--a sweet spot that does not bring total centralization but 
provides effective working relationships between contracting 
offices in park areas where they can develop relationships and 
they can be effective in their work. We believe we can obligate 
and get that money done in a very effective manner on the 
stimulus package.
    Ms. Tsongas. Thank you.
    Mr. Grijalva. Thank you. Ms. Shea-Porter, any questions, 
comments?
    Ms. Shea-Porter. Thank you, I do. Thank you for being here 
today and having this hearing. I had just a couple of 
questions.
    The first one was I was concerned about the report about 
outsourcing, and we have been dealing with this pretty much 
across the Federal government and different committees, and I 
wanted to know the impact. What percent are actually being 
outsourced, percentage of jobs, and is the concern among the 
Federal employees elevated or actually because they hear about 
it, or are there actual numbers saying this is having a serious 
impact? How many jobs are being lost? Anyone or each one of you 
have a different perspective.
    Mr. Kashdan. I can speak to that from the context of what 
we have experienced in competitive source. For the most part 
with some minor exceptions as part of the competitive sourcing 
process, most of the--in fact, the vast majority of the 
competitions actually stayed in-house. That did not mean that 
it was not somewhat disruptive and one of our notable ones that 
we did contract out as part of the competitive sourcing dealing 
with the fleet repair in California. We ultimately ended up 
terminating the contract.
    Other outsourcing that we consider on occasion but for the 
most part we are not actively engaged in any outsourcing 
activities now where jobs that have historically been performed 
by Federal employees. So it is so minor that I do not have the 
number, buy I could certainly get that for you, but it is a 
very small number.
    Ms. Shea-Porter. OK, thank you. And the other question I 
have was I know that over the past few years there have been 
some incidents in national parks that--petty crime or more 
serious crimes, and I wanted to know the impact on the morale 
of our workers there, and what else needs to be done.
    Mr. Wenk. I think any time that we have a crime, whether it 
is against an individual or against the environment, I think 
that our workforce is quick and very professionally responds to 
those occurrences. I believe, unfortunately, those are 
occurrences that date a long time in our history, you know, of 
those kind of issues. So I guess I do not believe that it has 
a--if we are talking petty crime and those kind of things--I do 
not think that has a real impact on our workforce. I think 
where the impact is, is the serious nature of some of the law 
enforcement situations, for example, along the border where we 
do not want and we will not put officers and employees at risk, 
and I think of steps we have taken through Operational 
Leadership, additional resources, we are addressing that very 
directly to make sure that we have an appropriate response and 
an appropriate level of protection and visitor services.
    Ms. Shea-Porter. OK. And you feel like you have the 
appropriate funding level to do that, to make sure you are 
staffed enough?
    Mr. Wenk. Well, we dedicated an additional $8.5 million in 
Fiscal Year 2009 to that effort along the southwest border. I 
think, whether it is the Federal government or private 
organization, many people always believe that they would put 
more resources to wise use.
    Ms. Shea-Porter. So I guess the question is do your 
employees feel there is enough resources there, those who 
actually work in the areas?
    Mr. Wenk. I think that our putting an additional $8.5 
million into the southwest is a reflection of our employees' 
concerns, just as putting additional money into the U.S. Park 
Police to increase the staffing, the equipment, the training, 
is a reflection of the needs of the U.S. Park Police.
    Ms. Shea-Porter. OK, thank you, and I yield back.
    Mr. Grijalva. Thank you. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and thank you for 
putting together this hearing.
    If I may ask about the BLM, and I suppose Mr. Nedd would be 
the best person to answer it. There have been reports that 
field employees have been pulled off of resource conservation 
programs in favor of efforts such as expediting permitting for 
energy development. Is that true? Has that been happening? Is 
this something that is frequent where people are not doing what 
they expect to do? And I suppose I could broaden that to the 
other management services as well. Do people feel that they 
have been yanked around, going from one job to another beyond 
their expectations?
    Mr. Nedd. Congressman, I do not believe so. That is a 
feeling. As part of the 2005 Energy Policy Act, Congress 
established seven pilot offices for the processing of oil and 
gas permits, and as part of that, biologists and other types of 
wildlife and resource position was hired as an 
interdisciplinary team to work on oil and gas permitting in 
those seven offices.
    But I do not believe it is widespread or the allegation 
that employees have been pulled off to do is really something 
that is true, and that we have been experiencing.
    Mr. Holt. Whether it was mandated by Congress or not is not 
my point. It is for whatever reason have people been pulled off 
the job? But you say it is a small number.
    Mr. Nedd. Congressman, additional resources was hired, so 
it was a small number, including biologists and other type of 
resource was hired to process those permitting in the seven 
offices. If they were pulled off, it may have been for a short 
period to work on an interdisciplinary team.
    Mr. Holt. Let me ask the other two witnesses if in the 
various services which I know there are some shortages of 
employees in some areas, whether people have been moved around 
in a way that is contrary to their expectations for which they 
were hired, and whether that affects morale.
    Mr. Wenk. Certainly if they are, it would affect morale, 
but, Congressman Holt, I cannot--I cannot think of 
circumstances or instances within the National Park Service 
right now where we have had movement of--there may have been 
movement within a specific park area as the superintendent sees 
a need for adjustments in terms of needs of that park area, but 
in terms of movement from place to place, different kinds of 
jobs, I think that is a very minimal occurrence within the Park 
Service.
    Mr. Kashdan. And Mr. Holt, I would say that our field 
workforce has the expectation that they will be highly flexible 
in responding to priorities, and so I think that the shifting 
is probably common, but that is not a demoralizer, particularly 
the example I would use is the Recovery Reinvestment Act where 
they are not responding to projects associated with jobs and 
mission, and it creates a separate set of project 
opportunities, and I think our employees are just absolutely 
excited about that.
    So I have not heard a negative aspect to shifting of their 
duties.
    Mr. Holt. Thank you. Thank you, Mr. Chairman. No questions 
at this moment.
    Mr. Grijalva. Any follow-up questions, Mr. Bishop? I have 
some too when you are done.
    Mr. Bishop. Do you want to go first?
    Mr. Grijalva. Yes. Let me ask kind of a general question to 
each of you, Mr. Kashdan first. Part of the underlying issue 
that we are talking with the workforce is morale, and a sense 
of job satisfaction, a sense of contribution that an employee 
needs in order to be able to do their job well, and also 
provide that service at the top-notch level, and let me ask a 
general question, and if you can answer it, that is fine.
    What impact has political pressure had on employees? In the 
case of forest, almost everything--decisions that are being 
made right now on siting, on development issues, on other 
things are under categorical exclusion, and at least from the 
employees I have talked to, going around the NEPA processes has 
had an effect on morale because professionally the inability to 
really deal with that resource question, the protection of that 
resource. Would you consider that political imperative of a 
categorical exclusion to have had an effect on morale?
    Mr. Kashdan. Mr. Chairman, let me answer that from the 
context of process that employees work through to achieve 
project execution, and the difficulties in completing all of 
the extensive process to have a project through to the point 
that you can actually execute it, and the degree to which maybe 
we spend 80 percent of our time getting to the last 20 percent 
of bullet-proofing, if you will, in terms of making a project 
appeal proof.
    So I would have to say from a process standpoint there is a 
frustration, but there is also an understanding of how critical 
it is for all aspects of the public, all parts of the public to 
be heard and that transparency is going to an extensive part of 
this new administration's emphasis on project execution, 
particularly relative to the recovery act where we are talking 
about blogs and right to the project level that is going to 
invite a lot of public input.
    So, I think that where we are going with this in the future 
is still to be defined as the administration adapts its 
position on working with NEPA and categorical exclusion.
    Mr. Wenk. Mr. Chairman.
    Mr. Grijalva. No, I was going to quickly--let me reference 
the rewriting of the management rules for Park Service, 
primarily done by political appointees at their urging, and 
that is the sense that I get, the effect on morale, same 
question.
    Mr. Wenk. Mr. Chairman, I think that the initial belief by 
the rank and file of the National Park Service was that the 
rewriting of the management policies was a top-down direction. 
I believe that in the middle of that process it became very 
much an employee-driven, National Park Service-driven rewrite 
of the management policies. I think the National Park Service, 
I think at the end of the day there was no--none or very little 
concern that the management policies changed any major 
direction, did anything in a significantly different way than 
has been the policies of the National Park Service for a long 
time.
    I think there is a reality within our workforce that, just 
as you have resource management concerns, you have, you know, 
all kinds of concerns, there are also concerns with local 
communities, stakeholders. We engage the public on a regular 
basis to understand what the stakeholders' interests are and we 
consider all those things in our decisionmaking process.
    But the policies themselves believe they are----
    Mr. Grijalva. Quickly for both, let me follow up, you know, 
on the political pressure question. Another kind of pressure is 
we expedite resource use on public lands and we have been doing 
that for possibly the last decade, expediting that process.
    In terms of morale, it appears from other reports that this 
Committee has received that the diminishing role of fact and 
science as part of the decisionmaking process has had an impact 
among the professional ranks as to their role in 
decisionmaking, because fact and science, on the resource side 
of it, is not given the prominence that it should have in terms 
of decisionmaking and planning. That affects morale because 
suddenly valuable studies and science are either changed or 
manipulated or ignored, and I would assume that has an effect 
on morale and the professional staff.
    Mr. Holt. If the gentleman would yield----
    Mr. Grijalva. I yield.
    Mr. Holt.--and if I could just append a specific example to 
that question. It is something that I have been involved in 
quite a bit--the winter vehicles in Yellowstone Park, which I 
believe were based--the initial regulations were based--on 
pretty good science, and yet their policies yo-yoed back and 
forth, partly because of the courts, no doubt. I would think 
that is a specific example of what the Chairman is asking 
about.
    Mr. Wenk. Mr. Chairman.
    Mr. Grijalva. Or in general. I mean, the issue is the 
effect on morale.
    Mr. Wenk. I think that the moral of the National Park 
Service is improved and will continue to improve based on the 
emphasis that both the President and the Secretary of the 
Interior placed on science-based decisionmaking. We certainly 
expect that science-based decisionmaking will be how we go 
forward with our decisions within the Department of the 
Interior and the National Park Service.
    Mr. Grijalva. Thank you. My time is up. Let me turn to Mr. 
Bishop if he has any follow-up questions. Sir.
    Mr. Bishop. Thank you. I have maybe three or four for each 
of them, if it is possible.
    Mr. Wenk, I am grateful that you said, I think the number 
was $8 million that you are going to add into the interior 
portions of land on the border for that is going to 
improvements and enforcement and improvements of that. But I do 
have one of the questions on just simply the commitment of 
Interior to increasing that, especially increasing law 
enforcement budgets, especially in light of the fact that DOI 
is going to spend more on the so-called mitigating effects of 
the border fence than it will on law enforcement. I just wonder 
why.
    Mr. Wenk. Well, certainly we recognize that we do have to 
mitigate the effects of the fence, and so we are going to deal 
with that. I think, Mr. Bishop, we continually look at the 
staffing needs and the requirements along the southwest border. 
We will look again in the 2010 budget and beyond to make sure 
we are adequately staffed to provide the resource and visitor 
protection that we need to do there, and it is an ongoing 
process. The 8.5 does not mean that we believe that we have 
solved the issue. It means we will continue to look but that is 
our commitment in 2009.
    Mr. Bishop. Let me try and help you get off the hot seat 
there because I do appreciate your improvement in that area. I 
want more improvement for obvious reasons.
    Obviously back in 2007, the Ironwood National Monument 
where three people were executed, the response at that time was 
simply to pull all the employees off the land for two weeks. 
Later they had to go back and pick up two tons of trash, and 
basically there was no change, no additional law enforcement, 
no practical changes.
    I am making the assumption when you say the additional 
money and re-looking at those, these types of things will be 
changed so a more proactive approach will be developed by the 
Department of the Interior for these types of situations on the 
border area.
    Mr. Wenk. Yes.
    Mr. Bishop. That was the easiest answer. Good for you.
    Let me ask you one other question for you and then I will 
leave you alone. The reason I asked the questions about the 
lead in the first place was simply the news release that was 
sent out by the Park Service, which is not clear at all that it 
was merely intended for internal government employees, and in 
fact the words that were used here is very broad, that your 
goal is to eliminate it all by 2010, and the eventual total 
removal of the Park Service. So I appreciate your clarification 
here. Let me just say I think the release was somewhat 
misleading, and I do appreciate the clarification. I think that 
is a better response and perhaps some semantics changes could 
have been used there.
    Mr. Wenk. We agree with you, Mr. Bishop.
    Mr. Bishop. Mr. Kashdan, and I have a couple of questions I 
would like to ask, do you hear complaints from Forest Service 
personnel that too much of their time is spent preparing for 
and working to prevent litigation?
    Mr. Kashdan. Similar to my answer before; that is, as part 
of process our employees are spending quite a bit of time 
working on process aspects, and when I said spend--concern 
about spending 80 percent of their time to get 20 percent 
bullet-proofing, I think it speaks to the aspect of avoiding 
litigation. So it takes quite a bit of time.
    Mr. Bishop. So I am assuming that 80 to 20 split can also 
be counted with the phrase ``paralysis to analysis'', that 
spends a whole lot of time rather than getting to the front of 
it, and I appreciate you saying that that is indeed a problem 
that you have to face in different times.
    Can I ask one other similar to what I asked Mr. Wenk? There 
are problems of crime on Forest Service lands in national 
forest areas too, Coronado, for example, where there have been 
numerous news stories basically about crime has returned there, 
as well as basically a loss of control to those areas to some 
criminal elements. Some of them are international criminal 
elements.
    What is being done to change those policies in the Forest 
Service and why simply is the Forest Service not asking for 
substantial funding increases for law enforcement on Forest 
Service lands?
    Mr. Kashdan. Thank you, Mr. Bishop. Yes, you mention the 
Coronado, which is one of our core partnership law enforcement 
issues that we have with the Department of the Interior and in 
fact with the border patrol. In terms of funding, let me just 
clarify that I believe it was Fiscal Year 2007 and 2008 our law 
enforcement program in the Forest Service received substantial 
increases. I am talking 25 million, roughly, to address the 
issues of drugs on the national forest and border issues.
    So, I would say that we had a very substantial increase 
that are really bringing our staffing up in Fiscal Year 2009 to 
address, and the vast priority associated with those increases 
are to directly address drugs and particularly organized crime, 
drug cartels that involve quite a bit of trafficking across the 
border, leading to marijuana gardens principally on national 
forest lands. So it is part of us working together quite 
extensively.
    So, we have had a very significant increase, and that is 
why the 2009 and 2010 budgets do not reflect another increase.
    Mr. Bishop. Maybe you could make a deal with the National 
Parks and Conservation Association to have them work on the 
border too.
    Mr. Chairman, I have four questions. Would you like me to 
defer and come back or do you want me to just get it over with 
now? It is up to you.
    Mr. Grijalva. I think it would be less painful if you got 
it over with now.
    [Laughter.]
    Mr. Bishop. From your point of view, it certainly would be.
    Mr. Nedd, I am sorry I do not have a specific question for 
you. I apologize for that. You will find how exciting these 
hearings are as time goes on in your new position. I guess the 
only thing I could say is I appreciate the answer you gave to 
Mr. Holt, that you are not yanking people to expedite permit 
processes, but to be honest, he has come up with a damn good 
idea. Maybe you should consider doing it, and I will leave you 
with that.
    I would also say I do appreciate the emphasis that both the 
Chairman and Mr. Holt said about using science. We would 
appreciate if that was--I mean, if EPA is not going to do it, 
at least you guys ought to. And I also appreciate a lot of the 
testimony that you have presented as to how the workforce in 
both the Forest Service as well as the Interior Department are 
responding. A lot of the concerns that were originally 
mentioned deal with job security, outsourcing, the need for 
more money. I hate to say that. You walk into any faculty room 
on a high school in this nation and you are going to hear the 
same concerns. So I think your ultimate response was actually 
very refreshing as to how you are going and how things have 
changed, and how you are moving forward in that particular 
area.
    I guess I just have one last question, Mr. Wenk or Mr. 
Kashdan, actually Mr. Nedd, if you want to do this. We will 
probably go on the Floor today with some suspensions to try and 
do some retroactive taxing on people, so you know, when we 
create a problem and a loophole in the law, we are going to 
come back and try and fix it by going after them in a punitive 
way.
    So, are there any groups that you would like us to go 
after? I mean, if you can do it for one, you can do it for 
others. Just name them and we will do some kind of retroactive 
punitive taxing measures on them. Seems to be a very effective 
way of getting something done. Do you have any that just come 
to the top of your head? Do not say politicians, because when 
we talk we emit CO<INF>2</INF> and there may be a tax on that 
later on?
    Mr. Kashdan. I will defer to my colleagues.
    Mr. Wenk. Can I consult and answer that for the record?
    [Laughter.]
    Mr. Bishop. If you would like to do a written statement 
later, I think that would probably--Mr. Nedd, you wish to go 
where the angels fear to tread?
    Mr. Nedd. I have no recommendation.
    Mr. Bishop. That is good. Thank you very much.
    Mr. Grijalva. Thank you, Mr. Bishop.
    One request for information for the Committee relative to 
the cost, and let me just be specific about the border of 
public lands. The question that has come up time and time 
again, and at least talking with your land managers in those 
parks that were referenced by Mr. Bishop, is the cost recovery 
issue; that a cost basically incurred by Interior, Agriculture, 
as a consequence of supplanting and subsidizing some of the 
enforcement activities of homeland security, and if you would--
at least I heard that from the law enforcement side, the land 
managers side. If you could provide the Committee that 
information. I think there is a cost recovery issue that I have 
brought up consistently, that homeland security in its access 
and work on the public lands, as they do that there is 
mitigation issues that need to be taken care of, there are 
reassignment of personnel to deal with security issues as 
opposed to management, resource issues, and I think there is a 
cost attendant, and we would appreciate that information.
    Mr. Wenk. We can provide that.
    Mr. Grijalva. Thank you. Thank you very much, and I would 
invite the next panel, please.
    Thank you very much. We are going to be called soon, I 
assume in the next 10 or 15 minutes, for a vote. We will try to 
get through as much of this panel as we can, and then recess, 
and come back and begin where we left off. Hopefully, we can 
get through the testimony, and when we come back to only have 
the question and answer process left. So thank you very much 
for being here, taking the time. Some of you came from long 
ways away to get here, and it is very much appreciated. It is 
an important issue to this Committee and an issue that your 
input we are going to follow up on.
    So let me begin with Mr. Kevin Simpson, Executive Vice 
President, Partnership for Public Service. Thank you very much 
for being here, sir, for your testimony.

     STATEMENT OF KEVIN SIMPSON, EXECUTIVE VICE PRESIDENT, 
        PARTNERSHIP FOR PUBLIC SERVICE, WASHINGTON, D.C.

    Mr. Simpson. Thank you, Chairman Grijalva and Congressman 
Bishop. Thank you for the opportunity to appear before you 
today.
    I represent the Partnership for Public Service, which is a 
nonpartisan, nonprofit organization which is dedicated to 
revitalizing the Federal Civil Service by inspiring a new 
generation to serve, and transforming the way the Federal 
government works.
    We at the partnership believe very strongly that employee 
engagement is an absolutely indispensable predicate for 
organizational excellence, and as such, it should be the shared 
responsibility and concern of agency leaders, both career and 
political, as well as of Congress, and that is why we are so 
pleased to be here today to discuss issues of employee 
engagement at the Forest Service, the Bureau of Land Management 
and the National Park Service.
    Since 2003, the Partnership has published on a bi-annual 
basis our Best Places to Work in the Federal Government 
Rankings, which are built upon data from OPM's Federal Human 
Capital Survey to provide a comprehensive set of rankings of 
employee engagement among Federal agencies and their 
subcomponents. We measure not only overall engagement but also 
10 different workplace environment characteristics such as 
employee skills and mission match, the quality of leadership, 
work/life balance, and other characteristics. When used 
appropriately and consistently over time, the best place 
rankings can aid Congress in fulfilling its oversight 
responsibilities by highlighting the Federal government's high 
performing agencies and raising a red flag before agencies fail 
at important public responsibilities, when agencies suffer from 
low employee engagement and the associated risks of poor 
performance.
    In our 2007 best places rankings, we ranked 30 large 
agencies. The Department of Agriculture, which the Forest 
Service is a part, ranked 17 out of 30 large agencies. The 
Department of the Interior, which includes NPS and BLM, ranked 
22 out of 30. We also broke those agencies down further into 
220 ranked subcomponents. All three agency subcomponents at 
issue here ranked in the bottom half when compared to the total 
222 agency subcomponents. Forest Service ranked 143, NPS ranked 
160, BLM ranked 157 out of 222 subcomponents.
    For 2009, we are preparing our rankings now, but we expect 
to see modest improvements for NPS and for the Bureau of Land 
Management. However, we predict the Forest Service's overall 
ranking will drop. At the Forest Service we see a downward 
trend in the 2008 survey responses to key questions that 
reflect overall employee satisfaction.
    For example, 56 percent of Forest Service employees 
surveyed say they would recommend their organization as a good 
place to work, and that is a decline from 61 percent two years 
ago. Sixty-two percent say they are satisfied with their job. 
That is a decline from 70 percent in 2006. Forty-four percent 
say they are satisfied with their organization. That is down 
from 51 percent two years ago.
    Clearly there is much work to be done to improve employee 
morale and engagement in all three agencies, and the Forest 
Service, in particular, may have greater hurtles to overcome.
    There are bright spots. Employees at all three agencies are 
attracted by the mission of their organization and believe 
their jobs are a good match for their skills. More than 80 
percent of employees at the Forest Service, the NPS and the BLM 
say that they like the kind of work that they do. There is a 
decline at the Forest Service slightly from 88 percent in 2006 
to 83.5 percent in 2008 on this measure. That is notable, but 
the numbers are still high on an absolute level.
    The Park Service's responses have remained relatively 
stable over time, and BLM has actually increased slightly from 
82.9 percent in 2006 to 84.5 percent.
    All three subcomponents compare favorably with the private 
sector benchmark of 83 percent. We do know that satisfaction 
with regard to training has increased at both NPS and BLM, and 
that suggests that an increased investment in this area by the 
Department of the Interior is noted and appreciated by its 
employees. On the other hand, satisfaction with training has 
decreased at the Forest Service.
    In terms of areas for improvement, the number one driver of 
employee satisfaction in all three agencies, according to the 
2007 best places rankings, is leadership, and we see that 
governmentwide. In 2008, the survey results for the three 
agencies we are talking about today are far below the 
governmentwide average for virtually every question about 
effective leadership. Responses are particularly low for the 
questions on whether leaders generate high levels of motivation 
and commitment in the workforce. Only 27 percent of respondents 
at the Forest Service say their leaders generate high levels of 
motivation. National Park Service and BLM do not fair much 
better with just slightly higher scores of 29.6 percent and 30 
percent, respectively.
    Similarly, the 2008 survey responses show us that a 
majority of employees do not have a high level of respect for 
senior leaders in their organization. They do not believe their 
leaders maintain standards of honesty and integrity, do not 
feel empowered with respect to work processes, and do not feel 
satisfied with the information received from management about 
what is going on in the organization.
    Taken together, the results from the 2007 best places 
rankings and the trend data from FHCS convey the sense of a 
public lands workforce that under stress. The Forest Service, 
NPS and BLM are fortunate to have workforces that are highly 
committed to their respective missions and who generally 
believe that their immediate supervisors are doing a good job. 
But these are also workforces who say they lack the resources 
to do the job required of them, that their agencies do not 
excel in recruiting new talent with the needed skills, and that 
their leaders failed to inspire and motivate high performance, 
and that the skill level of the agencies is stagnant.
    We can say with confidence that an underresource and 
undertrained workforce will not be able to perform at its best 
on behalf of the American people.
    We have a set of recommendations. Well, I am doing OK on 
time. The Partnership offers several recommendations for 
attracting talent, improving morale and enhancing overall 
employee satisfaction and engagement at the Forest Service and 
the National Park Service and the Bureau of Land Management.
    Leadership, obviously, should be a key priority for all 
three agencies. They should make improving satisfaction and 
engagement a priority. Leaders should also focus on improving 
horizontal and vertical communication and fostering 
opportunities for employee input.
    Supervisors should be selected based on leadership/
management skills, and not just technical expertise. Congress 
should support agencies in creating a dual track for technical 
experts, allowing them to be compensated, recognized for their 
skills and abilities without the necessity of becoming 
supervisors.
    Congress should ensure that the agencies have the resources 
and the personnel necessary to fulfill their mission, and that 
includes setting aside funding for training and leadership 
development.
    We also suggest that Congress require the Office of 
Personnel Management to conduct a Federal Human Capital Survey, 
the Federal Human Capital Survey on an annual basis, and 
release the data as soon as its accuracy can be assured. This 
will enable agencies to make real-time course corrections where 
needed; provide an annual benchmark capability by providing 
consistent data across agency lines; and provide Congress a 
more timely and informative oversight tool.
    And finally, we have also suggested a Federal Applicant's 
Bill of Rights to make the application more user friendly and 
the hiring process more timely and transparent.
    I will submit the rest of my remarks for your 
consideration.
    [The prepared statement of Mr. Simpson follows:]

       Statement of Kevin Simpson, Executive Vice President and 
            General Counsel, Partnership for Public Service

    Chairman Grijalva, Representative Bishop, Members of the 
Subcommittee, thank you for the opportunity to appear before you today. 
I am Kevin Simpson, Executive Vice President and General Counsel of the 
Partnership for Public Service, a nonpartisan, nonprofit organization 
dedicated to revitalizing the federal civil service by inspiring a new 
generation to serve and transforming the way the federal government 
works. We are honored to be here today to discuss morale at the Forest 
Service, Bureau of Land Management (BLM), and National Park Service 
(NPS). In our testimony, we will comment on the efforts of these 
agencies to improve recruitment, retention and overall employee 
satisfaction, and will suggest areas which we believe would benefit 
most from this subcommittee's attention.
    The Partnership has two principal areas of focus. First, we work to 
inspire new talent to join federal service. Second, we work with 
government leaders to help transform government so that the best and 
brightest will enter, stay and succeed in meeting the challenges of our 
nation. That includes all aspects of how the federal government manages 
people, from attracting them to government, leading and engaging them, 
supporting their development and managing performance; in short, all 
the essential ingredients for creating, developing and maintaining a 
world-class workforce.
A New Opportunity
    On the eve of the Presidential election in November 2008, the 
Partnership conducted a poll with Gallup on public perceptions of the 
federal government. <SUP>1</SUP> The research confirmed that most 
Americans continue to think poorly of their government in general. When 
asked to assess the performance of various levels of government, less 
than one-third of Americans gave a positive rating to the departments 
and agencies of the federal government (27 percent) and just over one-
third were positive about the performance of civil servants in the 
federal government (37 percent).
---------------------------------------------------------------------------
    \1\ In the Public We Trust: Renewing the Connection between the 
Federal Government and the Public. Partnership for Public Service and 
Gallup, November 2008.
---------------------------------------------------------------------------
    While the general public lacked confidence in government, there 
were a few positive signs--and one of them was the national parks. 
Survey respondents were asked to rate the job that the federal 
government was doing on different issues. With respect to ``running the 
country's national parks,'' 51 percent said they thought the federal 
government was doing a ``good/excellent'' job, while 36 percent said 
``fair/poor'' job and 13 percent said they didn't know. The Forest 
Service, NPS and BLM need to capitalize on this public support for the 
work of government in managing our parks and public lands, and Congress 
must ensure that these agencies have the human resources they need to 
maintain and protect the natural resources that so many Americans 
treasure.
    With the election and subsequent inauguration of President Obama, 
there has been a renewed interest in government service. Agencies need 
to capitalize on these changing attitudes and work hard to recruit, 
engage and retain top talent in service to the American people.
    In his inauguration speech, President Obama said it well: ``The 
question we ask today is not whether our government is too big or too 
small, but whether it works.'' As the new administration begins to 
settle in, we urge the President and Congress to focus not just on 
policy objectives but also on ensuring that our government has the 
talented and engaged federal workforce that it needs to effectively 
implement those policies.
    The Partnership issued a report last year entitled ``Roadmap to 
Reform: A Management Framework for the Next Administration.'' 
<SUP>2</SUP> In our report, we suggest that the core components of an 
effective workforce include having the right talent; an engaged 
workforce; strong leadership; and, public support. This is true for 
government as a whole, and it is true for the departments and agencies 
of government--including the Forest Service, National Park Service and 
Bureau of Land Management. The Partnership is pleased to provide you 
with some insight into the human capital challenges facing these 
agencies and suggest some areas in which your oversight and legislative 
attention would have the most impact.
---------------------------------------------------------------------------
    \2\ Roadmap to Reform: A Management Framework for the Next 
Administration. Partnership for Public Service, October 2008.
---------------------------------------------------------------------------
Measures Drive Change
    The old adage that ``what gets measured, gets changed'' still holds 
true. And when it comes to the federal workforce, not enough is getting 
fully measured. Data available on the state of the federal workforce is 
not systematically organized, evaluated or disseminated in a way that 
is meaningful to all of the key audiences.
    The value of indicator systems as an effective tool for driving 
reform has been widely documented. The Partnership has taken a step 
toward creating national indicators through our Best Places to Work in 
the Federal Government rankings, prepared in collaboration with 
American University's Institute for the Study of Public Policy 
Implementation. The Best Places rankings build upon data from the 
Office of Personnel Management's (OPM) Federal Human Capital Survey 
(FHCS) to provide a comprehensive assessment of employee satisfaction 
across the federal government's agencies and their subcomponents.
    Employee satisfaction and commitment are two of the necessary 
ingredients in developing high-performing organizations and attracting 
needed talent to meet our nation's challenges. The Best Places to Work 
rankings are a key step in recognizing the importance of employee 
satisfaction and ensuring that it is a top priority of government 
managers and leaders.
    Since the first rankings were released in 2003, they have helped 
create much-needed institutional incentives to focus on priority 
workforce issues and provide managers and leaders with a roadmap for 
boosting employee engagement.
    The rankings also provide Members of Congress and the general 
public with unprecedented insight into federal agencies and what the 
people who work in those agencies say about leadership, mission and 
effectiveness. Ideally, the Best Places rankings can aid Congress in 
fulfilling its oversight responsibilities by highlighting the federal 
government's high-performing agencies and raising a red flag when 
agencies suffer from conditions that lead to low employee engagement 
and, consequently, poor performance.
A Look at Employee Engagement
    The Partnership recently received the 2008 Federal Human Capital 
Survey data from OPM for agency subcomponents so we are in the process 
of preparing our 2009 Best Places rankings. Although the rankings will 
not be calculated and released until later this spring, we can discuss 
the 2007 rankings and are able to preview some important findings for 
the subcommittee drawn from the 2008 Federal Human Capital Survey. 
Additionally, we can provide some trend data for the subcomponents 
based on Survey data from 2002-2008.
    In 2007, the Partnership ranked 30 large agencies, 31 small 
agencies and 222 agency subcomponents. Our index scores are computed 
based on data that comes from federal employees themselves through 
their responses to OPM's Federal Human Capital Survey. As part of the 
rankings, we organize the data into ten key workplace categories which 
are all key drivers of employee satisfaction: employee skills/mission 
match, leadership, work/life balance, teamwork, pay and benefits, 
training and development, support for diversity, strategic management, 
performance-based rewards and advancement, and family-friendly culture 
and benefits.
    In the 2007 Best Places ranking, the Department of Agriculture, of 
which the Forest Service is a part, ranked 17 out of 30 large agencies. 
The Department of the Interior, which includes NPS and BLM, ranked 22 
out of 30. All three agency subcomponents received rankings comparable 
to other subcomponents in their respective departments; however, they 
all ranked in the bottom half when compared to the total 222 agency 
subcomponents. The Forest Service ranked 143 out of 222 subcomponents, 
NPS ranked 160 out of 222 subcomponents, and BLM ranked 157 out of 222 
subcomponents. After a preliminary review of the 2008 FHCS data, we 
expect to see modest improvements in the 2009 Best Places rankings for 
NPS and BLM; however we predict that the Forest Service's ranking will 
drop. At the Forest Service, we see a downward trend in the 2008 FHCS 
responses to key questions that reflect overall employee satisfaction:
    <bullet>  Fifty-six percent of employees surveyed say they would 
recommend their organization as a good place to work, which is a 
decline from 61 percent two years ago;
    <bullet>  Sixty-two percent say they are satisfied with their job, 
also a decline from 70 percent in 2006;
    <bullet>  Only 44 percent say they are satisfied with their 
organization, down from 51 percent.
    Results such as these suggest that something is not going right at 
the Forest Service. Clearly, there is much work to be done to improve 
employee morale and engagement in all three agencies and the Forest 
Service in particular may have greater hurdles to overcome.
    It is encouraging to note that the agencies we are discussing today 
have one prominent thing in common--employees are attracted by the 
mission of their organization and believe their jobs are a good match 
for their skills. More than 80 percent of employees at the Forest 
Service, NPS and BLM say that they like the kind of work they do. There 
is a decline at the Forest Service from 88 percent in 2006 to 83.5 
percent in 2008, which is notable, but the numbers are still high. NPS 
responses have remained relatively stable over time and the BLM has 
increased slightly, from 82.9 percent in 2006 to 84.5 in 2008. All 
three subcomponents compare favorably with the private sector benchmark 
of 83 percent. Agency leaders, both at headquarters and in the field, 
should continue to focus on the mission and help employees understand 
the connection between the work they are doing and broader 
organizational goals.
    In terms of areas for improvement, the number one driver of 
employee satisfaction in all three agencies according to the 2007 Best 
Places rankings is leadership, and we expect this will continue to be 
the case in the 2009 rankings. The Forest Service, NPS and BLM will 
need to make a concerted effort to address leadership. Improving 
employee perceptions of their leaders will have the most impact on 
employee engagement.
    The Federal Human Capital Survey includes several questions 
regarding employee perceptions of leadership in the workplace. In 2008, 
the survey results for the three agencies we are discussing today are 
notably low--far below the government-wide average--for virtually every 
question about effective leadership. Responses are particularly low for 
the questions on whether leaders generate high levels of motivation and 
commitment in the workforce and whether complaints, disputes or 
grievances are resolved fairly in their work unit. Only 27 percent of 
respondents at the Forest Service say their leaders generate high 
levels of motivation. The National Park Service and BLM do not fare 
much better with just slightly higher scores of 29.6 percent and 30 
percent respectively. With regard to the way complaints, disputes and 
grievances are resolved in the workplace, 32.7 percent of employees at 
the Forest Service, 34.9 percent at NPS and 34.6 percent at BLM feel 
they are handled well. The Departments of Agriculture and the Interior 
also receive low marks from employees on both of these questions, which 
suggest that leadership needs to be addressed at the Department level, 
as well.
    Similarly, scores reveal that a majority of employees do not have a 
high level of respect for senior leaders in their organization, do not 
believe their leaders maintain high standards of honesty and integrity, 
do not feel empowered with respect to work processes and do not feel 
satisfied with the information received from management about what is 
going on in the organization. At the Forest Service, for example, only 
37 percent of respondents believe they have sufficient information as 
compared to 66 percent in the private sector benchmark, which is a 
substantial difference. On a more positive note, 66 percent of 
respondents at the Forest Service believe that their immediate 
supervisor/team leader is doing a good job, which is the government-
wide average. Despite the good news about supervisors, all three 
agencies still fall below the private sector comparison of 74 percent. 
These data points combine to tell an unfortunate tale about the state 
of leadership in our public lands agencies.
    In addition to leadership, there are other key areas where the 
Forest Service, NPS and BLM need to focus their attention. According to 
the 2008 FHCS data, it appears that the agencies are still struggling 
to cultivate a work environment with a positive work/life balance. On 
the one hand, survey respondents strongly believe that their 
supervisors support their need to balance work and other life issues. 
This is one of the areas where the Forest Service gets the highest 
marks. Eight-two percent of respondents believe their supervisor 
supports a healthy work/life balance. On the other hand, it is clear 
that Forest Service respondents do not believe that they have 
sufficient resources (e.g., people, materials, budget) to accomplish 
their jobs. Only 32.5 percent of respondents say they have sufficient 
resources, a drop from 39 percent in 2004. The government-wide average 
is 51.2 percent. The Bureau of Land Management (41.6 percent) and 
National Park Service (35.3 percent) do not fare much better but their 
scores have improved slightly since 2006. Clearly this question of 
resources is one area that warrants further attention from the agencies 
and from Congress.
    According to the Best Places rankings, strategic management is 
another key driver of employee engagement. When asked the question ``my 
work unit is able to recruit people with the right skills'' on the 2008 
FHCS, the scores are low for BLM and NPS and are particularly low for 
the Forest Service. Only 35.3 percent of survey respondents from the 
Forest Service believe their work unit is able to recruit people with 
the right skills. The scores for BLM and NPS are both 41 percent, which 
is still lower than the government-wide average of 45 percent.
    In general, employees at the Forest Service, NPS and BLM believe 
that the workforce has the job-relevant knowledge and skills necessary 
to accomplish organizational goals. The scores are relatively high and 
range from 71 percent (BLM) to 66 percent (Forest Service); however, 
the same employees do not give high marks for the question on whether 
the skill level in their work unit has improved in the past year. We do 
know that satisfaction with regard to training has increased at both 
NPS and BLM. This suggests that an increased investment in this area by 
the Department of the Interior is noted and appreciated by employees. 
On the other hand, satisfaction with training has decreased at the 
Forest Service. In 2006, 63 percent said they were satisfied with 
training, well above the government-wide average of 54 percent. Now, 
two years later, only 55 percent say they are satisfied with training.
    Taken together, the results from the 2007 Best Places rankings and 
the trend data from the FHCS convey the sense of a public lands 
workforce that is under stress. The Forest Service, NPS and BLM are 
fortunate to have workforces that are highly committed to their 
respective missions and who generally believe their immediate 
supervisors are doing a good job. But these are also workforces who say 
they lack the resources to do the job required of them, that their 
agencies do not excel in recruiting new talent with needed skills, that 
their leaders fail to inspire and motivate high performance, and that 
the skill level of the agencies is stagnant. We can say with confidence 
that an under-resourced, under-trained workforce will not be able to 
perform at its best on behalf of the American people.
    Congress and the Administration need to work together to ensure 
that adequate resources are available. This includes making sure that 
agencies are using all of the tools at their disposal to recruit, 
retain and develop talent; ensuring the resources are available to use 
these tools effectively; addressing leadership issues and cultivating 
new leaders; and, investing in training and support for supervisors/
managers to ensure that they are able to effectively manage a diverse 
workforce which includes many seasonal and part-time employees.
    Since a significant percentage of the workforce at BLM, NPS and the 
Forest Service are not full-time permanent employees, Congress should 
encourage agencies to do regular ``pulse check'' surveys that include 
part-time, temporary and volunteer workers. These groups are not 
included in the FHCS but are an important population, and their 
performance directly affects the ability of these agencies to fulfill 
their missions.
    In addition, better and more frequent data are essential for 
Congress to conduct necessary oversight of the Forest Service, NPS and 
BLM and how they are managing their workforces. We recommend that OPM 
conduct the Federal Human Capital Survey on an annual basis, and 
release the data as soon as its accuracy can be assured. This will 
enable the agencies to make real-time course corrections where needed; 
provide an annual benchmark capability by providing consistent data 
across agency lines; and provide Congress a more timely and informative 
oversight tool.
NPS Case Study
    Last summer, at the request of the National Parks Conservation 
Association, the Partnership conducted an analysis of employee 
satisfaction and engagement at the National Park Service. The 
Partnership conducted a trend analysis for NPS using FHCS data from 
2002-2006. The trend analysis informed a subsequent set of focus groups 
of NPS employees conducted by Peter D. Hart Research Associates, Inc. 
in fall 2008. The Partnership has recently issued a set of 
recommendations for how NPS might improve leadership. Many of these 
recommendations can be applied to Forest Service and BLM, as well.
    First, the Partnership recommended that NPS work to engage 
leadership. Senior leaders need to understand the importance of having 
an engaged workforce and clearly make improving employee engagement a 
priority. We recommended that NPS leadership meet as a team to 
determine priorities around improving engagement. New political 
appointees, particularly the next Assistant Secretary for Fish and 
Wildlife and Parks and his or her key staff, should be included as soon 
as--and to the maximum extent--possible.
    Effective communication begins at the top of the organization. 
Employees need to hear from NPS leaders that employee engagement is a 
priority.
    <bullet>  First, we recommended that leaders send emails, convene 
town hall meetings and spread the word through other communication 
channels that improving employee engagement is a key goal for NPS 
leaders.
    <bullet>  Second, we suggested that leaders share the summary 
findings of the FHCS and then focus on group results with employees--
the good, the bad and the ugly.
    <bullet>  Third, we urged NPS to communicate leadership's top areas 
or issues for improvement and periodically follow up with employees 
through progress reports.
    <bullet>  Finally, we recommended that NPS leaders ask for input on 
specific issues and then use that employee feedback (e.g., ask 
employees: how can we better use our limited resources to achieve our 
mission?).
    Leaders also need to foster effective communication from the bottom 
up. Employees need to know that they are heard and that their opinions 
and perspectives matter. Leaders should provide additional avenues for 
upward communication; for example, a virtual employee suggestion box, 
short pulse surveys, or town hall meetings. Employees should be 
encouraged to provide input on projects and should be consulted on how 
to improve processes. It is important that employees are heard and that 
senior leaders follow up on suggestions.
    Developing strong supervisors and managers must be a priority for 
NPS leadership. NPS leaders should consider conducting 360-degree 
reviews of supervisors or create a mentoring program to help them 
develop. Leaders should also select supervisors based on an 
individual's management and leadership skills, rather than simply 
technical expertise. It makes sense to create a dual track for those 
technical experts, which will allow them to be compensated and 
recognized for their skills and abilities without requiring them to 
become supervisors.
    Finally, it is important that NPS leaders, as well as supervisors/
managers conduct regular, meaningful performance discussions and 
provide guidance for how employees can improve and build upon 
strengths. Leaders are also encouraged to recognize and reward 
employees' good work through a simple ``thank you,'' additional time 
off, spot awards or other methods.
Attracting New Talent
    The good news is that the federal government is an attractive 
employer, whether it is for young people graduating from college or 
older Americans considering encore careers. Our January 2009 report, 
``Great Expectations: What Students Want in an Employer and How Federal 
Agencies Can Deliver It,'' surveyed almost 32,000 American 
undergraduates about what they are looking for in an employer. 
<SUP>3</SUP> We found that government/public service is the most 
popular industry choice out of 46 career options among the 
undergraduates surveyed. A healthy work/life balance was the number one 
career goal, with 66 percent of students citing this as a priority; 46 
percent of students say they want to be dedicated to a cause or feel 
they are serving a greater good.
---------------------------------------------------------------------------
    \3\ Great Expectations: What Students Want in an Employer and How 
Federal Agencies Can Deliver It. Partnership for Public Service and 
Universum, January 2009.
---------------------------------------------------------------------------
    Older workers also find the federal government to be an attractive 
employer. The Partnership published a report in January, 2008, entitled 
``A Golden Opportunity: Recruiting Baby Boomers Into Government.'' 
<SUP>4</SUP> As part of the report, we surveyed older workers and found 
that 58 percent believed ``there are good jobs for people like me in 
the federal government.'' When asked what job qualities they found most 
appealing, respondents cited work that is interesting and challenging 
and offers health care benefits, both of which the government offers.
---------------------------------------------------------------------------
    \4\ A Golden Opportunity: Recruiting Baby Boomers Into Government. 
Partnership for Public Service, January 2008.
---------------------------------------------------------------------------
    Tapping into this interest in federal service is essential to 
ensuring that the Forest Service, NPS and BLM have the human resources 
needed to meet their responsibilities; indeed, the federal government 
as a whole needs to attract new talent at all levels. The Partnership 
projects that more than 500,000 full-time permanent federal employees 
will leave government over the next five years, the majority through 
retirement. This exodus of talent will create huge voids that will need 
to be filled.
    The three agencies we are discussing today have significant hiring 
needs. In 2008 alone, the agencies made the following new hires:
    <bullet>  Forest Service: 1,148 full-time, permanent and 12,548 
full-time, temporary;
    <bullet>  Park Service: 590 full-time, permanent and 8,905 full-
time, temporary;
    <bullet>  Bureau of Land Management: 550 full-time, permanent and 
2,509 full-time, temporary.
    According to the USAJOBS Web site, on March 12, 2009, there were 
over 1,400 job openings being advertised at the National Park Service, 
Forest Service and Bureau of Land Management combined. The largest 
number, 594 vacancies, were at the Bureau of Land Management. The 
Forest Service had 436 vacancies and NPS had 385. These positions run 
the gamut from Fire Management Officer to Park Ranger to Biological 
Science Technician, and are located all across the country. A 
significant number of these vacancies are temporary, seasonal 
positions.
    It's likely this level of hiring will continue and perhaps increase 
into at least the near future given that the Recovery Act includes $146 
million for the NPS, $125 million for BLM, and $650 million for the 
Forest Service. Further, the President's proposed FY 2010 budget calls 
for a $100 million increase in park operations (plus inflation) and a 
$50 million increase (plus inflation) for national forest operations, 
among other initiatives likely to impact on hiring needs in both 
agencies. Clearly this is a time to focus on efforts to improve the 
federal government's ability to effectively attract and hire some of 
the nation's best talent for the jobs to be filled.
    A short visit to the USAJOBS Web site shows quite clearly that 
federal hiring procedures are inconsistent and not designed with a 
positive applicant experience in mind. In one vacancy announcement for 
a ``Park Ranger (I)'' at the National Park Service, the information 
under the ``how to apply'' tab was nine pages long. Some applications 
may be submitted online; others ask applicants to send applications via 
U.S. Mail. Some job announcements provide the name of a point of 
contact; others cite the general phone number for the human resources 
office. One of the most common requirements across government is that 
applicants answer several essay questions to address ``KSAs''--
knowledge, skills and abilities--a time consuming task that discourages 
many of even the most qualified people from applying. Those motivated 
enough to complete the application process find that it is just the 
beginning; some wait months before receiving a response. It is no 
wonder that many potential candidates for federal positions conclude 
that it is simply not worth the effort to apply.
    While we cannot comment on the specific hiring practices of the 
Forest Service, BLM and NPS, we can say that government as a whole 
needs to improve its ability to hire the right talent, with the right 
skills, in a timely manner. The Subcommittee would be well-served to 
review the hiring processes at the three agencies we are discussing 
today to determine whether our public lands agencies are indeed hiring 
as effectively as they could be. The Partnership would like to offer 
some general recommendations with regard to recruiting and hiring new 
talent.
    1.  First, we suggest that Congress pass legislation creating a 
``Federal Applicant's Bill of Rights.'' <SUP>5</SUP> An applicant bill 
of rights should provide that the hiring process must be 
understandable, transparent and timely. Job announcements should be 
written in plain English. In most cases, applicants should be able to 
apply online with a standard resume, and should be able to reach a real 
person at the agency to which they are applying if they have questions. 
Agencies should be held accountable for making timely hiring decisions, 
and notifying applicants when a hire has been made.
---------------------------------------------------------------------------
    \5\ See Applicant's Bill of Rights draft legislative language in 
Appendix I.

          We also suggest that Congress require better data collection 
        from federal agencies regarding their hiring effectiveness. 
        <SUP>6</SUP> This subcommittee needs more and better 
        information from the agencies you oversee regarding their 
        ability to hire and retain needed talent. Measures of hiring 
        effectiveness should include an understanding of where the 
        agencies are getting their talent, whether that talent is 
        diverse, whether managers are satisfied with the match between 
        the skills of newly hired individuals and the needs of their 
        agencies, and whether qualified applicants accept positions 
        elsewhere due to the length or complexity of federal hiring. It 
        is also important to collect data on the temporary, seasonal 
        and part-time employees who comprise a significant part of our 
        nation's public lands workforce.
---------------------------------------------------------------------------
    \6\ The Partnership suggests ``Measures for Federal Hiring 
Effectiveness'' in Section 3 of the draft ``Federal Applicant's Bill of 
Rights'' in Appendix I.
---------------------------------------------------------------------------
    2.  Agencies should prioritize student internships as key talent 
sources for entry-level jobs and then recruit accordingly and resource 
these programs adequately. They should also make greater use of the 
Student Career Experience Program (SCEP) because these internships are 
designed to enable agencies to convert the most promising students into 
permanent employees. Managers should have greater flexibility to hire 
students from all internship programs who have demonstrated their 
capabilities. Congress should require agencies to evaluate their intern 
programs and ensure agencies are making the best use of their authority 
to build their critical workforce pipelines.

          Other agencies can learn from the Bureau of Land Management, 
        which will be highlighted in a future Partnership report on 
        federal student internship programs. The agency hired a student 
        coordinator to oversee the National Student Employment 
        Programs, Presidential Management Fellows Program and Federal 
        Career Intern program. The coordinator develops standardized 
        procedures, sets expectations across the agency and maintains a 
        resume databank that hiring managers can tap. She also conducts 
        monthly conference calls with student employment program 
        coordinators in all 16 states in which BLM operates, which 
        allows for the sharing of best practices for recruiting 
        students and ultimately converting them to full-time permanent 
        employees. BLM also developed an entire online training program 
        with modules applicable for student program coordinators, 
        hiring managers and supervisors as well as students.

          These efforts have been paying off. There are roughly 200 
        SCEP interns with the BLM each year. About one-third receive 
        special incentives from the Washington, D.C. office in the form 
        of tuition support ($2,000/year for in-state and $3,000/year 
        for out-of-state) plus travel to and from job duty stations. 
        These incentives are geared towards enhancing the retention of 
        underrepresented populations such as women and racial 
        minorities in the BLM's locations in the western states and 
        lead to conversion rates of about 80 percent among those 
        receiving the incentives.
    3.  Congress should encourage agencies to continue to take 
advantage of existing recruitment incentives, such as student loan 
repayment, and should provide resources necessary for them to do so. 
Congress should also require agencies to report on the use and 
effectiveness of different recruitment incentives in an effort to 
determine the most effective way to recruit and retain talent.

          According to OPM's 2007 Federal Student Loan Repayment 
        Program Report to Congress, the Department of the Interior 
        provided nearly $400,000 in loan repayment to 41 individuals in 
        positions including Park Ranger, Land Surveyor and Facilities 
        and Operations Management Specialists, among others. The 
        Department of the Interior cited the value of using this 
        student loan repayment program as a way to help individual 
        bureaus attract key talent in fields such as engineering, 
        environmental science, telecommunication and financial 
        analysis. The Department of Agriculture also provided just over 
        $400,000 in loan repayment to 53 employees spread across all 
        components of the agency. Again, the agency reported that the 
        student loan repayment program was a valuable recruitment and 
        retention tool. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Federal Student Loan Repayment Program Report to Congress, 
Office of Personnel Management, 2007.
---------------------------------------------------------------------------
    4.  Finally, the Partnership suggests that Congress pass 
Representative David Price's Roosevelt Scholars Act, a measure that 
could help the agencies--and the rest of the federal government--meet 
some of their critical hiring needs. Named after President Theodore 
Roosevelt, who championed the creation and expansion of national parks 
and monuments, the legislation creates a graduate-level scholarship 
program in mission-critical fields in exchange for a federal service 
commitment. The program could help agencies recruit new engineers, 
biologists, Geographic Information Systems (GIS) specialists, and other 
high-need professionals. The military's ROTC program has been a 
tremendous source of leadership talent for our nation's armed forces; 
we believe the Roosevelt Scholars Act could become an analogous source 
of needed expertise for our civilian agencies. The Roosevelt Scholars 
Act was introduced in the 110th Congress and is expected to be 
introduced again shortly.
    In summary, the Obama administration has ushered in an era of 
enthusiasm for government service not seen since the Kennedy years; now 
our government must seize the opportunity to build new pipelines of 
talent into government and improve management of our current federal 
workforce. It is critical that agencies streamline their hiring 
processes, build robust internship programs that can serve as a 
pipeline of talent, and utilize existing hiring authorities and 
recruitment incentives to recruit the best and brightest talent. 
Congress should require that agencies collect metrics to enable 
agencies to understand what hiring authorities and incentives are most 
effective in recruiting and retaining needed expertise.
Summary of Recommendations
    The Partnership offers the following recommendations for attracting 
talent, improving morale and enhancing overall employee satisfaction 
and engagement at the Forest Service, National Park Service and Bureau 
of Land Management:
    Leadership at the Forest Service, NPS, and BLM should make 
improving employee satisfaction and engagement a priority. Leaders 
should also focus on improving horizontal and vertical communication 
and fostering opportunities for employee input.
    Supervisors should be selected based on leadership/management 
skills, not just technical expertise. Congress should support agencies 
in creating a dual track for technical experts, allowing them to be 
compensated and recognized for their skills and abilities without the 
necessity of becoming supervisors.
    Congress should ensure that agencies have the resources and 
personnel necessary to fulfill their missions. This includes setting 
aside funding for training and leadership development.
    Congress should encourage agencies to do regular ``pulse check'' 
surveys that include part-time, temporary and volunteer workers. These 
groups are not included in the FHCS but are an important population, 
and their attitudes/perceptions about the workplace will contribute 
greatly to overall morale.
    Congress should require the Office of Personnel Management to 
conduct the Federal Human Capital Survey (FHCS) on an annual basis, and 
release the data as soon as its accuracy can be assured. This will 
enable the agencies to make real-time course corrections where needed; 
provide an annual benchmark capability by providing consistent data 
across agency lines; and provide Congress a more timely and informative 
oversight tool. This will also save each department and agency the time 
and cost associated with complying with the annual employee survey 
requirement in the year that OPM does not conduct the FHCS.
    Congress should require all federal agencies and their 
subcomponents to adopt a ``Federal Applicant's Bill of Rights'' to make 
the application process more user-friendly and the hiring process more 
timely and transparent.
    Congress should encourage agencies to take advantage of existing 
hiring authorities and recruitment incentives and should provide 
resources necessary for them to do so. Congress should also ask 
agencies to collect metrics to assess how they are using these 
personnel flexibilities and recruitment incentives, and what is most 
effective in recruiting, engaging, and ultimately retaining diverse and 
highly qualified talent. Agencies should also report on how these 
flexibilities and incentives can be improved.
    Congress should require additional measures of hiring effectiveness 
to determine whether BLM, NPS, the Forest Service and other federal 
agencies are able to recruit and hire enough of the right people with 
the right skills.
    Agencies should prioritize student internships as key talent 
sources for entry-level jobs and then recruit accordingly and resource 
these programs adequately. Congress should require agencies to evaluate 
their intern programs in this context to ensure agencies are making the 
best use of their authority to build their critical workforce 
pipelines.
    Congress should pass the Roosevelt Scholars Act to help agencies 
recruit mission-critical talent.
                                 ______
                                 

                               Appendix I

                             (7/8/08 draft)

Section 1. Short Title.
    This Act may be cited as the ``Federal Applicant's Bill of Rights 
Act of 2008''.
Section 2. Standards for Federal Hiring.
    (a) Clarity of job announcements.--Federal job announcements shall 
be written in plain English, with a minimum of acronyms or jargon, and 
shall clearly and prominently display the title, salary, location, work 
schedule, type and duration of appointment, responsibilities of the 
position and instructions for applying.
    (b) User-friendly application process.--Federal agencies shall keep 
the amount of initial information required from an applicant to the 
minimum necessary to determine qualifications and eligibility. On-line 
receipt of a standard resume and a brief response to questions 
regarding citizenship and veteran status may serve as application for 
employment except in special circumstances as determined by the head of 
an agency. Submission of additional material in support of an 
application, such as college transcripts, proof of veteran status, and 
professional certifications, may be required only when necessary to 
complete the application process and applicants shall be given a 
reasonable amount of time after the closing date of the job 
announcement to provide such information.
    (c) Timely communication and online tracking.--[Federal agencies/
OPM] shall devise and implement a means by which applicants for federal 
jobs (1) receive prompt acknowledgement of their application, (2) be 
given or have on-line access to periodic updates on the status of their 
application, and (3) may speak to an appropriate individual at an 
agency regarding the hiring process or their application for 
employment.
    (d) Timely decision and candidate notification.--Federal agencies 
shall make timely hiring decisions. Within ten business days of the 
time that selected candidates have accepted offers of employment or job 
announcements have been canceled, non-selected job applicants will be 
notified.
Section 3. Measures of Federal Hiring Effectiveness.
    (a) Pursuant to subsection (b), federal agencies shall measure and 
collect data on a continuous basis and report to the Office of 
Personnel Management on the following indicators of hiring 
effectiveness:
        (1) Recruiting and Hiring ``
                (A) ability to reach and recruit well-qualified talent 
            from diverse talent pools;
                (B) use and impact of special hiring authorities and 
            flexibilities to recruit most qualified applicants;
                (C) use and impact of special hiring authorities and 
            flexibilities to recruit diverse candidates, including 
            veteran, minority and disabled candidates;
                (D) data on the age, educational level, and source of 
            applicants;
                (E) length of time elapsed between the time a position 
            is advertised and the time a first offer of employment is 
            made;
                (F) length of time elapsed between the time a first 
            offer of employment is made and the time a new hire starts 
            in that position;
                (G) number of internal and external applicants for 
            federal positions;
        (2) Hiring Manager Assessment--
                (A) manager satisfaction with the quality of new hires;
                (B) manager satisfaction with the match between the 
            skills of newly hired individuals and the needs of the 
            agency;
                (C) manager satisfaction with the hiring process and 
            hiring outcomes;
        (3) Applicant Assessment ``
                (A) applicant satisfaction with the hiring process 
            (including clarity of job announcement, user-friendliness 
            of the application process, communication regarding status 
            of application and timeliness of hiring decision);
                (B) mission-critical gaps closed by new hires and the 
            connection between mission-critical gaps and annual agency 
            performance;
                (C) number of people who withdraw from consideration or 
            accept other positions due mainly to the length or 
            complexity of the federal hiring process;
        (4) Onboarding--
                (A) new hire satisfaction with the onboarding 
            experience (including welcoming and orientation processes, 
            becoming familiar with new work unit and job 
            responsibilities, being provided with timely and useful new 
            employee information and assistance, and assignment of 
            meaningful work);
                (B) new hire attrition;
                (C) investment in training and development for new 
            employees during their first year of employment;
        (5) Other indicators and measures as required by the Office of 
        Personnel Management.
    (b) The measures of hiring effectiveness established under 
subsection (a) may be augmented or adjusted over time as the Office of 
Personnel Management deems necessary for improving the data available 
on hiring effectiveness.
    (c) The Office of Personnel Management shall issue regulations 
within 180 days of the enactment of this Act directing the methodology, 
timing and reporting of the data described in subsection (a).
    (d) The Office of Personnel Management shall make the data reported 
under subsection (a) available to the public online on a quarterly 
basis and in a consistent format to allow for a comparison of hiring 
effectiveness and experience across demographic groups and federal 
agencies.
    (e) Before publicly releasing data as described in subsection (d), 
the Office of Personnel Management shall provide the data in a 
consistent format to OPM-certified non-profit organizations upon 
request for purposes of research on hiring practices and hiring 
effectiveness.
Section 4. Annual Federal Human Capital Survey.
    (a) In General.--The Office of Personnel Management shall conduct 
the Federal Human Capital Survey of federal employees on an annual 
basis. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ OPM conducts the Federal Human Capital Survey (FHCS) on a 
biennial basis, though OPM is not required to do so by law. This 
provision would make the FHCS a statutory requirement.
---------------------------------------------------------------------------
    (b) Each federal agency shall reimburse the Office of Personnel 
Management for the cost of conducting the Federal Human Capital Survey 
in that agency.
    (c) The Office of Personnel Management shall make the data reported 
under subsection (a) available to the public online in a timely manner 
[by a date certain] and in a consistent format to allow for a 
comparison of hiring effectiveness across demographic groups and 
federal agencies.
    (d) Before publicly releasing data as described in subsection (c), 
the Office of Personnel Management shall provide the data in a 
consistent format to OPM-certified non-profit organizations upon 
request for purposes of research on hiring practices and hiring 
effectiveness.
Section 5. Authorization of Appropriations.
    (a) In General.--There are authorized to be appropriated, in Fiscal 
Year 2009 and each subsequent fiscal year, such sums as may be 
necessary for the Office of Personnel Management to meet the 
requirements of this Act.
                                 ______
                                 
    Mr. Grijalva. Let me ask Mr. Ron Thatcher, President, 
Forest Service Council, National Federation of Federal 
Employees. Welcome, sir, and look forward to your testimony.

 STATEMENT OF RON THATCHER, PRESIDENT, FOREST SERVICE COUNCIL, 
    NATIONAL FEDERATION OF FEDERAL EMPLOYEES, LIBBY, MONTANA

    Mr. Thatcher. Thank you, Mr. Chairman, Mr. Bishop, other 
Members of the Committee. Thank you for this opportunity to 
testify before you today.
    I am Ron Thatcher, a 35-year career Forest Service 
employee. I am currently the president of the National 
Federation of Federal Employees' Forest Service Council. It is 
in this capacity that I am honored to represent approximately 
20,000 dedicated public servants committed to the professional 
and ethical management of the 192 million-acre national forest 
system.
    Mr. Chairman, Forest Service employees are among the most 
dedicated public servants in the Federal workforce. This is why 
obstacles to getting our work done decreases our morale as well 
as our effectiveness. One such obstacle is the erosion of the 
land management workforce as more funds out of a flat budget go 
to wildfire suppression each and every year. We support the 
approach taken by the FLAME Act in which funding for 
catastrophic wildfires does not come at the expense of land 
management work that is badly needed on our national forests.
    Another problem is a seemingly endless stream of ill-
planned and harmful reorganizations and new technologies, 
methods and policies. For example, administrative support 
personnel were removed from field offices and command to 
centralized service centers that report directly to Washington; 
a self-service model in which highly graded employees now 
perform more critical and administrative tasks that have been 
put in place; mandated use of phone support for field-going 
employees; the rush to put new software in place before its 
tested. Employees simply cannot get to the jobs they were 
trained to do because they are bogged down with administrative 
tasks that they were not trained to do.
    The centralization of our human capital management has 
probably been the biggest problem that we have encountered. The 
list of problems go on and on. For example, we bring 15,000 
employees into the rolls each field season. Now some are sent 
to work before they are actually hired with a promise from 
management that we will get their pay to them later. When they 
go off the rolls at the end of the season, their lump-sum 
payments are often delayed by months and months. Employees at 
all levels report the occurrence of a shift of power and 
authority away from the field to this centralized human capital 
management organization, an unintended consequence of removing 
the supervision of these functions from field managers.
    One employee noted, ``Human capital management is supposed 
to be a support function, but it has become the tail that wags 
the dog.'' Another said, ``It is like they created a kingdom 
that answers to no one.''
    Finally, I want to mention the reclassification of our fire 
managers into the GS-401 series. This imposes new academic 
requirements which in many cases are totally unrelated to the 
duties of these fire fighting positions. This may force as many 
as a third of our field generals in the war on fire out of the 
jobs they have successfully performed for years, plus it 
imposes a glass ceiling for some of our most capable leaders 
coming up through the ranks. The knowledge, skills, and 
abilities to lead a fire crew from harm's way are not obtained 
in a classroom. They are obtained by specialized agency-
developed training and on-the-ground experience.
    So how did we get to this point? In every case we hear the 
same thing: leadership did not ask the field. In many cases the 
ultimate decision can be traced all the way up to former 
President Bush. Competitive sourcing quotas were the driving 
force behind the centralization and downsizing of human capital 
management. Other decisions, such as timetables that prevented 
adequate testing of the new software applications, were 
mandated by the Department or even higher levels of government. 
In these cases, even our agency leaders were excluded from the 
decisionmaking process.
    However, not all sources of top-down secretive and 
unaccountable decisionmaking are outside of the agency. It is 
agency officials who elected to exclude field employees from 
the decision to reclassify fire managers. Even the agency's top 
field managers with decades of experience were not consulted.
    We believe it is time for a new way, Mr. Chairman, it is 
self-evident that front-line employees are the ones who know 
the best and they have the best ways to get the jobs done. We 
need to tap into this collective wisdom to make the best 
decisions. The agency needs to engage employees as advisors 
even as collaborators. This is particularly true of the Forest 
Service, an institution in which one size does not fit all 
because of the diversity of lands from Alaska to Alabama for 
which the agency is responsible.
    This new way of doing business require officials to embrace 
the principles of transparency and accountability articulated 
so well by President Obama. The payoff will be shared 
accountability and shared ownership, a decision informed by 
better information, and a workforce that will be motivated to 
make that decision work. To encourage this, Mr. Chairman, we 
recommend passage of a Federal labor/management partnership 
act, and the Whistle-blower Protection Enhancement Act of 2009. 
These two bills would help put an accountability infrastructure 
in place that would allow employees to collaborate with agency 
officials on the difficult problems our agencies and others 
face in government.
    Mr. Chairman, Members of the Committee, that concludes my 
oral statement. I thank you and the 20,000 plus employees of 
the Forest Service thank you for this opportunity.
    [The prepared statement of Mr. Thatcher follows:]

 Statement of Ron Thatcher, President, National Federation of Federal 
                   Employees' Forest Service Council

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to submit the following testimony.
    My name is Ron Thatcher. I serve as the President of the National 
Federation of Federal Employees' Forest Service Council (NFFE-FSC). In 
this capacity, I am honored to represent approximately 20,000 dedicated 
public servants committed to the professional and ethical management of 
the 192 million acre National Forest System.
    Today's topic is broad: issues related to the morale and 
effectiveness of Forest Service employees. Our treatment of this topic 
here today will be far from comprehensive. If this is to be the final 
word on the topic, then we will accomplish little. However, we hope 
this testimony will begin a dialog on how to restore both the capacity 
of the agency and the pride and confidence of its employees.
    It is widely understood that low morale adversely affects 
effectiveness. The converse, that an employee's effectiveness affects 
his/her morale, is also true. Forest Service employees are among the 
most dedicated in the federal workforce--we care deeply about the 
agency's land management mission. Historically, the agency has been a 
wonderful employer and national forests have been a great place to 
work. Employees didn't get rich on a Forest Service salary, but took 
great satisfaction in doing a job they loved and that served the needs 
of the American people. It is in this same dedication that today's 
morale problems have their roots. Over and over, I hear from front line 
employees that one of the biggest reasons for their low morale is 
frustration at the imposition of barrier after barrier to their ability 
to accomplish their work.
    Sadly, too many employees have lost the hope and belief that things 
can get better. They have lost faith in the distant and unseen leaders 
of our agency, our department, our government. Such employees can 
become cynical and disengaged, further eroding productivity. Some even 
hang it up by retiring earlier than they had planned, ending their 
careers because they are no longer able to tolerate the frustration of 
trying to do their jobs with their hands tied behind their backs. But 
many more believe as I do that the time is right for a renewal of our 
once-proud agency. It is with this optimism that I come to tell you 
about the challenges we continue to face and to offer suggestions about 
how they can be overcome.
Erosion of the Land Management Workforce by Diversion of Funds to Fire 
        Suppression
    One big issue is the steady erosion of the land management 
workforce. This affects not only today's capacity, but also bodes ill 
for the future. Due to the shrinking budgets on the land management 
side of the agency, many positions vacated as a result of retirements 
have gone unfilled. Employees are being stretched beyond their limits 
as they are asked to perform the work of several positions. In 
addition, succession planning has largely fallen by the wayside. 
Succession planning is critical in a land management organization 
because the knowledge needed to manage the land and resources is a 
site-specific understanding must be gained from on-the-ground 
experience, but unfortunately mentors with this irreplaceable knowledge 
are leaving before they can transfer it. We need to reverse this trend 
immediately.
    This workforce erosion is not the result of an intentional policy 
change, but is rather a failure to adjust policy to deal with on-the-
ground realities. Fire suppression costs exceeded one billion dollars 
in six of the last nine years and are trending steeply upward. 
Increasing costs of wildfire suppression erodes funding for other land 
management work in two ways.
    First, funds are committed to manage wildfires based on the 10-year 
average of suppression costs. This leaves an ever smaller piece of the 
appropriated pie for land management. As a percentage of the agency 
budget, Forest Service fire management activities have risen from 13 
percent in 1991 to a projected 48 percent for 2009. This diversion of 
resources from land management activities, including fuels reduction 
projects and others that could help prevent fires in the future, may be 
unintentional, but it is very real and very substantial.
    Second, in six of the last nine years, the actual cost of wildfire 
suppression exceeded the budgeted amount. When this happens, the agency 
transfers funds remaining in other accounts to cover the ongoing 
emergency costs of suppression. These accounts are sometimes, but not 
always, repaid for this ``fire borrowing.'' Even when they are repaid, 
time-sensitive work is disrupted and agreements with collaborators 
broken, which can result in significant cost increases or even in 
destroyed relationships.
    To give a typical example of the cascading effects, ``fire 
borrowing'' in one case required that stand examination, in-stream fish 
habitat improvement, and wildlife meadow habitat improvement projects 
be put on hold. This delayed the planning and implementation of a 
large-scale NEPA document, which in turn delayed several timber sales 
and projects to enhance the habitat of threatened and endangered 
species. An entire year of work and progress was lost and the agency's 
standing with collaborators was adversely impacted.
    Last year, this Committee reported out the FLAME Act, under which 
emergency national responses to catastrophic wildfires would have been 
funded like other national emergencies, such as hurricanes. This 
structural change would stabilize the funding for land management and 
allow this workforce to be rebuilt. This cannot happen soon enough, as 
our workforce is old and we need to get new employees on board before 
current employees take their knowledge of the land and resources into 
retirement. I see that the FLAME Act was recently introduced in this 
Congress, for which I am very thankful. Our Council will do all we can 
to support this approach.
Initiative Shock: Cumulative Effects of Unsuccessful Changes
    Employees are frustrated by a seemingly endless stream of 
reorganizations and new technologies, methods, and policies that seem 
ill-planned and end up significantly impeding their ability to get 
their jobs done. Field-going employees and managers find themselves 
faced with an ever-increasing number of administrative tasks that were 
previously performed by support personnel. Any single challenge may be 
trivial in the grand scheme of things, but the cumulative effect can be 
overwhelming. It is this cumulative effect that has caused many 
employees to suffer from ``initiative shock.''
    One source of increased administrative tasks comes from the 
``burden shift'' associated with recent reorganizations of agency 
support functions. Historically, these support organizations were 
maintained by field units. Resources were shared using a ``zone'' 
concept when local or regional managers decided this was beneficial. 
Support personnel reported to local line officers. In response to a 
presidential mandate, supposedly to increase efficiency, the Forest 
Service Washington Office assumed administrative and budgetary control 
of most of these administrative functions by standing up new stovepipe 
organizations. In these organizations, employees now report through a 
chain of command isolated from the field, directly connected to 
Washington. In total, nearly 4,000 employees, or roughly 10 percent of 
the workforce, were directly affected by these reorganizations. Field 
employees no longer have local staff to consult, but call an 800 number 
for support. The following reorganizations were implemented between 
2005 and 2007:
    <bullet>  Information Technology (IT) support was downsized as a 
result of competitive sourcing. Personnel were not physically 
centralized, but were stationed at various field locations. However, 
they reported through the chain of command of their virtual IT 
organization.
    <bullet>  Human Capital Management (HCM) was downsized and 
centralized by Business Process Reengineering (BPR). Although the 
competitive sourcing process per se was not used, the project was 
undertaken for the stated purpose of meeting the quota associated with 
this presidential initiative. HCM employees were directly reassigned to 
the Albuquerque Service Center (ASC is sometimes called ``Washington 
Office West'').
    <bullet>  Agency Budget and Fiscal (B&F) operations were also 
downsized and centralized by BPR. It is our understanding that this 
centralization was mandated by the Department; credit toward the 
agency's competitive sourcing quota was also sought. Employees were 
directly reassigned to ASC.
    As these organizations were stood up, employees with managerial, 
land management, and other duties found themselves saddled with work 
previously provided by support personnel. When IT support was 
downsized, some tasks were intentionally assigned to users, while 
others were inadvertently left out of the new organization's 
responsibilities and had to be picked up by other staff. When Human 
Capital Management (HCM) was downsized and centralized, part of the 
plan involved a ``self service'' model in which ``line staff will be 
required to redeem some managerial functions that they are not 
currently performing in order to...reduce the costs of the [HCM] 
function.''
    In addition, a number of computer-based business applications have 
been released in rapid succession without adequate testing. In many 
cases, these systems have been mandated from above, for example by the 
Department. In other cases, they are agency-sponsored packages designed 
to provide stop-gap coverage of critical processes that cannot be 
performed by non-functional Departmental-sponsored software. There are 
literally dozens of applications, most of which are problematic and 
some of which are all but dysfunctional. Difficulties with the poor 
user interfaces and questionable functionalities of these applications 
are exacerbated by the lack of field administrative support personnel 
who have historically handled these processing tasks.
    Self-service and phone helpdesk support are particularly 
frustrating and ineffective for field-going employees. I strongly 
encourage the reading of the most thoughtful and comprehensive 
accounts, including a letter to the Forest Service National Leadership 
Team signed by 37 District Rangers, which are provided in their 
entirety in exhibits 1-4 attached to this testimony. The following are 
some additional employee comments, obtained within the last month:
    ``Burden shift due not only to the HR centralization but other 
functions such as B&F and the Computer Technologies has greatly reduced 
my efficiency to do my job... I now spend much more time learning these 
other functions and performing these tasks before I can do my own 
tasks. Tasks such as loading computer software and troubleshooting 
errors, programming funds, managing credit cards, as well as numerous 
other time consuming tasks eat away from my productivity with the job I 
was hired to perform. Not to mention that there really isn't any type 
of training for many of these tasks--some B&F background would help to 
figure out how to perform B&F type functions but often there isn't 
anybody left on the forest to ask for help. I just feel that we have 
been spread too thin and expected to know too many fields to be 
effective at our own jobs.''

        ``In July 2007, I opened a case with HCM to see how many days 
        of military leave I had. I have to track that manually since 
        Paycheck program does not track it automatically...I was unable 
        to get any answers from HCM. In December of 2007, I opened up a 
        Merit Board Protection case. I gathered from my conversation 
        with the merit board person that I was not the first one to 
        call them up. They (Merit Board) called HCM on January 21, 2008 
        and one week later, I had my leave audit. It is too bad I had 
        to complain to get such a simple item done.''

        ``I tried to start the hiring process for a dispatcher in 
        February 2008...The job finally came out and closed in early 
        December. I selected my candidate 5 weeks ago; she has been 
        contacted by ASC; however ASC cannot tell me if she will be 
        able to report to work on March 16th...We have seen letters 
        recognizing that centralization of HR did not work, but to give 
        it more time. How about this, IT IS NOT WORKING>>>>>FIX IT. 
        When are they going to call uncle and go back to the way it 
        was, when people were there to assist you, instead of saying 
        call the 1-800 number and see if they can help you. There is no 
        personal contact with the field, they have no clue the time and 
        energy it takes for supervisors the hire their crews now. It is 
        ridiculous how much time it takes to get things done.''

        ``I had 8 STEPs [student temporary education program employees] 
        that I did resignation 52s for at the end of the season. At 
        least 5 of these 52s which were done in August 2008 were not 
        completed till February 2009. Some of these students had lump 
        sum payments due to them...No one seems to be able to correct 
        our leave errors...Needless to say my interaction with ASC has 
        not been very productive. My work load has doubled since the 
        reorganization and my expectations of success have plummeted. 
        This move to consolidation is an illusion of progress producing 
        only confusion, inefficiency and demoralization.''

        ``Prior to ASC each Forest had a Payroll Clerk who had the 
        ability to correct leave errors. That ability was taken away 
        and [now] we constantly have leave errors with no way of 
        correcting them. Each leave error costs our Forest (a fee is 
        charged by the National Finance Center (NFC)) and those fees 
        are adding up because we can't get the errors fixed in a timely 
        manner. We maintain leave audits on our units but by the time 
        an audit is sent to ASC for a correction, another pay period 
        has elapsed and, even if ASC fixes the problem, it is already 
        incorrect because the employee has accrued more leave; this in 
        turn causes another error.''

        ``Employees all over the country are doing Windows XP retrofits 
        [to upgrade computer operating systems]. At my GS-11/Step 10 
        salary I have spent 6-plus hours on the install, and I just hit 
        an error so I will have to restart it tomorrow.''

        ``(1) I have an employee that for 6 weeks has been trying to 
        get his Lotus Notes [employee email and time and attendance 
        program] fixed. He is a field going employee. He is currently 
        sitting by a phone (instead of out in the field doing his job) 
        waiting for someone from the help desk to finally call him 
        back. He has been playing phone tag for several days with the 
        help desk...(2) I have an employee that has been trying to get 
        his computer login fixed with a new password for over 6 weeks. 
        Phone calls are not returned and neither are emails. When the 
        mandatory Aglearn training is then not completed [due to a lack 
        of system access], the forest supervisor threatens employees 
        with letters in their files...(3) I had another employee who 
        had some weird error message that resulted in training that was 
        completed showing as incomplete, he also had the same issue 
        with the help desk and was also threatened with a letter...(4) 
        My battalion chief spent a day and half upgrading his computer 
        to Windows XP and then when the migration did not work 
        correctly had to call the help desk. I have better things for 
        him to do than be a computer expert. He could have spent that 
        time working on agreements with the local volunteer fire 
        departments.''

        ``I spent 16 hours in February on the phone with the PC 
        helpdesk folks--both times because my profile as a FS employee 
        was mysteriously dumped. I would venture a guess that 10 hours 
        a month is about average for me to have to devote to fixing 
        computer problems...Meanwhile, out on the logging job, I'm not 
        there. My position requires that I be readily available in the 
        area of current operations. If a contractor were forced to stay 
        away from the field, he has to have an alternate representative 
        on the site or be in breech of contract. The same is required 
        of us. I have no alternate. Therefore, when I am absent from my 
        duties in the field, I am placing the government in position 
        for breech [of contract].''

        ``I used GovTrip for the first time yesterday, submitting a 
        [travel] voucher. My experience took over 2 hours and not only 
        took up my time (as a GS-7), but also intermittently the time 
        of a GS-9 and a GS-11. The program was very user unfriendly. 
        What is really irritating is that we get charged extra for 
        using their helpdesk. The contractor is essentially double-
        dipping. They are paid once to design and manage a travel 
        system, and then paid again when we need help because it was so 
        poorly designed.''

        ``GovTrip is crazy. We have a bunch of highly-paid scientists 
        wasting time struggling with this ridiculous software. Talk 
        about a waste of time. I've done some application development, 
        and this may very well be the WORST-written application I've 
        ever experienced. Confusing, cumbersome, doesn't use typical 
        Windows conventions (i.e., use of the return key to accept 
        entries in dialog boxes, etc.). Easy to make a mistake that 
        requires re-filling in entire screens. Hard to get pricing on 
        airlines, you can try selecting the same exact flight 5 times 
        and get 4 or 5 different fares.''

        ``After 3 hours creating the initial authorization thru 
        GovTrip, I spent over 4 hours of my time attempting to finalize 
        a travel voucher today. I am a field going employee, but not 
        today. My pay level is GS-9 plus steps. I am not 
        technologically challenged, the travel system just is not 
        working well--it kicks you out before your voucher is 
        completed.''
    I want to emphasize that these comments should not be taken to 
reflect poorly on employees laboring in the stovepipe administrative 
support organizations, who are doing the best they can in untenable and 
extremely stressful situations. The problem lies elsewhere--in the 
organization, tools, training, etc. available to them. For example, the 
vast majority of the agency's human resource employees retired, 
resigned, or transferred to other jobs when faced with directed 
reassignment to the ASC--taking their years of training and experience 
with them. This dramatic loss of human capital meant that crucial 
mentoring could not take place. It takes people to transmit a corporate 
culture--and the needed people did not come along for the ride.
    I have another perspective to share on this point. It involves an 
IT employee. IT employees are required to focus on meeting Service 
Level Agreements (SLAs) and are ordered to turn away projects that may 
be important to the local units where they are stationed, work they 
previously would have routinely performed, if it is outside the scope 
of work of the IT organization. This fragmentation adversely affects 
the morale of both non-IT employees whose needs are not met and IT 
employees prevented by the organization from meeting those needs. One 
IT employee reports an old friend he ran into was surprised he was 
still working at the local unit because local management had said that 
he ``no longer works for us.'' This employee, like too many others, has 
been reorganized from a ``can-do'' member of the Forest Service team to 
an isolated, alienated employee who ``can't.'' He told me he had been 
devastated by his new situation and planned to retire as soon as he 
could.
    As troubling as these inefficiencies are, the centralization and 
stovepiping, particularly of HCM, have raised more profound issues. 
Employees at all levels report the occurrence of a shift of power and 
authority, perhaps unintended but nevertheless real, away from the 
field to HCM. Field supervisors retain responsibility for program 
delivery, but the authority they need has been taken from them. As one 
employee noted, HCM is supposed to be a support function, but has 
become ``the tail that wags the dog.'' The following quotes address 
this issue:
    Employee and union official, ``ASC is making their own policy--Our 
Forest Supervisor was just as unsuccessful as the rest of us when she 
tries to solve problems. It's like they created a kingdom that answers 
to nobody.''
    Employee and union official, ``Nowadays I get called into the 
Forest Supervisor's office more to help him try to figure out angles to 
get around ASC-HCM than I do for any sort of disciplinary action or 
anything else.''
    Employee and union official, ``There is no experience in those 
centers. All the experience was left in the field doing other jobs or 
gone when employees retired or resigned. We lost a lot of good and 
experienced employees from this. The service centers are hiring people 
right off the streets in Albuquerque to replace long-time experienced 
employees. They are hiring people who have never worked for the 
Government or been on a Forest, but who are making decisions that 
affect us at the Forest and District level not understanding how it 
will affect us.''
    37 District Rangers, ``While we have retained the responsibility 
for land management and public service, we have lost significant 
authority to meet these responsibilities. We are concerned that recent 
changes have resulted in line officers at all levels ceding power to 
those in support functions.'' (See Exhibit 1 for entire letter.)
    17 Forest Supervisors, ``Line officers from multiple regions relate 
incidences time after time where HCM employees appear to be stepping 
into what traditionally was a line officer's role and going beyond 
their technical delegation--As our organization centralizes various 
functions at the national, regional, and sub-regional level, it is 
becoming increasingly difficult for line officers to redeem their many 
various responsibilities. The agency is increasingly separating 
accountability to accomplish the mission of the National Forest System 
from the authority to accomplish that mission. This trend is having a 
significant impact on line officers' ability to achieve mission-
critical outcomes.''
Reclassification of Fire Managers
    Finally, I need to mention some of the unique issues faced by our 
firefighters. This portion of our workforce is substantial and plays a 
key role: the Forest Service is the lead agency in wildfire 
suppression. Firefighter issues are many and complex, as is the 
workforce that fights wildfire. This workforce encompasses employees 
largely or solely dedicated to fire duties, such as the many 
firefighters in Region 5, and militia members who normally perform non-
fire work and fulfill various firefighting and support functions on 
incidents as collateral duties. One-size-fits-all solutions are 
unlikely to be effective for this range of situations.
    There are a number of issues affecting the effectiveness and morale 
of our firefighters--many more than I can begin to summarize here. Just 
to name a few, there's issues of proper classification, roles and 
responsibilities of fire managers and non-fire agency administrators, 
pay and personnel policy reforms to improve retention in Region 5, 
temporary hiring practices, succession planning, waning cultural 
support and incentives for participation in the militia, and over-
reliance on contract resources. However, I do need to mention one issue 
that represents a clear and present danger to the safety and 
effectiveness of our firefighting workforce, and that is the 
reclassification of fire managers into the GS-0401 series. The 
knowledge, skills, and abilities to lead a fire crew into harm's way 
are not obtained in a classroom--they are obtained by specialized 
agency-developed training and on-the-ground experience. The 
reclassification imposes new academic requirements which in many cases 
are unrelated to the duties of these positions. Based on the most 
recent numbers we have seen, this may remove as many as 31 percent of 
the agency's 473 field generals in our war against wildfire from their 
jobs next year. Further, the reclassification imposes a glass ceiling 
for some of our most capable leaders coming up through the ranks (see 
Exhibit 5), but effects on succession planning have been ignored.
    The situation is essentially unchanged since I testified about this 
issue before the Senate Committee on Natural Resources on June 18, 2008 
(the testimony is available at http://energy.senate.gov/public/--files/
ThatcherTestimony.doc). Last year, as a result of Congressional 
inquiries, the agency made a number of commitments to mitigate the 
adverse impacts of this reclassification. Most, if not all, of these 
commitments have been broken. An Office of Inspector General (OIG) 
management alert has been issued on this and the agency claims to have 
``stood down'' its transition to the GS-0401 series. However, in 
reality the transition is proceeding unabated. Critical fire management 
positions continue to be filled from applicant pools skewed away from 
vital field experience toward largely irrelevant academic degrees. 
Limited funds continue to be diverted from needed training to pay for 
coursework that is unrelated to fire management. Fire management 
capacity continues to erode every day the agency continues this 
misguided policy.
How We Got Here: Top-Down Management without Field Input
    So, how did we get to this point? In each and every failed 
initiative, we hear the same complaint: leadership didn't ask the 
field. The initiatives were developed and imposed on employees from on 
high without field employee input.
    The decision to stovepipe and downsize IT support came from the 
President of the United States. The Bush administration's competitive 
sourcing initiative was the ultimate top-down, non-collaborative 
management style. It sought to put all commercial work performed by 
Federal agencies up for bid. The theory was that agencies would either 
downsize staff to avoid outsourcing this work or all of it would go to 
the lowest private sector bidder. The process was regulated by the 
White House Office of Management and Budget (OMB) Circular No. A-76. 
OMB assigned agencies quotas of full-time equivalents (FTEs, or jobs) 
to submit to the A-76 process. The competitive sourcing initiative, 
especially as implemented by the Forest Service (see http://
www.gao.gov/new.items/d08195.pdf) has since been largely discredited; 
however, it left behind a legacy of eroded infrastructure and low 
employee morale.
    There are many flaws to the competitive sourcing initiative, but 
perhaps the most important was its fragmented approach. By design, it 
failed to look at the entire agency holistically. Instead, staffing and 
outsourcing decisions were made based solely on cost comparisons of 
work functions considered in isolation. Strategic considerations are 
beyond the scope of the A-76 Circular--and the fatal flaw of 
competitive sourcing was that its quotas took this discretion away from 
agency leaders as well. In addition, because of the secrecy required by 
this procurement-sensitive process, employees could not be meaningfully 
and productively engaged but by design were excluded and kept in the 
dark. The outcomes caused by this initiative--as well as employees' 
sense of powerlessness and betrayal--have had lasting impacts.
    Although not a result of competitive sourcing per se, the BPR of 
HCM was undertaken as an alternative in lieu of an A-76 public-private 
competition. The responsibility for top-down decision-making that 
excluded employees in this case also rests with the previous 
administration. As in competitive sourcing, the efficiency and cost 
effectiveness of Forest Service operations as a whole were not 
considered. Centralization and downsizing were preordained outcomes.
    The most troubling deployments of business application software 
have been mandated by the Department or by even higher levels of the 
government. Examples include GovTrip and EmpowHR, the backbone 
application for HCM self-service. The implementation timetables 
mandated from on high for these and other applications prevented 
adequate testing. Testing and feedback on the functionality of new 
systems by pilot groups is among the most basic of ways to engage 
employees--and there can be no doubt it results in better data and 
better decisions. In this case, as in those mandated by competitive 
sourcing, we include our agency leadership among the employees excluded 
from the decision-making process--Department mandates and timetables 
apparently left them no authority to perform the testing that would 
have been prudent.
    The decision to reclassify fire managers is the only issue I've 
discussed that is an agency decision. However, decision-makers have 
elected to exclude employees, even the agency's top field managers with 
decades of experience, from the decision-making process. There are many 
bright, dedicated, and concerned individuals in the Fire and Aviation 
Management organization; however, an unfortunate culture of secrecy and 
top-down decision-making seems to have developed in the organization, 
at least as displayed in this instance.
A Better Approach: Engage the Workforce
    I have no magic bullet, no simple solution to fix these problems. A 
few union leaders are no more infallible than are a few agency leaders. 
But I would like to suggest a strategy that would immediately begin to 
improve morale and put us on a pathway to increase our effectiveness.
    We submit that front-line employees are the ones who know the best 
way to get their jobs done. It is they who have the best understanding 
of the barriers that block their way on a daily basis. It is they who 
have the best understanding of how to improve the processes with which 
they work every day. It is they who know what needs to be done to 
increase their effectiveness. We believe it is crucial to tap into the 
collective wisdom of the workforce. This is particularly true of the 
Forest Service, an institution in which one size cannot be assumed to 
fit all because of the diversity of lands, from Alaska to Alabama, for 
which the agency is responsible.
    We need a process to meaningfully engage employees so their 
collective knowledge and wisdom may be brought to bear on agency 
challenges. Such a process is available. Content analysis was developed 
by Forest Service employees to compile, organize, and analyze public 
comments pursuant to National Environmental Policy Act (NEPA) 
requirements. Chairman Rahall's new agenda for the Natural Resources 
Committee includes a renewed commitment to require the federal 
government to ``think before it acts...by requiring solicitation of 
public opinion and consideration of alternatives,'' using methods such 
as content analysis. We propose that the Forest Service engage its 
workforce regarding internal reorganizations, implementation of new 
technologies, etc. in a similar fashion and for the same reasons: to 
ensure the agency thinks before it acts. We believe the process can be 
streamlined and used to great advantage to compile the collective 
knowledge of employees and managers in the field.
    A top priority must be taking action to win back the trust and 
respect of the workforce. For far too long, employees have been kept in 
the dark and misled by their leaders. This has had an effect on morale 
that is even more devastating than the challenges themselves--the 
thought that our leaders would substitute propaganda for truth is 
really devastating to a dedicated employee committed to the work of the 
agency. Even though the ultimate responsibility for this has often been 
at levels of the government above the agency and therefore beyond the 
control of agency leadership, it still falls to that leadership to 
address the effects on morale this unfortunate era has left in its 
wake. Recently, President Obama said on national television, ``I 
screwed up.'' Our agency leadership needs to follow his example and 
bring the same level of accountability back to that part of the 
American government for which they are responsible, the Forest Service. 
Straight talk about what has not worked--about our failures--is needed 
to restore the trust and credibility that are so important to effective 
leadership. We agree wholeheartedly with the Dialogos report 
recommendation that ``top leaders must then honestly communicate the 
realities--to all relevant audiences in the organization, and engage in 
an open strategic conversation with the organization's distributed 
leadership and employees.'' For example, leadership needs to start 
talking straight to our employees by telling them:
    <bullet>  The savings of the IT reorganization were overstated for 
political reasons, because accounting guidance mandated by the White 
House Office of Management and Budget was misleading (see http://
www.gao.gov/new.items/d08195.pdf). IT employees have shouldered a heavy 
load and performed admirably, but the business models and standards 
developed by the secretive and fragmented competitive sourcing process 
have ill-served the needs of many field-going employees.
    <bullet>  The Forest Service has had to experience the unintended 
operational impacts and the cultural/emotional pain of a failing 
implementation of centralized HCM services for over 2 years. We need to 
revisit the fundamental assumptions associated with self-service. We 
need to determine what level of HCM resources in the field best serves 
the agency's needs.
    I'm happy to report some recent developments that are quite 
encouraging. A reorganization team is looking at the IT organization. 
This team got off to a shaky start. For example, management insisted on 
secrecy during the development of the initial plan, even requiring our 
union representative to sign a nondisclosure agreement. This was not 
the best way to begin with employees who already have ``reorganization 
fatigue'' and a lack of trust because of their painful experience with 
competitive sourcing. Further, employees had serious concerns about the 
draft plan that was released for employee review and comments. The was 
great concern that the draft plan did away with virtual positions in 
favor of a centralized service center. In addition, this plan did not 
appear responsive to recommendations of the CIO Technology Program 
Review, which assessed the IT support organization model and called for 
more ``boots on the ground.''
    However, the reorganization team solicited employee comments on the 
draft plan and, more significantly, compiled them using a content 
analysis process. More significantly still, they appear to be seriously 
considering the comments and are reporting back to employees in a 
timely fashion with the results of their analysis and some preliminary 
decisions. This is significant because there is a history of comments 
being solicited and then disappearing, never to be seen again. The team 
deserves a lot of credit for taking this step. It is our hope it is one 
small step on the path to a new way of doing business. I need to 
mention as well that in spite of this being a particularly battered and 
bruised staff, as they have only recently emerged from competitive 
sourcing, roughly 35-40% of them took the time to comment. Under the 
circumstances, this is an excellent response rate, and it indicates 
that employees, for their part, are ready to engage in a productive 
way, if only leadership will open the door and honestly consider their 
input.
    The situation with HCM is less promising. In spite of dire internal 
assessments, leadership has yet to be completely straight with the 
workforce. Two teams were recently chartered to work on HCM problems, 
one to deal with urgent operational priorities (crisis management) and 
the other to deal with strategic issues, such as the business model 
itself. These are positive steps in the right direction; however, these 
are not the first teams to be chartered and dispatched since we 
transitioned to the new HCM organization. We need a bigger effort. We 
need a transparent process to engage the workforce. This would not only 
to put more heads together to work on the problem, it would also go a 
long way toward restoring trust and morale by sending a message that 
leadership understands the magnitude of the problem--and that they 
understand our workforce is a valuable resource to help solve it. It 
would be just as important for leadership as for rank and file 
employees, for they, too, are battered by ``initiative shock'' and need 
the help.
    The situation with the reclassification of fire managers is as bad 
as can be. Officials responsible for the policy are not communicating 
with the field, not even to provide adequate guidance for implementing 
the decisions they have made behind closed doors, and have refused to 
discuss the matter with the union. Although this story is complex and 
fraught with twists and turns, the bottom line is the decision to 
transition these positions to the GS-0401 series was announced on June 
15, 2004, yet many employees have still not been informed of how to 
meet the new standard in order to keep the jobs they have successfully 
performed for years (see Exhibit 5). The disregard for employees in 
these positions, not to mention the safety and effectiveness of the 
wildfire operations they lead, has had large negative effect on morale. 
Field employees, including managers, feel disconnected and ignored by 
national leadership.
Conclusion
    I have shown here today how sweeping agency changes based on 
decisions made in secret without employee input by isolated officials 
who are not held accountable for their decisions have been disastrous. 
This way of doing business has not served the needs of the agency at 
all well. A new way is needed. The knowledge employees have about their 
jobs is knowledge that agency officials need in order to make the best 
decisions about the organizations, means, and methods of getting those 
jobs done. Employees need to be engaged, as advisors, even as 
collaborators, if the best decisions are to be made.
    This new way of doing business will require officials who have 
grown accustomed to the top-down, secretive mode of operations of the 
old administration to abandon these habits. It will require them to 
embrace the principles of transparency and accountability articulated 
by President Obama. The payoff is in shared accountability and shared 
ownership--a decision informed by better information and a workforce 
motivated to make the decision work.
    We recommend the following legislation to encourage this way of 
doing business:
    <bullet>  Reintroduce and pass the Federal Labor-Management 
Partnership Act as introduced in the 110th Congress (HR 3892). As found 
by Congress, the right of employees to participate in the agency 
decision-making process through unions ``contributes to the effective 
conduct of public business.'' This legislation would establish labor-
management partnership committees whose express purpose would be ``to 
better serve the public and carry out the mission of the agency.'' The 
Forest Service has such a committee, and while its influence is limited 
it is still an institution that provides an important avenue for 
employee participation. In addition, this legislation would also enable 
unions to negotiate on organizational matters and on methods and means 
of performing work--the very matters in which, as I hope I have shown 
here today, employee participation is critical.
    <bullet>  Pass the Whistleblower Protection Enhancement Act of 2009 
(HR 1507). This legislation would strengthen protections against acts 
of reprisal which employees all too often face as a result of their 
disclosures of problems that their superiors would prefer remain hidden 
from Congress and the American people. This legislation would encourage 
the kind of transparency and accountability that is required for 
meaningful employee participation in agency decision-making.
    These bills would put an ``accountability infrastructure'' in place 
that would allow us to collaborate with agency officials to develop and 
use methods that are appropriate for the diverse specific problems we 
will face. For example, though we have spoken highly of content 
analysis, we have not asked for legislation to mandate the use of this 
method for all reorganizations. This tool, while powerful, may not be 
appropriate in all cases. Instead, we seek a statutory framework within 
which we may, in collaboration with agency officials, develop our own 
best practices.
    In addition to these legislative items, your continued engagement 
and oversight on these issues is important. As I've discussed, they are 
of critical importance and are currently at high risk for catastrophic 
failure. Even with perfect legislation in place, I'm sure we'll need to 
continue to bring specific concerns to your attention on a case-by-case 
basis. In any organization as large and complex as a federal agency, 
there will always be pockets of resistance to change. Old habits die 
hard. For now, we urge you to remain engaged on the issues we have 
discussed here today and to pressure the agency to take meaningful 
action to address them. We would be happy and honored to help you in 
any way that we can.
    Mr. Chairman and Members of the Committee, this concludes my 
prepared statement. Thank you for the opportunity. I would be happy to 
answer any questions you may have at this time. In addition, please 
contact us at any time with any addition questions or requests for 
information. I may be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92e0e6faf3e6f1faf7e0d2f4e1bcf4f7f6bce7e1">[email&#160;protected]</a> and our 
Legislative Director, Mark Davis, may be reached at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a071d0e0b1c03195a5b2a0c19440c0f0e441f1944">[email&#160;protected]</a>
                                 ______
                                 

      Exhibit 1, Accompanying Testimony of Ron Thatcher, NFFE-FSC

      Restoring the Federal Public Lands Workforce--March 19, 2009

    The following is a letter from 37 District Rangers, the agency's 
front-line supervisors, to the National Leadership Team. We are aware 
of no response from the Leadership Team.

May 29, 2008

TO: Members of the Forest Service National Leadership Team

A FIELD PERSPECTIVE
    We recently completed a Rocky Mountain regional district ranger 
meeting to discuss common issues facing us at the field level. This 
letter summarizes some of the concerns we discussed. It is intended to 
be constructive, and aims to provide solutions to these concerns. We 
respectfully ask for your consideration and offer our support in 
solving these issues.
    The district rangers overwhelmingly support some recent changes 
made at the national level. This includes the decision to have the 
Human Resource Liaisons assigned to local line officers and the 
decision to not ``stovepipe'' the AQM organization. We appreciate your 
efforts and your support of the Dialogos report's recognition of the 
benefit of ``straight talk''. We also understand that the National 
Leadership team (NLT) has been reconfigured. The NLT is now smaller and 
focused on strategic decisions. Given this recent change, and the NLT's 
enhanced role in decision making, we decided to send this letter to the 
entire NLT.
    As district rangers we feel that, while we have retained the 
responsibility for land management and public service, we have lost 
significant authority to meet these responsibilities. We are concerned 
that recent changes have resulted in line officers at all levels ceding 
power to those in support functions. The Dialogos report identified 
this phenomenon. An aspect of this issue was highlighted in the March 
27, 2008, letter from the R6 Forest Supervisors to the Acting Regional 
Forester, regarding the current role of line officers in employment 
authority.
    As an agency, we have become more process oriented and less mission 
oriented.
    Business functions currently hinder operations, with people 
becoming distracted by the additional workload and the frustration of 
being unable to make progress. Individually these additional tasks and 
new processes are manageable; cumulatively they have become a huge 
burden on an already stressed workforce. Our workforce feels overloaded 
with new processes and frustrated by a burden shift of administrative 
duties with less time to focus their efforts on mission-critical work. 
The connection between land managers and administrative support used to 
be clear and immediate with success measured by the ability to provide 
service to mission-critical work. The connection between the two groups 
has become strained and in some cases is completely severed.
    The district ranger job has always involved ``kicking rocks out of 
the way'' so that our staff could get work done. Lately, it has been 
difficult to acquire and to share current and useful information with 
our employees, let alone help them when they hit a roadblock. Often we 
do not even know who to talk to in order to resolve issues, nor does it 
seem we have the authority needed to set priorities or resolve issues. 
The past year has been especially difficult for districts as it regards 
human resource support. We have not been able to hire the people we 
need, sometimes have not gotten employees paid on time, and the summer 
seasonal hiring process has been stressful at best. This is not 
intended as criticism for the hard working employees at HCM trying to 
make the system work. And we do recognize that new efforts are being 
made to correct the situation.
    We suggest that administrative services and processes be better 
focused on the needs of the field. Sometimes our expressed concerns 
regarding process/organization changes either have been ignored or 
treated as if we were simply resisting change. We want to be clear 
here. We embrace change as necessary to keep the Forest Service 
relevant, efficient and effective. We do not ask for a return to 
historic processes, but instead ask that we better focus, plan, and 
execute needed changes.
    We have observed a trend toward a more ``top-down'' agency with 
less involvement from the field, and lacking adequate feedback 
mechanisms. The effect is that ranger districts sometimes feel 
alienated, creating a ``we/they'' dynamic. We recognize the importance 
of strong central leadership and direction, but we cannot have mission 
alignment without field involvement. Lack of field representation 
during the formulation and development of programs that have so 
profoundly restructured key branches of the agency has resulted in 
design and execution problems that have negatively impacted mission 
delivery.
    Initiatives are important to an organization in setting priorities 
and making needed changes. Having too many initiatives, however, can 
divert attention away from mission-critical work and dilute the 
agency's focus. The Dialogos report also highlights this issue as 
``initiative fatigue''. We suggest that our most important initiative 
is fixing a broken service delivery system as it hinders our ability to 
address emphasis items and assigned targets.
    We have reviewed summaries of the Dialogos report and believe that 
our concerns are echoed to some degree in that report. We will continue 
to have difficulty maintaining mission focus and attention to safety if 
we can't resolve issues in those processes that were traditionally 
taken for granted. The sooner we can stabilize these issues the sooner 
we may focus on our primary mission and the safety of our workforce.
Recommendations
    To quote Colin Powell on leadership, ``The day soldiers stop 
bringing you their problems is the day you have stopped leading them. 
They have either lost confidence that you can help them or concluded 
that you do not care. Either case is a failure of leadership''. We 
believe that you can solve these problems and that you care.
    As you address the many issues facing the agency, we respectfully 
request consideration of the following:
    <bullet>  Clarify the roles, responsibilities and authorities 
throughout the agency in light of changes and centralization of various 
functions.
    <bullet>  Re-establish line authority over support functions. 
Recognize that you cannot hold line accountable if they do not have the 
authority.
    <bullet>  Focus your efforts (be visible) on improving 
administrative service support throughout the agency. We believe this 
is the most important thing you can do to support the ranger districts.
    <bullet>  Adequately test new software and systems and ensure they 
are working properly before being extended on an agency-wide basis.
    <bullet>  Ensure ranger districts are well represented in the 
development of processes, organizations and services essential to 
meeting the mission. Include significant ranger district involvement 
(SSS's, Staff, District Rangers) in addressing the current problems in 
Human Resources.
    <bullet>  Be careful in starting new initiatives prior to ensuring 
that the old ones are working as intended. Focus on making our systems 
work to support the organization.
    We stand ready to assist you in addressing these challenges and 
issues!

[GRAPHIC] [TIFF OMITTED] T8109.001

[GRAPHIC] [TIFF OMITTED] T8109.002

                                 

      Exhibit 2, Accompanying Testimony of Ron Thatcher, NFFE-FSC

      Restoring the Federal Public Lands Workforce--March 19, 2009

    The following is an email from a Fire Crew Supervisor, received on 
Feb. 27, 2009 in response to the Council's solicitation of employee 
comments on workforce morale and effectiveness.
    I am no longer a member of the union, but I supervise 18 union 
employees. The centralization of HR functions has greatly impacted the 
morale of the Forest Service employees by degrading the quality of HR 
service provided to employees, and by taking valuable time and energy 
away from supervisors as the functions have been transferred down to 
inexperienced supervisors.
    I routinely have issues in every facet of HR process. The hiring 
process (AVUE) is confusing for applicants and was shut down during a 
critical hiring period this year. Once applicants navigate the AVUE 
process, then they get a confusing form letter from ASC with very 
little direction for the Eforms they must complete online. Then they 
arrive on the unit and face problems with access to Agency computers 
because their earning statements are available only after they can 
Eauthenticate which takes several weeks after they have been in pay 
status. Many employees have issues with delayed initial pay, incorrect 
transfer of sick leave, and a host of other issues. As a supervisor, 
the worst aspect of centralization is that as bad as any individual 
process may be, the processes are changed so often that there is no 
chance to learn and work the bugs out. I spend an average of several 
hours each day dealing with HR services that previously were handled by 
dedicated HR experts on the unit that felt a stake in the success of my 
program. The HR folks knew the employees and took pride in taking care 
of them. To ASC, I am just a problem. ASC has no stake in the success 
of the program, and no understanding of the challenges I face. Since I 
am not an HR expert, I require assistance in many of the HR functions, 
but obtaining help is not a simple phone call away. I am still waiting 
on a request from last year on a hiring process question. Processes are 
implemented before being tested, and with limited training for 
supervisors. The corresponding waste of time and money is staggering.
    The problems are not limited to hiring. After the seasonal were 
terminated for the year, they had to wait four months this year 
(October to February) to receive lump sum payments for their unused 
annual leave. That is terrible service. Other examples abound, but 
universally, the complexity and number of HR processes and the constant 
change of policies make it nearly impossible to provide employees 
quality service. How can we expect high employee morale when basic 
functions like hiring and pay cannot be effectively handled on a 
regular basis? The quality of service to employees is an embarrassment.
                                 ______
                                 

      Exhibit 3, Accompanying Testimony of Ron Thatcher, NFFE-FSC

      Restoring the Federal Public Lands Workforce--March 19, 2009

    The following is an email from a Fire Crew Supervisor, received on 
Mar. 6, 2009 in response to the Council's solicitation of employee 
comments on workforce morale and effectiveness.
    I think employee morale at the field level is at the lowest I've 
ever seen it in my 29 years with the Forest Service. We've made it 
through many tight budget years, low staffing years, and constantly 
changing processes, but never has it taken the emotional toll it's 
taking now. We are too inundated with new processes/help desks/
acronyms/systems. I see managers who would normally come to work, deal 
with office issues in the first half hour, and then take off to the 
woods where their real job is. They'd come back late at the end of the 
day tired but satisfied that they'd done what they were here to do. 
Now, they have a completely overloaded computer inbox to deal with, 
full of multiple messages from the CIO, the HRM, the HRM liaison, the 
Govtrip, the Aglearn.....many of them have to schedule whole days in 
the office to deal with all this. If the new systems and processes 
would happen one at a time, and work correctly and smoothly and 
actually be an improvement on how things were done previously, and 
people were allowed to absorb the new processes before moving on to the 
next one, things might be easier to deal with. But we have been 
bombarded with new processes in every area we deal with, and 99% of 
them have so many bugs when they're given to us to use, it's become 
severe process overload. People feel like there's a huge weight on 
their shoulders and they feel hopeless to do anything about it because 
it just keeps coming.
    The new purchase card system is a prime example of one of these 
problems. We were told to start using the cards November 29, 2008. It's 
now March 2009 and we still haven't been able to ``reconcile'' or 
``reallocate'' because they don't have the job codes and the 
supervisors in the system. Why weren't they in the system before we 
were even allowed to start using it? We had to take the training 
immediately, and when we finally can use the system, we won't remember 
it. I went in and tried to look around and had a really hard time, so I 
downloaded the user guide, and the user guide is full of statements 
like ``if your organization uses such and such'' or ``such and such 
depends on your user setups and access rights'', so it's not even 
written for the Forest Service--it's written for the world in general 
that uses this system. It was no help at all. So meanwhile, we can't 
reconcile, and all our charges are going to a default job code, which 
is skewing the financial statements because those charges need to be 
moved to where they actually belong. Another problem is the idea that 
the supervisor has to approve each purchase (before, they had to review 
a list of purchases every quarter). I'm the main office purchaser, and 
my supervisor is the Ranger, who is about 700 messages behind on her 
emails. The last thing she needs is to go in and approve each one of my 
purchases. I know she's not the only one with this problem. The people 
at the upper levels will say we just need to do a better job at 
managing our emails, but that's not going to change the way it is.
    Govtrip is another fine example. An employee who sits next to me 
spent a whole day on the phone with Govtrip tying to schedule flights 
for a certain date from here to where his training was. The response 
was ``there are no flights from here to there on that day''. That is 
incomprehensible because both areas have busy airports with outgoing & 
incoming flights constantly. Finally they got to the point of saying 
there was a flight out, but not back. And then finally they were able 
to find one coming back. AND, all of this was going to cost an 
OUTRAGEOUS amount compared to what he could get going through Expedia 
or Travelocity. The person on the other end of the line obviously 
didn't care about saving the government money. This employee talked to 
someone in another office who was going to the same training, and found 
out he got a flight in and out for $300 less, from the same airports. 
So our employee called Govtrip back and told them this, and then they 
were able to find him one for $200 less. In summary, not only did the 
employee waste a WHOLE DAY trying to get this done, when he could have 
spent maybe 15 minutes with Expedia or Travelocity, but he also is 
going to pay hundreds more for the ticket. What is the logic here???? I 
suppose the government wants to somehow track the travel and maybe they 
think Govtrip is the way to do it, but wouldn't the simple old travel 
voucher system do that? And the old travel voucher system was just 
that--a computer program that was easy to use and free. The new Govtrip 
charges each employee $13.50 every time they file a travel voucher. 
Summer field crews will have to file a voucher every 2 weeks according 
to the Govtrip rules, and they'll get charged $13.50 each time. $13.50 
is not a lot of money by itself, but it will really affect the budget 
of a trail crew in the summer, at a time where there is no extra money.
    This all has the appearance of someone at the top scrambling to 
meet some target about e-government that was put out there by people 
who have no clue what goes on at this level. They obviously didn't 
check to see what the effects would be--it appears all they were 
concerned about was getting the new programs ``out there''. It has 
resulted in a very decreased level of accomplishment, and a very 
decreased level of job satisfaction and employee morale.
                                 ______
                                 

      Exhibit 4, Accompanying Testimony of Ron Thatcher, NFFE-FSC

      Restoring the Federal Public Lands Workforce--March 19, 2009

    The following is an email from a Fire Administrative Office 
Assistant at a Smokejumper Base, received on March 6, 2009 in response 
to the Council's solicitation of employee comments on workforce morale 
and effectiveness.
    <bullet>  We cannot get leave corrected. ASC does not send out 
Leave Error Reports so in order to get them, someone in the field has 
had to pull them (behind ASC's back). Once we get them and try to get 
them corrected, ASC does not respond. They told us last summer not to 
expect any leave corrected and that it was not their priority. Leave is 
critical to correct. The process to get it corrected is terribly time-
consuming, and then they won't deal with it.
    <bullet>  eAuthentication does not work for everyone. Now in order 
for employees to get their pay trailers, they have to go through eAuth. 
All computer programs have to go through eAuth so the employees that do 
not have it, are sunk. Our seasonal employees come on in the spring, 
but within a couple weeks are out on fires. They apply for an 
eAuthentication password, but by the time it gets here, they're gone. 
When they come back from the fire, the password has expired. This goes 
on all summer and never gets resolved.
    <bullet>  Terminated employees and those put into Non-Pay Status at 
the end of the season still show up on the rolls months after they're 
gone. ASC has standards to follow just like us, but they're not meeting 
the required deadlines.
    <bullet>  We are not allowed to process retroactive SF-52's. What 
ASC does not understand is ``stuff happens''. During the wintertime, we 
are constantly sending employees to training and last-minute burn 
details. The Burn details are coordinated between 2 forests which is 
difficult in itself, but last-minute calls are the norm, not the 
exception. In order to keep the burn program going, we have to work on 
a tight schedule.
    <bullet>  The LincPass does not work for remote locations. To 
require our employees to travel 240 miles round-trip is ridiculous. 
Then we have to go back again to pick up the pass. If our security is 
that bad, someone's doing something wrong.
    <bullet>  When ASC emails things to employees, they usually use 
their Lotus Notes email address. A lot of our employees can't get onto 
Lotus Notes because of our lack of IT help. And just like eAuth, when 
they finally get a password for Lotus Notes, they're gone on a fire.
    <bullet>  Last summer we had several employees not get paid. We 
called ASC to help us. They will not talk to Admin folks, only to 
Supervisors or the employee. Problem is, they're all in the field 
working. When we finally got someone to help, they asked U.S. for the 
correct banking information. According to them, they were not supposed 
to have that due to security issues. It took us pestering them to the 
point of insanity before they would help.
    There are hundreds of examples of how ASC does not work. This is 
just the tip of the iceberg.
    Finally, computer programs are great for the 8-5 crowd who sit in 
front of a computer most of the day. But for the seasonal employees who 
are field-going, it does not work. They certainly did not bother to ask 
the field how things should work.
                                 ______
                                 

      Exhibit 5, Accompanying Testimony of Ron Thatcher, NFFE-FSC

      Restoring the Federal Public Lands Workforce--March 19, 2009

    The following email was received from a Deputy Forest Fire 
Management Officer on March 3, 2009. This individual had contacted me 
for information about how to meet the education requirements for GS-
0401 Fire Management Specialist positions, because he was receiving 
none from agency sources. I asked him to describe his situation for me, 
which he kindly did.
    Information regarding the GS-401 series has been very slow in 
coming to the field to say the best. The last information the field has 
received was a letter from Deputy Chief Kashdan dated November 5, 2008. 
This letter has continued to create confusion and has not helped 
provide the field with information has to what courses/classes will or 
will not count toward the 401 series and how employees may move toward 
meeting the requirements of the series. Currently I have not been able 
to provide adequate council to our younger firefighters that will be 
our future leaders. Without clear direction the training and educating 
of our future leaders has been basically put on hold. All I can tell 
them at this time is go to college and then I cannot tell them with 
certainty what courses will count and what courses help them in the 
careers in fire management. The November 5, 2008 letter states the 
following: ``However, since the positions are established as GS-401, 
selections must be made in the GS-401 series if there well qualified 
candidates. If there are no well qualified candidates, mangers may 
select from the GS-462 referral list. And must be prepared to provide 
training and education opportunities to meet the GS-401 qualification 
requirements''. How are managers supposed to identify what is a well 
qualified candidate? Current our referral list just show qualified 
candidates. Currently the thought in this Region is that if there is 
someone who meets the requirements, you must hire that individual 
regardless of overall qualifications.
    On unit that I am currently on, there are seventeen encumbered 
positions. Of that number 65% (11 positions) do not currently meet the 
GS-401 series. These individuals are at varying stages of the 
educational requirements ranging from needing 6 credits to the full 24 
credits (at what level do these credits need to be?). All individuals 
lost between 14-18 credits when the ability to count National Wildfire 
Coordinating Group (NWCG) courses was dropped. All of these individuals 
currently meet or exceed the IFPM skill requirements for a complex 
Forest. Skills include Operation Section Chief Type 2, Prescribed Fire 
Burn Boss Type 1, Prescribed Fire Manager Type 1, Safety Officer Type 
1, Fire Use Manager Type 1 and Division Supervisor to just name a few. 
With our current budget level we cannot afford to send every one to 
college; so how do you chose?
    I am the individual who needs all 24 credits. My current position 
is that of a Deputy Forest Fire Management Officer with approximately 
28 years of experience. Prior to the dropping of the NWCG courses I was 
short 6 credits to qualify for the GS-401 series and was in the process 
of scheduling courses to get those required credits. But when the NWCG 
courses were dropped it was hard for me to make the case to complete 
those courses since I will be eligible for retirement in approximately 
7 years. Fire Managements skills are built with experience as shown by 
the required task book system. Maybe the 401 series is not the way to 
go, if ``our objective is to secure the best long term fire management 
organization with world-class expertise, and which is safe, proud and 
efficient.''
                                 ______
                                 
    Mr. Grijalva. Mr. Bill Wade, Chairman, Coalition of 
National Park Service Retirees, Executive Council. Sir.

STATEMENT OF BILL WADE, CHAIR, EXECUTIVE COUNCIL, COALITION OF 
        NATIONAL PARK SERVICE RETIREES, TUCSON, ARIZONA

    Mr. Wade. Thank you, Mr. Chairman, Mr. Bishop, and other 
distinguished Members of the Committee. Thank you for inviting 
me to testify here this morning.
    I spent over 30 years as a career in the National Park 
Service, the last nine years of which were the superintendent 
of Shenandoah National Park. I also spent about eight of those 
years in formal positions in the Division of Training in the 
National Park Service.
    Much of what I have written in my formal testimony has been 
touched on already, and I will not go into a lot of detail 
because some of it has already been mentioned. I will say that 
in preparing my testimony I contacted a number of existing 
field managers, career leaders in the National Park Service, 
mid-level managers, and we constantly get information and 
conversation with employees throughout the National Park 
Service.
    Our 700 members with over 21,000 years of accumulated 
experience managing national parks and programs still get quite 
a bit of information from the field people.
    Let me touch briefly on a few issues. All of these things I 
have included in my testimony, I think, are considered 
demoralizers, if you will, or aggravating factors to the 
employees of the National Park Service. I will touch on a few 
them very briefly and then come back and hit a couple of them 
in a little more detail.
    One thing that was mentioned by many, many managers is 
something I have called technology systems and processes. There 
seems to be an increase in process-driven issues, process-
driven activities in the National Park Service, and you have 
heard others comment about it already as well. One 
superintendent said, ``Overwhelmingly, process has become the 
goal.'' Another commented that ``More and more people are 
sitting behind computers inputting information into these 
administrative systems and complex technology systems than are 
out in the field doing work, such as in maintenance and in 
resources management.''
    Another aggravating issues seems to be recruitment, hiring, 
retention, and diversity. This has also been touched on. The 
NPS has not done an adequate job at diversifying its workforce. 
Hiring and retention is aggravated by things that have been 
mentioned before which have to do with the consolidation of 
human resources. The current process for hiring seasonal and 
temporary employees sometimes takes nine months now from the 
lead time, the recruitment action to actually seeing the 
employee on duty.
    Overwhelmingly, the single biggest thing that people 
commented on was employee development and training, and this 
has been something that I think has contributed to the things 
that Mr. Simpson mentioned: the lack of effective leadership. I 
think that comes in two forms. One is certainly a deficiency in 
training first level, maybe second level supervisors. The other 
has to do with the higher-level leadership, sometimes political 
leadership in terms of how they influence things that go on in 
the National Park Service, and I suspect other Federal 
agencies.
    Second, the next biggest aggravating, frustrating factor I 
think has already been mentioned several times. That is the 
consolidation of contracting and human resource capacity in the 
National Park Service. Acting Director Wenk said that they have 
not consolidated as much as within the Forest Service, but 
there has been consolidation in a number of parks. Each time 
you do that, and you remove the capacity from a park you lose 
the knowledge of what goes on in that park, and you have levels 
of separation. You have competing priorities and so forth that 
hinder certain parks in being able to carry out those programs.
    There is a serious concern right now as to whether or not 
the stimulus package will be able to be implemented effectively 
because of the lack of contracting and human resources 
capacity.
    Last, I will comment on a question that you asked the first 
panel, Mr. Chairman, and that was the extent to which political 
influence is affecting the morale. I would say as of the end of 
the last of the eight years or so most of our members and 
others that I have talked to would say that morale is the 
lowest that anybody has seen in the National Park Service in 
probably 50 years or more. That probably also contributes to 
some of the findings in the best places to work thing, and I 
think that along with just the deficiencies in first level 
supervision, it really was the process of political-driving 
decisionmaking and policymaking that was imposed on the 
carrying out the mission of the National Park Service. It goes 
well beyond just the management policies. There were a number 
of examples, but certainly that was a big frustrating factor 
and along with the others that I mentioned in my written 
testimony contribute to the overall morale.
    I think it is on the way up. I agree with Mr. Wenk in that 
factor; that the attempt to increase science-based 
decisionmaking and transparency, people have a lot of hope 
about that, and we think that that might move upward if the 
emphasis continues.
    I would be happy to answer any questions for the Committee 
after the rest of the panel.
    [The prepared statement of Mr. Wade follows:]

      Statement of J. W. ``Bill'' Wade, Chair, Executive Council, 
              Coalition of National Park Service Retirees

    Mr. Chairman and other distinguished Members of the Subcommittee, 
thank you for holding this hearing and thank you for inviting me to 
express my views, and the views of our Coalition of National Park 
Service Retirees (CNPSR) on the important topic of workforce issues in 
the National Park Service. I retired in 1997 from the National Park 
Service after a 32-year career, including serving the last nine years 
of that career as the Superintendent of Shenandoah National Park. I am 
now the Chair of the Executive Council of the Coalition of National 
Park Service Retirees.
    The Coalition now consists of more than 700 individuals, all former 
employees of the National Park Service, with more joining us almost 
daily. Together we bring to this hearing over 21,000 years of 
accumulated experience. Many of us were senior leaders and many 
received awards for stewardship of our country's natural and cultural 
resources. As rangers, executives, park managers, biologists, 
historians, interpreters, planners and specialists in other 
disciplines, we devoted our professional lives to maintaining and 
protecting the national parks for the benefit of all Americans--those 
now living and those yet to be born. In our personal lives we come from 
a broad spectrum of political affiliations and we count among our 
members four former Directors or Deputy Directors of the National Park 
Service, twenty-three former Regional Directors or Deputy Regional 
Directors, twenty-eight former Associate or Assistant Directors and 
over one hundred and seventy former Park Superintendents or Assistant 
Superintendents; as well as a large number of other former employees, 
including seasonal employees.
BACKGROUND:
    In preparing for this testimony, I contacted, by email, about 30 
park managers and division chiefs in the National Park Service (NPS) 
and asked them to identify what they believed the 2-3 most serious 
issues currently affecting the NPS workforce are and what the 
consequences of those issues are. In addition, I drew on conversations 
and communications that I and other members of the CNPSR Executive 
Council have had over the past several years with dozens of current 
employees of the NPS about various issues, including those affecting 
the NPS workforce.
    Many, but not all, of the issues of concern can be directly 
attributed to, or closely related to budget deficiencies. However, it 
is too easy for NPS leaders to make that the scapegoat and to fail to 
take appropriate action based on priorities and consequences. Clearly, 
some of the issues of concern, especially as perceived by those in the 
lower-ranks of the NPS, are the result of a lack of principled 
leadership and decision-making; and inappropriate priorities.
Employee Development
    This issue is at the top of nearly everyone's list. As with many 
organizations, when there is a tightening of the budget, one of the 
first program casualties is training and employee development. This has 
certainly been true of the NPS.
    This deficiency is pointed out in the Partnership for Public 
Service 2007 Rankings of ``The Best Places to Work in the Federal 
Government.'' In this survey, NPS ranked 203 out of 222. Several of the 
other items with low rankings also may result from an inadequate 
employee development program.
    One of the most significant deficiencies is ``effective 
leadership'' (ranked 191 of 222 in the aforementioned survey). The 
general belief in the NPS is that there are two parts to this perceived 
deficiency:
    <bullet>  Inadequate training and development of lower-level 
(first- and second-line) supervisors; and
    <bullet>  Ineffective and unprincipled leadership practices and 
decisions by high-level agency leaders, particularly political 
appointees.
    There is little question that there needs to be improved training 
and development of lower-level supervisors, since such development is 
critical to how these leaders perform as they move upward in the 
organization.
    One program recently implemented by the NPS that shows significant 
promise is the ``Superintendent's Academy'' This program is designed to 
provide individualized, comprehensive leadership development for those 
individuals either selected for, or likely to be selected for their 
first NPS superintendent position.
    However, career development for other fields is not as organized. 
One NPS manager said, ``We have no logical, organized, progressive 
developmental programs for any of our career fields, and it shows! The 
NPS has committed to revitalizing their ED program in the last year, 
but we have yet to see substantive results. The Employee Development 
program must be focused on the KSA's [knowledge, skills and abilities] 
needed in each of the career fields, and clearly identify the available 
developmental opportunities to obtain them.''
    Another said, ``Continuing failure to adequately plan, fund and 
execute the Employee Development program will result in a continuing 
deterioration in our employees' abilities to perform the mission-
critical work; will manifest itself in employee dissatisfaction with 
the NPS as an employer, increasing rates of attrition with concomitant 
loss of valuable potential, and ultimately in a decreasing ability to 
effectively protect our natural and cultural heritage.''
     Succession Planning
    Effective succession planning in the NPS is still a significant 
deficiency. In the last 2-3 decades there have been several succession 
studies and plans conducted, but each seemed to have ended up as a 
report on the shelf. One manager said, ``We not only need to do 
effective succession planning at the unit, region and Servicewide 
levels, we need to take appropriate action to implement the succession 
plans today, not sometime in the future! We need additional base 
funding to allow the Service to fund training and apprenticeship 
programs and shadow positions, so that when our older employees retire, 
they have had the opportunity to effectively pass on the knowledge and 
skills developed over the past 25-30 years. Failure to do so will cause 
a dramatic loss of institutional knowledge and memory, causing us to 
repeat the mistakes of the past, and slowing our evolution to more 
effectively meeting our growing mission challenges.''
Contracting and Human Resources Capacity
    Nearly every park manager with whom we consulted mentioned the 
serious situation involving ``bottlenecks'' in human resources and 
contracting. The NPS simply does not have the capacity in these program 
areas to keep up with the needs.
    One manager said, ``[There is a] deficit of trained and certified 
contracting officers. Compounding the difficulties with changes in 
procurement policies, the lack of contracting officers with warrants, 
and the quality of [applicants] we get when we advertise for these 
positions has put our contracting program in a tail spin. As a result 
we have diminished capacity to complete projects and to handle economic 
recovery projects. The inability of the NPS to get contracts out the 
door has drawn fire from Congress, who look at the backlog of projects 
we have on the books and the amount of unobligated funds, which has 
brought criticism to our request for additional funding.''
    Another said, ``The current ``corrective action plan'' for 
contracting has had a debilitating impact on the ability of parks to 
execute contracts and enter into cooperative agreements. The 
implementation of the plan has demoralized the procurement and 
contracting staff and pushing many into retirement or to other 
agencies. With recovery act funding pending we need to formulate a 
strategy to provide for a more nimble and effective contracting 
services.''
    Another superintendent gave a specific example:
        ``Contracting in the NPS is still problematic; both for in-park 
        part time purchasers, and for larger contracting at the 
        regional level. The dollar limits for in-park purchasing, I 
        believe, are from the 1960's or 1970's. Any card holder can 
        purchase up to $2,500 in services 3,000 in supplies and $2,000 
        in construction (which is widely defined to include painting 
        and putting up a fence). However, in order to have the ability 
        to purchase up to $10,000 in supplies, $2,500 in services and 
        $2,000 in construction, our employee had to attend 227 hours of 
        training. These dollar limits are obsolete and need to be 
        brought up to date so we can effectively get the work 
        accomplished. This is very broken; but the basic idea that one 
        must attend over 200 hours of training and still only be able 
        to purchase up to $10,000 is ridiculous. For the dollars spent 
        to attend the training, and this employee's time, we can now 
        purchase $7,000 more in supplies but we still have to go to 
        region to contract to get the building painted.''
    Another superintendent cited the Cooperative Agreement guidance 
that has recently been implemented in at least one NPS Region, as 
another case in point:
        ``Up to now our Cooperative Agreements have been executed using 
        basically a 3-party process involving agreement formulation by 
        the park procurement official, technical review by a 
        contracting officer and by the regional solicitor. It now seems 
        that we are adding up to 7 additional layers of process:
    1.  A new Regional point of contact (POC)
    2.  A new Agreements ``IN BOX''
    3.  Automatic posting to GRANTS.GOV of all Cooperative Agreements 
over $25K
    4.  A contract specialist (in addition to the contracting officer)
    5.  New involvement of Washington Office Contracting/Procurement
    6.  A decision to forward every agreement and task agreement to DOI 
[Department of the Interior]
    7.  A `review of the proposed action will be assigned based on 
availability of specialist or contractor personnel.'''
    In addition to the examples cited above, the NPS continues to 
``centralize'' all personnel and contracting functions into a very few 
parks (example: into four parks in the Northeast Region) in each 
Region. This ``Servicing Human Resources Office (SHRO)'' and ``Major 
Acquisition Buying Office (MABO)'' consolidation is scheduled for full 
implementation by October 1, 2010, though partial implementation has 
already occurred.
    The consolidation of the acquisition functions seems to be a 
consequence of GAO review in which the NPS drew fire on its acquisition 
management. The centralization of human resources functions is largely 
a result of recent ``competitive sourcing'' (or ``outsourcing'') 
efforts by the Bush Administration.
    The consequences of these actions include:
    <bullet>  Great frustration in parks and NPS offices relative to 
their abilities to get things done.
    <bullet>  Demoralized employees in the fields of human resources 
and contracting.
    <bullet>  Demoralized and sometimes angry customers and vendors.
    <bullet>  Delays in executing contracts.
    <bullet>  Demoralizing partners participating in Cooperative 
Agreements.
    <bullet>  Not being able to complete projects in the time frames 
required due to inadequate staffing.
    <bullet>  Loss of effectiveness and bolstering adverse public 
opinion about government efficiency.
    <bullet>  Loss of credibility with the public, because work is 
taking too long to get done.
    There is a great likelihood that the NPS will have a very difficult 
time meeting the requirements of the recent ``stimulus package'' 
because of these deficiencies. NPS has already initiated efforts to 
``call qualified individuals out of retirement'' to assist with the 
expected increase in workload in these administrative functions.
Technology Systems and Processes
    A number of NPS managers cited the increasing requirements of 
``systems'' and ``process-driven activities'' as a serious problem and 
growing frustration. One manager spoke of the ``dominance [of these 
systems and activities] over independent situational judgment and 
agility.'' Mentioning examples, this manager said:
        ``FMSS [Facility Management Software System], the PST [Project 
        Scoping Tool], the lengthy process for using FLREA [``fee 
        demonstration''] funds, the 5-year comprehensive plans--
        cumulatively these squelch creativity and effective action. 
        Long range consistent planning is a good thing, but it should 
        not be the only thing. It seems to be the only thing right now. 
        Now, we have to try to get employees to understand the 
        requirements of feeding all their projects through highly 
        constrained and hugely complicated processes, with 3 to 5 years 
        before they can hope to do the project.''
    A park superintendent lamented:
        ``Overwhelmingly, process has become the goal. GPRA [Government 
        Performance and Results Act], FMSS, are two big examples, but 
        it is in everything. We spent 100 hours on an Environmental 
        Management System so that we are more ``green.'' I would rather 
        our Resource Management Specialist spent those 100 hours 
        directly protecting our resources. I do not know the enormous 
        number of hours spent on FMSS. It has a life of its own. 
        Instead of working on our historic structures, our employees 
        are on the computer entering data about the need to work on 
        historic structures. I have never asked for, or used a report 
        created from FMSS to inform my decision making. Some may say 
        that makes me a poor manager; I believe it shows that FMSS is 
        not an effective management tool at the park level.''
    Consequences of these problems include:
    <bullet>  Spending lots of money (salaries) on care and feeding of 
systems instead of on work more clearly aligned with the NPS mission.
    <bullet>  Demoralized employees who feel devalued by the dominance 
of systems.
    <bullet>  The widespread feeling among employees that computer 
programs now trump human intelligence.
    <bullet>  Loss of credibility with the public, because ``we are 
sooooooo slooooow to act or react, and we respond by saying, `I can't 
do anything about it--it's the system'''.
    <bullet>  Ineffectiveness.
     Core Operations Process
    Another process initiated with questionable motives and implemented 
several years ago is the ``core operations'' process.
    The experiences of one park, as related by a concerned employee 
best serve to describe the concerns of many:
        ``When the superintendent presented ``Core Ops'' at an all-
        employee meeting, I was very encouraged. He said we would go 
        back to our fundamental, guiding legislation to establish our 
        core responsibilities, then determine how best to fulfill them. 
        Being rather familiar with NPS history and the guiding 
        documents, I knew that if this were an honest endeavor, there 
        could be but one outcome--a significant shift in staffing, 
        funding and emphasis on protecting park resources for future 
        generations. I was wrong. While the #1 park priority that 
        emerged from the process was to inventory and monitor resources 
        and assess their conditions, none of the action items reflected 
        that priority. One position (GS-12 assistant division chief) in 
        the Science and Resource program was abolished and the division 
        chief was promoted to a GS-14, creating an even greater 
        disparity between the chief and the GS-11 resource scientists. 
        I don't deny someone receiving their just rewards, but how did 
        this serve the resource? No apparent staffing, funding or 
        emphasis was shifted to protecting park resources. Our (the 
        rest of the resource staff) contribution to the process was the 
        privilege of working harder and more efficiently, to do more 
        and more with less and less.

        ``So, the process was not about our core responsibilities, but 
        about ``efficiencies.'' By naming a cost-savings, efficiency 
        exercise a ``core operations analysis,'' we further degrade any 
        remaining credibility with staff or those in the public who 
        take the time to scrutinize what we're doing. It's like calling 
        cell towers ``visual enhancements.'' If it's about cutting 
        costs, then call it a cost-savings process that supports our 
        current operations. If you call it a core operations analysis, 
        then go back to the core documents, identify the basic 
        responsibilities and address them.''
    It is clear from the above comments and from others we have heard 
from that the core operations analyses are being utilized--regardless 
of perhaps some good intentions by some NPS leaders--as a means to 
justify cost-cutting in a manner that obscures the adverse impacts to 
what should be the core programs of NPS: to provide for resource 
protection and to provide for a quality visitor experience.
    The core operations process, originating in one region, spread 
throughout the NPS because of emphasis from the political leadership in 
the Department of the Interior. However, leaders in several regions 
successfully altered the approach and refused to carry out the 
prescribed process because, in their words, ``it legitimizes an illegal 
process of non-compliance with the Organic Act.'' In other words, most 
park units have already reduced operations to the core--any further 
reductions would, in fact, threaten the resource and would be against 
the law. Implementing this process has cost substantial amounts of 
money and frustrated many leaders and employees because its emphasis is 
on ``efficiency;'' and ``effectiveness'' (in terms of law, policy and 
mission of the NPS) is relegated to a much lower level of importance.
Recruitment, Hiring, Retention and Diversity
    One superintendent states:
        ``We need to become more effective at attracting and retaining 
        younger employees, and employees from underrepresented groups. 
        Our diversity recruitment programs are relatively inefficient 
        and ineffective, especially as compared to those of other 
        agencies, including the USDA. Failure to recruit effectively 
        further disconnects the National Parks and the Service from 
        growing numbers of minorities and immigrant groups in America, 
        contributing to the growing ``irrelevancy'' of the National 
        Parks to today's citizenry. Our workforce must much more 
        closely mirror the ``face of America,'' if we hope to remain 
        vibrant, relevant and important to our citizens of today and 
        those to come.''
    The NPS has not done an adequate job of diversifying its workforce. 
The responsibility continues to be put on parks, which competes with 
all other existing priorities. A park superintendent suggests:
        ``To be more effective the NPS needs to develop a few 
        geographically based intake programs. The programs should be 
        comprehensive in nature, including a recruitment strategy, a 
        training strategy, a mentor and the funding to support the 
        program. Without a diverse workforce we continue to have 
        challenges connecting to diverse park visitors who look at our 
        workforce and believe the NPS does not offer opportunities for 
        them.''
    The current process for hiring seasonal and temporary employees 
requires unreasonable lead time. Often it takes over nine months from 
the initiation of the recruitment action to actually seeing the 
employee at work. This is problematic as the park manager often is 
unaware of what project and initiative dollars will be available at the 
beginning of the fiscal year.
Law Enforcement/Emergency Response Retirement Decisions
    Amendments in 1976 to the General Authorities Act (PL-94-458) gave 
trained National Park Service Rangers law enforcement authority within 
national park areas. These authorities include the ability to make 
arrests, carry weapons, and serve warrants issued by other 
jurisdictions. In 1994, the National Park Service issued a new position 
description for those positions that would provide federally 
established enhanced retirement benefits to those rangers who occupied 
those positions (5 USC 8336--commonly referred to as ``6c'' or ``20 
year retirement.'') These position descriptions describe the multiple 
tasks that rangers are asked to undertake in addition to their law 
enforcement duties, including search and rescue, emergency services, 
and resources education.
    Rangers who occupied these positions prior to 1994 have been 
required to submit affidavits to prove that they exercised the same law 
enforcement responsibilities that exist under the revised position 
descriptions. A team of DOI employees called the Federal Law 
Enforcement Review Team (FLIRT) is charged with reviewing the submitted 
information and determining whether the applicants qualify for the 
enhanced retirement benefits. This team has applied a very narrow 
interpretation of the eligibility requirements for enhanced retirement 
benefits. This has resulted in the rejection of several hundred claims 
from rangers who are retired or still on active duty.
    This is an injustice needs to be corrected. Currently, the NPS has 
a Protection Ranger workforce of ``haves and have-nots.'' This has 
caused widespread and substantial discontent among the Service's 1300 
commissioned law enforcement rangers and could negatively impact the 
Service's ability to recruit and retain high-quality employees for the 
ranger profession. If not corrected, this could result in diminished 
protection for park resources and visitors.
SUMMARY
    The aforementioned concerns have contributed to a decline in the 
morale in the National Park Service in addition to some inefficiencies 
and ineffectiveness. However, two other problems that have been ``on 
the rise'' over the past several years have led to the morale in the 
NPS being as low as anyone can remember--in at least the last fifty 
years; although there is evidence that this situation is changing with 
the new administration and there is renewed hope and encouragement on 
the part of the NPS workforce.
    The first of these contributing factors is the quality of decision 
making, but--more importantly--the continual erosion of decision making 
by qualified NPS professionals whose actions and decisions are 
overridden or ``second-guessed'' by political appointees who pursue a 
political agenda rather than a resource agenda. One superintendent 
offered an example:
        ``During the rulemaking process resulting in allowing 
        ``concealed-carry firearms'' in national parks, park 
        professionals and subject-matter experts in the NPS were never 
        consulted about what impacts to resources, visitors or 
        employees in the parks might result. It was clear that this 
        rulemaking was intended to satisfy a political agenda and that 
        resource, visitor and employee protection had no bearing on the 
        outcome.''
    Key to ``restoring the workforce'' is the need to restore the 
validity of the decisions for which the NPS is responsible; based upon 
science, law and resource principles. In other words, restore the power 
and authority of the Director of the NPS and his/her professional 
leaders and technical experts to make agency decisions instead of 
making those agency decisions higher and higher in the Department--to 
the point where it neuters the agency's professional leadership.
    Organizational leadership and reputation at the national and 
international levels have been compromised. The NPS is no longer 
considered the national ``expert'' or leader relative to managing 
parks; interpreting and educating; carrying out science and research; 
and valuing appropriate recreation and visitor enjoyment activities. 
The NPS is no longer considered an international leader because it has 
been prevented from fully embracing the international role that parks 
and protected areas fulfill and the helpful role that the U.S. can play 
in that international arena. If we are to ``restore the workforce'' we 
must restore the capacity and the competence for organizational 
leadership both nationally and internationally.
    The second contributing factor is the disturbing trend to 
``corporatize'' and ``privatize'' national stewardship responsibilities 
of our most sacred places, conspiring against the inherent 
responsibility of our nation to care for these places through its 
established government on behalf of all the American people. Escalating 
collaboration, partnering, and contracting-out of these inherently 
governmental functions is increasingly becoming a subterfuge for our 
national failure to meet the financial and leadership responsibilities 
our government must exercise on behalf of our citizens and their 
national patrimony. National environmentalism, in response to a barrage 
of threatening ideological conservation values, responds accordingly 
with an increasingly shrill and extreme message, partitioning and 
polarizing communities, government officials and citizens who yearn to 
see the debate focus on quality of life approaches rather than 
environmental extremism.
    Viewing national parks as essentially ``cash cows'' for local and 
regional economies increasingly skews interpretation of law toward the 
notion that recreation and visitor use are as important, or even more 
important, than the protection of the resource. The mounting 
overwhelming attention that is placed on parks' revenue-generating 
capabilities creates a dilemma that often threatens long-term 
ecological health and diffuses core resource protection duties at the 
macro scale in favor of smaller incremental reactions to a continual 
barrage of park development plans and mechanisms to increase visitor 
use scenarios that now seem to prevail more often than not. As a result 
of these trends, the role of environmental stewardship and carrying out 
core resource protection missions are being systematically diminished 
across the National Park System with increasing frequency--deferring 
instead to economic impacts to communities and special interest groups.
    These trends, along with recent attempts (and substantial 
expenditures of money) to contract-out, or outsource, certain work 
functions in the NPS have had a demoralizing effect on the workforce.
    It is time to return the NPS to a professional organization; driven 
by law, science and principled leadership. With this renewal will come 
the pride and enthusiasm of the NPS workforce that Americans have come 
to expect of those who protect and interpret the nation's National Park 
System.
                                 ______
                                 
    Mr. Grijalva. Thank you. Ms. Elaine Downing, Vice 
President, Union 2152 [California BLM employees], National 
Federation of Federal Employees. Thank you for being here and 
look forward to your testimony.

   STATEMENT OF ELAINE DOWNING, VICE PRESIDENT, UNION 2152, 
   CALIFORNIA BLM EMPLOYEES, NATIONAL FEDERATION OF FEDERAL 
                 EMPLOYEES, NEEDLES, CALIFORNIA

    Mr. Downing. Thank you, Mr. Chairman, and Members of the 
Committee. Thank for this opportunity to testify.
    I am Elaine Downing, and I serve as the vice president of 
Union 2152 who represents approximately 600 Bureau of Land 
Management employees throughout the State of California. I am a 
20-year veteran of BLM, and I work in the Needles Field Office, 
and we are a part of the California Desert District.
    First, I would like to tell you how much I love my job. To 
me working for BLM is a dream come true. Every day I am 
surrounded by the most beautiful country in the United States 
the American people entrust in me, along with my co-workers, to 
care for and protect our natural resources, and I take pride in 
doing that.
    I also take price in representing the BLM employees of 
California. Our agency is staffed by extremely dedicated and 
talented civil servants, most of whom love their job as much as 
I do, and it is a honor to serve them and speak on their behalf 
today.
    I would like to speak frankly about the state of the 
employees for BLM, California. Overall, our morale is poor, and 
here are a few reasons why:
    First, there are too many managers and not enough rank and 
fileq workers to actually do the work. BLM is returning to a 
three-tier management structure from the previous two-tier 
structures in most offices. There are still a few offices that 
have three tier in place, and I happen to work in one of those 
districts.
    On the ground, we have seen--we have seen no real benefit 
of this three-tier organization, and we have seen some several 
negative consequences of it. The restructuring will pull much 
needed funding from the field offices where the mission of the 
agency is being carried out, and route those resources to the 
district and sate offices where the positions, though 
important, are not as critical to the agency mission. This 
shifts the collective burden to fewer workers who are feeling 
micro managed and overworked.
    We would like to see the BLM organization structure flatten 
so that the field offices are getting the resources they need 
to get the job done. This is extremely important to BLM workers 
who, more than anything, want to see their agency succeed.
    Second, performance appraisals at BLM are being 
administered unfairly. BLM recently switched from a pass/fail 
to a five-level appraisal system. There have been major 
problems with the implementation and transition. In numerous 
cases management has not followed OPM guidelines in properly 
developing the appraisals that accurately describe the critical 
elements and performance standards of the employees' duties. As 
a result, employees are often not being rated on critical 
elements of their job; they are being rated on everything in 
their job description. These errors strike at the credibility 
of the appraisal system. Until appraisals are done properly, 
BLM employees will not trust that the performance awards are 
tied to performance and that they will continue to experience 
great frustration in the appraisal process.
    Third, BLM's decision to transfer IT and HR functions to a 
central location in Denver is weighing on the employees. Most 
of those directly impacted by this reorganization are upset 
because it is a major disruption to their lives. Many are at or 
near retirement age feel as though they are being forced out. 
Others are taking voluntary downgrades, sometimes three and 
four grades below their current grades, just to end the 
uncertainty. Promises of career development have not come to 
fruition.
    This initiative is similar to the changes the Forest 
Service has made recently to the centralization of their 
administration functions to Albuquerque. By many accounts, the 
Forest Service reorganization has been a disaster. Making 
matters worse, BLM has not engaged the union at all in this 
major change. It is no wonder employees are concerned 
considering they have had no opportunity to provide input 
through their designated representatives. We are against this 
ill-conceived reorganization and would like to see it stopped.
    Fourth, and finally, labor/management relations has been 
poor at California BLM in recent years. The 2001 abolishment of 
the Labor/Management Partnership Council set the tone for the 
eight years of strained relations. In that time, BLM employees 
have effectively lost their voice in the workplace as 
management has chosen to engage the union to the smallest 
degree possible. In fact, the agency has not even met with 
minimum levels of engagement spelled out in our contract. The 
union has effectively become stonewalled.
    We would like to see the Labor/Management Partnership 
restored at BLM so that the workers can once again have a voice 
in their workplace.
    Although I have painted a gloomy picture. I want to leave 
you with a genuine sense of optimism I feel going forward. I 
and many other BLM employees have strong belief that our 
working environment will soon improve. We strongly support the 
efforts of President Obama and Secretary Salazar to bring 
fairness, integrity, and accountability back to the Department 
of the Interior.
    I would like to thank you again for this opportunity to 
provide this testimony. BLM employees have had a lot of say 
about morale but we have lacked the venue to say it. It is a 
great relief to finally voice some of our concerns before such 
a distinguished panel. We commend the Subcommittee for asking 
BLM employees for their concerns and evaluations of our morale, 
and I will be happy to answer questions.
    [The prepared statement of Ms. Downing follows:]

  Statement of Elaine Downing, Vice President, National Federation of 
  Federal Employees, Local 2152, California Bureau of Land Management

    Thank you, Chairman Grijalva and distinguished Committee members, 
for the opportunity to submit the following testimony.
    My name is Elaine Downing. I serve as the Vice President of the 
National Federation of Federal Employees (NFFE), Local 2152, 
representing approximately 600 Bureau of Land Management employees 
throughout the state of California. Additionally, I keep in close 
contact with numerous employees from other BLM offices, both 
represented by NFFE and other unions.
    Overall, employee morale within BLM is relatively low, as evidenced 
in the recent government-wide employee satisfaction survey. I believe 
the results of the employee satisfaction survey actually misrepresent 
the true level of employee morale. In my estimation, morale is lower 
than the survey indicates, because many employees are fearful of 
retaliation if they answer the survey honestly. Many rank and file 
employees do not believe that the survey is actually anonymous, 
regardless of the agency's assurances, and many chose not to even 
respond to the survey.
    It is difficult to point to one or two solitary reasons for low 
morale, as there are a multitude of reasons for low morale within the 
Bureau. What I hope to do is to explain some of the more often heard 
complaints that the union hears and witnesses in representing 
employees, or has experienced firsthand. Our issues revolve around 
ethics, labor relations, workforce planning, resource protection, 
performance appraisals and awards, and the balance between home- and 
work-life. In my testimony, I have also included recommendations for 
improvements regarding some of these concerns.
Workforce Planning
    There is much concern among rank and file employees at BLM that 
upper level management officials do not adequately manage how the work 
within the department is done. With critical vacancies in the field for 
long periods of time, new software implementations that are impacting 
all programs, unprecedented wildfire seasons in California, national 
emergencies like Hurricane Katrina, and alternative energy development 
mandates, employees at BLM are constantly trying to handle too many top 
priorities at once.
    In my opinion, far too high of a percentage of agency resources are 
allocated toward supporting higher level managers residing mostly in 
district and state offices, while the field offices, where the majority 
of the agency's mission is actually accomplished, get too small of a 
percentage. Many field offices are severely understaffed and 
overworked. There is also concern that management officials build 
hierarchies to protect their position and grade at the state and 
district levels, while leaving protracted vacancies in critical 
positions at the field level. Having too many managers and not enough 
rank and file employees to do the work has several undesirable 
consequences; it is a waste of much-needed resources, it causes 
understaffing of critical positions, it causes rank and file employees 
to be overworked, it has a tendency to make rank and file employees 
feel micromanaged and pulled in different directions, and it ultimately 
hurts the ability of the agency to carry out its mission.
    Some people, particularly high level management officials, will 
point to budget shortfalls as a primary cause of low employee morale. 
It is true that most employees are disheartened by inadequate funding 
within their programs. However, we hear more complaints about the lack 
of integrity in how and which vacancies are filled than complaints of a 
shortfall of appropriated funds.
    Here is an example of the kind of action that has frustrated BLM 
workers: Management will allow for the advertising of a realty 
specialist position in an office where there is already one or two, 
while in the same period, the agency will leave a critical realty 
specialist job in a field office vacant for months, even though that 
field office does not have a single realty specialist on staff. Failing 
to fill this critical vacancy tied the hands of the agency so that it 
could not carry out a key function. That field office was unable to 
process alternative energy development applications for a period of 
several months. In this critical time of alternative energy 
development, this should not have been allowed to occur. We see lots of 
cases where BLM inappropriately fills non-critical vacancies ahead of 
critical ones in this way. It hurts the mission and it frustrates 
workers.
    Additionally, upper level management seems to lack an ability to 
manage workload. Rank and file employees at all levels, but 
particularly in field offices, are bombarded by data requests and work 
assignments from many sources including: Washington office, state 
office, district office, other field offices, etc. In my experience, 
management places very little if any emphasis on BLM employees 
following a chain of command when requesting work to get done. There is 
also little to no guidance for employees to make decisions on how to 
prioritize their work. In addition, there is a considerable volume of 
work that comes through the door that BLM employees are forced to 
perform, but the time it takes employees to handle these duties is 
often overlooked by management. BLM employees often feel they are 
getting pulled in too many directions at once, and they are unsure of 
how to prioritize their assignments. This common problem has hurt 
morale at BLM.
Law Enforcement Officers
    For law enforcement Rangers at the California BLM, morale is 
particularly low. These Rangers are responsible for protecting 
resources and public safety across 15.2 million acres in California and 
1.6 million acres in northwestern Nevada. The Law Enforcement Ranger 
program started in the California Desert District with the passage of 
the Federal Land Policy Management Act (FLPMA) of 1976, which 
specifically mandated the focus toward protection of natural resources 
within the California Desert Conservation Area. There is strong pride 
in California for that reason.
    Prior to 9/11, the ranger corps of BLM was dedicated to resource 
protection as prescribed under FLPMA. After 9/11, and with the 
formation of Homeland Security, several high level BLM law enforcement 
officials were hired into the Bureau from outside the agency.
    Generally speaking, these new managers were less oriented toward 
natural resources and more focused on homeland security. These new law 
enforcement managers also brought a stricter, more militaristic style 
of management to the Ranger force. This shift in focus has caused a lot 
of distress for many BLM law enforcement rangers and field office 
managers. Confusion as to who these law enforcement officers answer to 
and who can delegate the work to them, is beginning to cause friction 
within the offices, and it is affecting morale for all. Recent funding 
earmarked for the California Desert Ranger program has not found its 
way to California, and there is a growing concern that it was sent 
elsewhere.
    A common concern we have heard from BLM law enforcement Rangers is 
that upper level management does not value law enforcement officers 
with natural resource backgrounds. Many law enforcement Rangers have 
speculated that they were passed up for promotion because management 
was promoting from outside the agency for higher level positions. In 
addition, our union has had to defend several Rangers against what I 
would consider to be questionable disciplinary actions. These suspect 
disciplinary measures have had a strong tendency to be taken against 
Rangers with natural resource orientations, hired before the creation 
of DHS. Regardless of whether there is any validity to the concern some 
law enforcement Rangers have that they are being treated unfairly, 
there can be little doubt that morale has fallen due to the perception 
that they are not being given equal treatment.
Consolidation of Functions
    There are two specific groups of employees at BLM that have 
recently been targeted for consolidation, the Information Technology 
(IT) and Human Resources (HR) personnel. Even though we as a union do 
not represent the HR staff (BLM considers them ``confidential 
employees,'' and therefore outside the bargaining unit), they are our 
coworkers and are a critical part of our mission. I will use this venue 
to share some of their major concerns.
    In 2005, BLM's Executive Leadership Team (ELT) started discussing a 
new initiative called ``Managing for Excellence.'' This initiative was 
supposedly developed with the aim of improving effectiveness and cost 
efficiency within BLM. Our union believes there were areas that needed 
to be improved, but the agency has not demonstrated that the changes 
they have implemented, nor the changes they are planning for in the 
future, have saved or will save any funds or improve efficiency.
    In fact, one of the primary decisions the team made--to put the 
three tier system (as opposed to the two tier system) back in place--
will most likely hurt efficiency within BLM. The three tier system adds 
another layer of bureaucratic supervision to the field offices, which 
are actually accomplishing the work right now, and could accomplish 
much more if they had adequate staffing.
    According to the ELT's frequently asked questions document about 
the restructuring, the rationale for moving to a three tier system read 
as follows ``We've learned that being closer to the ground with a 
three-tiered organization allows us to provide better service to the 
public and better quality control. It also gives us the opportunity to 
reduce duplication and overhead services.''
    I respectfully disagree with this conclusion, and have seen no 
evidence to substantiate it. Adding a third tier does not accomplish 
what they have claimed it does. Having worked in an office that 
continued to have a district office (three tiers), while others went to 
two tiers, I have found that the district does not bring consistency to 
the field offices. Rather, it adds a layer of management that is costly 
and unnecessary. It also seems to justify additional grades to those 
employees who often have the same knowledge, skills, abilities, and 
responsibilities as our field office staffers. I do not believe that 
adding this layer of management eliminated any meaningful duplication 
of effort or overhead. The three tier system has actually created more 
overhead and duplication of effort.
    Another one of the Managing for Excellence decisions was to 
transfer the functions of IT and HR to a central location in Denver, 
Colorado. This decision alone is responsible for a drastic decrease in 
employee morale. Not only has it impacted the IT and HR employees, but 
it has affected all of the employees throughout the BLM.
    Our most experienced IT and HR employees have begun looking for 
jobs elsewhere in their same communities. Those who are mobile have 
started looking for jobs outside of BLM. Promises of assistance 
regarding career counseling have yet to be fulfilled. Shortages in HR 
have been very difficult to overcome, creating a backlog of work, 
especially during fire season. In my estimation, it is taking several 
months longer on average to fill vacancies. Most employees at or near 
retirement age feel as though they are being forced into retirement, 
while others are taking voluntary downgrades, sometimes 3 or 4 grades 
below their current level, in order to end the uncertainty of their 
future.
    The initiative came with promises of union involvement, but we have 
only been engaged in an ad hoc fashion. A Washington Office management 
official said it is the responsibility of the state offices to 
negotiate with their local unions. However, local labor relations 
employees in the state office cannot engage in meaningful discussions 
on topics when they do not know what is going on themselves and they 
have not been included in the initiative planning. In fact, there has 
not been as much as a conference call to collaborate and discuss the 
impacts of these changes on BLM employees. A labor-management 
partnership council would be extremely helpful in addressing employees 
concerns with regard to this reorganization.
    Although, I have stated our union would like to bargain the impact 
and implementation of this reorganization, I would like to make clear 
that we are adamantly opposed to this reorganization. We are confident 
that this change will hurt BLM's ability to perform HR and IT 
functions. This initiative is very similar to the changes the U.S. 
Forest Service made a few years ago to centralize IT and HR functions 
to Albuquerque, New Mexico. By many accounts, Forest Service's 
reorganization has been a disaster, yet BLM is intent on going down 
that same road. A reorganization of the IT and HR functions at BLM will 
be damaging to the agency and promises to be a tremendous waste of tax-
payers' dollars. BLM is going to lose immeasurable institutional 
knowledge and talent as a result of this reorganization.
    In addition to the problems I have already discussed, the process 
that has been developed using USAjobs.gov has become a tremendous 
source of frustration for supervisors and HR specialists, as well as 
applicants who want to work for the Bureau. Most non-federal 
applicants, as well as current BLM employees, have found this system to 
be overly burdensome and give up after being aggravated by the software 
system. In a recent job application for a realty specialist, there were 
over 80 questions that had to be answered in addition to submitting a 
comprehensive resume within the structure of this system. This is 
hurting the agency's ability to recruit the talent it needs to carry 
out its mission.
Employee Performance Appraisal Plans and Awards
    In 2005, the Office of Personnel Management (OPM) required BLM to 
switch back to a five level performance appraisal system from a pass/
fail system. The handbook is clear and concise, describing a 
comprehensive system to develop critical elements, how to measure or 
quantify the level of performance, and the proper procedures for rating 
employees. However, implementation of this system has been very 
problematic.
    Our union has reviewed a myriad of performance appraisals 
throughout the state of California. When reviewing these appraisals we 
have discovered that typically everything that is listed in the 
position description is listed in either one or two critical elements, 
while the quantifiable measurements are ambiguous and subjective. 
Favored employees of course, get glowing reviews and non-favored 
employees are saddled with having to defend themselves against vague, 
subjective, and indefensible measurements. BLM needs to do a better job 
of creating appraisals that accurately describe the critical elements 
and performance standards of employees' duties. Until these performance 
appraisals are done properly, BLM employees will continue to experience 
great frustration in the performance appraisal process and eventually 
become disengaged.
    The system would work well if the agency would implement a 
structure for annual oversight and make a commitment to adequately 
train all BLM employees. I believe this change would lead to tremendous 
improvements in morale, performance and accountability. All too often, 
we find government agencies are blaming the inadequacies of a system on 
the structure of the system, when the real problem is the lack of 
training, oversight, and accountability.
    There is no oversight on appraisals within each state or within the 
agency. There is no consistency from employee to employee, office to 
office, or state to state, in both how they are written and how 
employees are rated. I recently had the opportunity to discuss this 
issue with a realty specialist from New Mexico BLM. This realty 
specialist had only one critical element on which to be rated, and that 
was ``safety.'' It stands to reason that a GS-11 realty specialist 
would have at least one critical element having to do with something 
other than safety. This example shows that BLM is not following OPM 
guidance in determining critical elements.
    Likewise, the awards system at BLM is highly flawed. There is 
little attempt by BLM to conduct oversight to ensure consistency. 
Management officials in the state offices do not review performance 
appraisals and ratings for quality or consistency and awards may or may 
not be tied to them. Some offices give token awards to everyone. The 
only person that we know of that reviews the appraisals and awards in 
the state of California office is a human resource specialist whose 
only objective is to make sure the documents were received. There needs 
to be more fairness and accountability in the distribution of awards 
and it should have a nexus to performance.
Alternative Pay Systems
    We have been closely monitoring so-called pay-for-performance 
systems that have been developed and implemented at other agencies. We 
think it would be a very bad idea for the Department of Interior to 
attempt a move to a subjective pay system like ones that have been 
developed at the Department of Defense and elsewhere. These alternative 
pay systems have had a poor record of success in the federal sector, 
and in my opinion, the BLM lacks many of the prerequisites for a fair, 
transparent, and effective merit pay system. The only way a pay-for-
performance system would work in the federal sector is if there was a 
fair, objective, and consistent appraisal system; real accountability 
demanded from managers; a true 360-degree performance review of each 
and every employee, including top management officials; and a 
significant increase in funding to support the pay system. All of these 
requirements are a tall order to achieve in BLM. Increased funding is 
particularly difficult with constant pressure to contain the expense of 
government services.
New Technology
    The effects of the newly implemented software for government travel 
(GovTrip) and the new Financial Business Management System (FBMS) 
system, has been problematic. BLM is unable to pull reports, pay 
vendors, reconcile accounts, transfer funds, or process travel 
authorizations and vouchers in a timely manner. Travel vouchers that 
once took approximately one hour, now take several hours or even days, 
depending on the availability of the software system. The software is 
not user friendly and we have heard many complaints from users at all 
levels, including management officials. This is affecting all BLM 
employees across the agency.
    Practically everyone at BLM has been negatively affected by the 
transition to these software programs. The acronyms used in the new 
FBMS are not user friendly and very little guidance and training has 
been provided. Employees have been forced to learn the software by 
soliciting help from someone else who has had training. It is 
inconvenient for an office to rely on just one person for this kind of 
expertise, which is often the case. Any one person could be out of the 
office for an extended period of time. BLM employees are in need of 
more training on the new software. This is not just a matter of 
employees not liking change. It has been extremely aggravating to all 
employees because they are unable to perform their duties.
Labor Relations
    Under the previous administration, California BLM management became 
almost completely unresponsive to union concerns. Under President Bush, 
a lot of the Clinton era Federal Labor Relations Authority (FLRA) 
guidance used to facilitate labor-management relations was disregarded, 
and it caused a lot of confusion about how to resolve labor-management 
disputes and how to handle unfair labor practices (ULPs). Not only was 
this action antagonistic toward labor unions, I believe the confusion 
caused by this move cost taxpayers millions of dollars in lost time and 
efficiency, as labor and management struggled to establish new terms 
for their relationship. This is particularly true within BLM where 
labor-management relations became extremely difficult and burdensome.
    Management officials do not come to the table to negotiate 
collective bargaining agreements in California BLM. They delegate the 
task to labor relations specialists. They do this because the State 
Director and the Associate State Director do not seem to care about 
employees' concerns relating to working conditions and morale. Our 
current contract calls for quarterly meetings between the union and our 
State Director or his Associate to discuss problems. During the last 
eight years we have yet to meet with the State Director or his 
Associate.
    Our union is hopeful that Congress and the new Administration will 
re-establish basic labor-management relations at BLM. We believe that a 
labor-management partnership council, like the one in place at the 
Forest Service, would be an effective way of bringing employee concerns 
to the attention of management and addressing them.
    Some agencies have elected to retain their labor-management 
partnerships when both labor and management found it to be an effective 
avenue to address issues impacting labor relations. In contrast, BLM 
was very quick to terminate their state and national partnership 
councils when the opportunity arose. Employees within BLM have seen the 
lack of follow up on numerous issues that have been brought to the 
attention of management. There is serious disconnect between management 
and the employees of BLM that we would like to see resolved by 
reestablishing partnership councils.
Disparate Treatment between Managers and Rank and File Employees
    Our union has witnessed disparate treatment between managers and 
rank and file in many different areas. This disparity exists in the 
awards program, performance appraisals, training, accountability, 
discipline, and in the addressing of unethical behavior.
    For example, a management official who was caught with 
inappropriate material on a BLM-issued computer was disciplined with a 
suspension, while rank and file employees would be, and have been, 
fired for virtually identical offenses. This unfairness has caused a 
lot of frustration among BLM employees.
    Management officials and management-favored employees have often 
been allowed to violate agency policy regarding such things as: 
internet use and security; use of government vehicles; use of 
government equipment for personal use; improper reimbursement during 
official travel for personal business; agency policy on pets; and 
fiscal accountability. Morale would be better at BLM if the same rules 
were applied to and enforced on everyone.
    Management team meetings during lean times of budget are often held 
at resort locations, which are not well received by employees who have 
been told there is not enough money for their project, training, 
awards, office, field supplies, or to implement safety committees as 
per our collective bargaining agreement and the law. Disparate 
treatment between management and rank and file workers, at many 
different levels, is hurting morale at BLM.
Whistleblower Protection
    Our union believes that current whistle blower protections, as they 
have been enforced by the Office of Special Counsel, are inadequate to 
protect federal workers. Whether it is through stricter enforcement of 
existing whistleblower protections, or through legislation, we strongly 
support strengthening these key protections, which are such a critical 
element of government accountability. BLM employees are in desperate 
need of a Special Counsel that will protect employees who open 
themselves up to reprisal when coming forward with information on 
waste, frauds, and abuse. Until a better system is put in place to 
ensure accountability and protection from retaliation and adverse 
actions against whistleblowers, BLM workers will be reluctant to come 
forward. Inadequate whistleblower protection at BLM has hurt morale 
within the department.
Going Forward With Optimism
    Going forward, I and many other employees at BLM have a strong 
sense of optimism that our work environment will begin to see marked 
improvement. We strongly support the efforts of President Obama and 
Secretary Salazar to bring integrity and accountability back into the 
Department of Interior workforce. The agency will be well served by 
reevaluating the ethics regulations and removing politics and ideology 
from Bureau decision making. There are hundreds of talented and 
dedicated employees working throughout BLM who love their job and love 
their country. To most of us, working for the American people at an 
agency that allows us manage our country's natural resources, is very 
rewarding. I consider it a dream come true. We are surrounded by 
beautiful scenery and are charged with its protection. It is an honor 
of mine to come to work each day.
Conclusion
    In closing, I would like to thank you again for this opportunity to 
provide testimony. Employees at BLM have had a lot to say about morale 
but have lacked the venue to say it. It is a great relief to finally 
voice some of these concerns before such a distinguished panel. We 
commend this Subcommittee for asking BLM employees for their concerns 
and evaluation of employee morale at the department. I will be happy to 
respond to any questions you may have. I can be reached at Elaine--
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="17537860797e797057747639757b7a3970786139">[email&#160;protected]</a>
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Mr. George Leonard, 
National Association of Forest Service Retirees. Welcome, sir, 
and thank you for being here.

  STATEMENT OF GEORGE LEONARD, NATIONAL ASSOCIATION OF FOREST 
                        SERVICE RETIREES

    Mr. Leanard. Thank you, Mr. Chairman, Mr. Bishop, and 
Members of the Committee.
    As I sat here this morning, I could not help contrasting 
what was going on with the other congressional hearings that we 
have been hearing on television this last week, stories of 
corporate greed, corruption, wrongdoing and incompetence, 
employees that could not come to work unless they had a big 
bonus to encourage them, give them the initiative, and never a 
word about the public good.
    At this hearing we are hearing from public servants 
motivated by the love of the land and dedicated to caring for 
the lands that they are responsible for and for serving the 
public good. Caring for the land and serving the people. These 
and the thousands of people that they represent deserve our 
thanks and our support.
    There are morale issues in the Forest Service and other 
Federal land agencies. Since I spent my career in the Forest 
Service, I will talk about it. For more than 15 years, the 
Forest Service has been downsizing. Budgets under both 
democratic and republican administrations have been severely 
constrained. The rising cost of fire suppression within these 
constrained budgets has required reductions in every other 
program in the agency. From 25 percent of the budget in Fiscal 
Year 2000 to 50 percent of the budget in 2008, this has 
required terrific shifts in all the other activities of the 
agency.
    The result has been a 35 percent reduction in the number of 
people working on the national forest; doing essential work in 
the stewardship of these lands. There have been reductions in 
other Forest Service programs as well. These reductions have 
severely compromised the capacity of the agency to carry out 
its work in caring for the land and serving the people.
    Mr. Chairman, I want to thank you for your co-sponsorship 
of the FLAME Act. Separating the cost of emergency fire 
suppression from the regular budget of the agency is absolutely 
essential to maintaining programs that are reasonable and meet 
the stewardship requirements. It will set the course for 
stabilizing the agencies and beginning the possibility of 
rebuilding their capacity to serve the American people. The 
National Association of Forest Service Employees strongly 
supports enactment of the FLAME Act.
    We have heard today about the attempts to respond to the 
budget reductions. The agency has consolidated ranger district 
and forests, moving people further away from the lands and the 
communities that they need to serve. Driven by the need to 
reduce support costs and, frankly, by pressure from so-called 
efficiency experts at both the Office of Management and Budget 
and the General Accountability Office, the agencies have 
centralized services such as finance and personnel, and we have 
heard today the consequence of those actions.
    I hope that Hank Kashdan is right that they are beginning 
to get over the troubles associated with those shifts, but we 
really need to get the support services back to functioning as 
support services that enable the people that have jobs to do on 
the land to get out there and do them.
    People like to be productive, and pushing paperwork around 
is not job satisfaction. The amount of time spent in the office 
on paperwork detracts from the time that is available to get 
something done on the job. Many of the requirements that we 
have imposed over the years are well meaning and do serve a 
useful purpose. Frankly, the environmental analysis process 
that has developed over the last 20 or more years result in 
better decisions and better work on the ground, but 
cumulatively these impacts often result in the impossibility of 
actually getting time, essentially work done on the ground when 
it is needed.
    This Committee took important steps in simplifying the 
process of getting forest restoration projects done on the 
ground. I would hope the Committee would continue to look at 
processes with the idea of streamlining them to the point where 
work can get done in a timely manner.
    There was something else about this hearing today that I 
think is worth noting. The timing was such that the political 
appointees in the various agencies were not here to testify. 
You heard from the career personnel who understand their 
agencies, are familiar with the work and know what needs to be 
done to be productive on the ground.
    The Forest Service has a long tradition of career 
professional management. It does not assure that it is always 
the best, but the batting record is very good. I believe that 
we should continue the tradition of career professional 
leadership at the Forest Service. I believe we should establish 
that tradition at each of the other land management agencies. 
The Congress needs to be able to get advice from these agencies 
that is not colored by the political direction of whatever 
administration may be in place.
    Mr. Chairman, thank you for the opportunity.
    [The prepared statement of Mr. Leonard follows:]

                    Statement of George M. Leonard, 
            National Association of Forest Service Retirees

    Mr. Chairman and Members of the Committee:
    It is an honor to appear before you today to talk about the U.S. 
Forest Service. I spent 37 years working for the Forest Service, 
starting as a fire crewman on a Ranger District and finishing as 
Associate Chief in the Washington Office. I was proud to be a member of 
the Forest Service. I remain proud of the agency today.
    I want to start by noting that I have been retired for 15 years. 
Much has changed in the agency since I retired and my comments should 
be evaluated in recognition of this. Retirees, particularly those of us 
who are members of the National Association of Forest Service Retirees 
<SUP>1</SUP>, remain interested in the agency and are dedicated to its 
statutory multiple-use mission. We have many contacts with our former 
colleagues, so perhaps we can offer some useful perspectives.
---------------------------------------------------------------------------
    \1\ The National Association of Forest Service Retirees is composed 
of people who spent their careers involved in protection and management 
of the National Forests and Grasslands, doing Research, managing the 
State and Private Forestry Program and in International Forestry 
activities. They are dedicated to the Multiple Use-Sustained Yield 
mission of the agency. As retirees they continue their dedication to 
the agency's statutory mission and work to support it.
---------------------------------------------------------------------------
    The Forest Service has been in a continual downsizing mode for more 
than 15 years. For most of the Post WWII period the agency was a major 
supplier of timber to a dependant timber industry. There was strong 
political support for this role and the timber program, as well as 
supporting programs, was well funded. For various reasons, political 
support for the program was lost in the early 1990s. The sale program 
was reduced by more than 80 percent. The timber organization within the 
agency was largely dismantled over the next few years.
    In more recent years, rising costs for fire suppression, within a 
constrained agency budget, have resulted in significant reductions in 
money available for basic stewardship of National Forest resources. The 
portion of the Forest Service budget devoted to fire has risen from 25 
percent of the agency budget in 2000 to nearly 50 percent in 2008. This 
has necessitated major reductions in agency personnel working on 
programs other than fire. The number of foresters, wildlife biologists, 
hydrologists, other resource management specialists and technicians has 
dropped 35 percent in this period. The ability to carry out important 
stewardship activities on the Forests had declined commensurately. I do 
not know of any organization that can maintain morale in the face of 
such continual reductions.
    I want to thank the Chairman, Chairman Rahall, Chairman Dicks, and 
other members of the Congress for their recognition of the funding 
problem and their efforts to remedy it. The National Association of 
Forest Service Retirees supports enactment of the FLAME Act that you 
have sponsored. This Act will separate the cost of emergency wildfire 
suppression from the rest of the Forest Service budget. Hopefully this 
will set the stage for restoring the capability of the organization to 
properly carry out its mission.
    People that work for an organization want to be productive. People 
in government service want to feel they are accomplishing something 
that contributes to the public welfare. People in the Forest Service 
have a long tradition of working to make the National Forests an asset 
both to the Nation and to the small rural communities that are 
dependent upon them. Unfortunately, it is becoming harder and harder to 
get things done. Part of the problem is the lack of consensus on just 
how and for what purpose our National Forests should be managed. We 
have created a vast body of procedural requirements that must be 
completed before a project, no matter how simple, can go forward. Many 
of these processes have merit and, in fact, make for a better result. 
But, way too often, the cumulative impact of all the requirements 
becomes overwhelming or so time consuming that nothing gets done. 
Former Chief Dale Bosworth characterized this as the paralysis of 
analysis.
    Let me tell you what I mean. In the 1950's I was a young forester 
on the Stanislaus National Forest in California. On a hot July day a 
fire escaped initial attack and burned about 300 acres of National 
Forest land before it was controlled. About 6 million board feet of 
mature ponderosa pine was killed. As soon as the fire was controlled we 
began the steps needed to offer the timber for sale. Within a month a 
timber sale had been prepared and sold. Logging began in late August 
and was completed that Fall. Because of the prompt action the timber 
had little loss in value. Deposits to the KV fund were adequate to 
cover the cost of replanting the burned area. The following Spring we 
hired a planting crew and completed planting. In less than 12 months, 
the area was returning to productivity.
    Today, it would be difficult to complete the environmental 
assessment process within a year. If there were appeals, and there 
routinely are on salvage sales, the project might be delayed for 
another logging season. By that time, the fire-killed ponderosa pine 
timber would have deteriorated to the point that it might not be 
saleable. The Forest would be left with a sea of snags, a long term 
fire hazard, and no money to restore a functioning forest. In that 
scenario, there is little reason for the local employees to feel pride 
in their accomplishments.
    Because retirees recognize the difficulties that current employees 
encounter in caring for our forests, we have set up a program to 
recognize people or units who are successful in finding their way 
through the morass of paperwork, gaining public support, and getting 
good work accomplished on the ground. Let me tell you about a couple of 
projects we have recognized.
    Hurricane Katrina did severe damage to the forests along the Gulf 
Coast. Thousands of acres of trees were blown down, blocking roads, 
damaging facilities, and threatening endangered species habitat. The 
jackstrawed, down and broken trees posed a severe risk of insect 
epidemic and the potential for catastrophic fires as the down trees 
dried out. National Forest lands immediately adjacent to Biloxi, 
Mississippi were among the most severely damaged. When the winds died 
down, Forest Service employees immediately began to open roads. They 
worked effectively with local groups to develop plans for clearing 
trails, rehabilitating campgrounds and other facilities. After surveys 
for endangered species, they made provision for protecting their 
habitat and quickly sold the damaged trees. The damaged trees were 
promptly harvested. The threat of insects and fire was removed. Within 
an incredibly short time, the land was restored to a productive 
functioning condition. I had the opportunity to meet many of the 
employees when I presented the John R. McGuire Award in Jackson, 
Mississippi. Cooperating agencies, local interest groups, and 
representatives of the entire Mississippi congressional delegation 
participated. I can tell you that the sense of pride and accomplishment 
was palpable. Morale was high.
    Last year I presented an award to the Enoree Ranger District in 
South Carolina. The District has put together a large partnership 
organization in order to carry out a wildlife habitat improvement 
project that extends across ownership boundaries to include both public 
and private lands. A multitude of partners is involved. The pride of 
accomplishment among the public and private partners was apparent. 
Morale on this unit was not an issue.
    Of course, there are many more success stories out there, but there 
are also many stories of frustration where well meaning people have 
been unable to overcome obstacles in a timely fashion. All too often 
projects are frustrated or settled for less than their full potential.
    What can be done?
    <bullet>  Restore a level of funding to the agency that is 
commensurate with the work that needs to be done.
    <bullet>  Look carefully at the procedural requirements for 
implementing projects so that worth while projects can be accomplished 
in a timely manner
    <bullet>  Consider providing a threshold that must be met before 
providing an appeal right to people who have not taken advantage of 
opportunities to actively participate in project development.
    The Forest Service has a long tradition of professional, career 
leadership. This has served the agency well. It helps to ensure that 
the Congress and the Administration have the benefit of professional 
advice on resource management issues that is not colored by political 
considerations. We urge that the tradition of professional, career 
leadership of the agency be continued.
    If the dedicated employees of the Forest Service have a reasonable 
measure of job security and the resources they need to provide proper 
stewardship of our National Forests, to do Research, to implement the 
State and Private Forestry Program, and the International Forestry 
program, morale will not be an issue in the agency.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    I am going to recess. We have a vote, and should be about 
20 minutes, and then we will reconvene so that we have the 
opportunity to ask you some questions or you can further 
comment on some of the points that you made. So let me recess 
and we will see you back here in a little while.
    [Recess.]
    Mr. Grijalva. Thank you very much. Let me again call this 
hearing to order, and let me yield my initial questioning time 
to my colleague, Mr. Sarbanes, for any questions or comments he 
might have. Sir.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing. I really, really enjoyed 
the testimony of this panel, and I want to thank the 
Partnership for the work it is doing, and I have been following 
that very closely and trying to assist where they can, and I 
want to thank all of you for the work you have done, and the 
only way to say it is ``for our country'' and thank the members 
and those that you represent as well.
    I think it is disgraceful, it is the only word you can use, 
what has been done, and it has been done to the Federal 
workforce over the last few years, and we have a monumental 
repair and restoration job in front of us, to reestablish the 
morale of the workforce, its effectiveness, its efficiency, all 
of which has been severely compromised, I think, by a dogmatic 
view of what the role of government should be.
    Now, I join with the comments of a number of you in 
applauding the President for signaling a new direction and a 
willingness to commit the resources and the attention to our 
Federal workforce.
    One of the most uplifting things for me as a Member of 
Congress, I have only been here three years, in touring my 
district has been to discover that the public, despite the 
press's penchant for displaying these poll numbers that say the 
public, you know, hates Federal bureaucracy and all the rest of 
it, the public I see really wants the Federal workforce to do 
its job, and appreciates it when the Federal workforce 
functions well and at a high level, and I believe in their core 
they want you to have the resources and the attention and the 
support and the leadership that you deserve to do that job.
    I also believe that if good people, really decent, hard 
working, committed, dedicated, people have a sense of mission 
are not happy in what they are doing there must be something 
wrong with the organizations that needs to be fixed, the 
structure of them and the leadership of them and so forth, and 
I think that day is here and coming based on the changes that 
Americans wanted to see. So you are going to be part of leading 
that effort and I thank you for it.
    I am shortly going to be introducing legislation to address 
this whole issue of competitive sourcing and try to restore the 
right balance which has been up-ended by the approach of the 
last few years in terms of making sure that inherently 
governmental functions are handled by our Federal workforce, 
looking at whether advisedly governmental functions, i.e., the 
ones that maybe do not fall in that category but really could 
be beset done by the Federal workforce, return to that 
workforce, and this issue of competitive sourcing, so that when 
there is something that is under consideration for contracting 
out, that the Federal employees be able to bid on that and 
demonstrate their competencies to do the job well. So your 
testimony, particularly on those issues, has been very helpful 
to me.
    I really just have one question along those lines, and that 
is, the outsourcing that has happened in this kind of wilful 
manner, we have talked about how it has impacted morale, and 
many of us have seen instances where the contracts were not 
performed well, so the whole premise of the outsourcing was 
undermined by that. Any of you can answer this question, but 
speak a little bit about just what happens when you take 
expertise that comes from years of experience and understanding 
and commitment to the mission on an ongoing basis and you 
remove that from the equation for a period of years, which I 
think has happened when you do some of this outsourcing, what 
is the impact that has on the ability of the various agencies 
to function well and at a high level? And you can speak to a 
specific example or you can just speak in general to that 
question. Anybody.
    Mr. Wade. Mr. Sarbanes, I would be happy to offer a couple 
of ideas. One of the things that I think this whole issue 
caused in the way of demoralization for the National Park 
Service anyway, and I suspect it is true for a couple of the 
other agencies, is in fact that that potential for the loss of 
institutional memory, and it is especially egregious, I think, 
when you are talking about a resource agency where the 
knowledge that builds up about the resource has to be 
accumulated over a significant period of time. And if the 
people who have that institutional knowledge or have developed 
it suddenly finds that their jobs might be up for competitive 
sourcing or something like that, that creates not only a 
tremendous worry for their own situation, but for the care and 
concern that they have for the mission of the agency.
    So I think it is particularly aggravating when that sort of 
thing happens to a resource-based agency.
    Mr. Sarbanes. Anybody else before my time has expired? Yes?
    Mr. Leanard. Let me go back, I have been retired for 15 
years, so I cannot talk to the morale today, but let me talk 
about some of the issues that the Forest Service has contracted 
out. When I was a young forester, we had crews on the ranger 
district that did the timber stand improvement work--thinning, 
planting trees and whatnot. Those crews provided backup. When 
we got a fire, they were there to provide a supplementary fire 
crew. When we had a rescue situation, we had a crew there.
    We decided with some help from outside the agency that it 
would be more efficient to go to contract for those kinds of 
jobs, so we contracted for a crew to do the thinning, and in 
the evening those crews were gone and if you had a fire there 
was nobody there to help you out with the fire. All of a sudden 
the cost of fire suppression went up, and we lost a source of 
people who were working in the forest who could move up into 
other organizations there.
    So there is some real cost. The kind of cost/benefit 
analysis that people do doesn't seem to stretch out far enough 
to get the full value that employees in various kinds of jobs, 
whether they are low level or high level, contribute to the 
whole organization.
    Mr. Sarbanes. That is a great example. Thank you all again 
for your testimony today. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Sarbanes. Mr. Bishop.
    Mr. Bishop. Mr. Leonard, in your testimony you talk about 
the need for people that work in an organization to feel 
productive in some way, and you go on to tell problems within 
the Forest Service. Do you believe there is a problem there 
with what we sometimes call ``paralysis by analysis'' or what 
the Acting Director said is 80 percent of the time spent trying 
to justify the other 20 percent of the actual work? Do you 
believe that there is such a problem?
    Mr. Leanard. Mr. Bishop, yes, I do, and it is not because 
the requirements individually do not make sense. It is because 
we have made so many layers of requirements together that it is 
just difficult to get there, and, frankly, in some cases the 
cost of doing the analysis becomes more than the cost of 
getting the job done on the ground.
    And I certainly do not advocate a rolling back of the kinds 
of analysis and environmental analysis that we need to do, but 
you know, a lot of these requirements, there is at least a half 
a dozen committees of the Congress that are writing 
legislation, whether it is with Endangered Species Act or 
things having to do with commerce and whatnot, there is just 
all kinds of committees in Congress that are writing rules, and 
there, frankly, is no mechanism for saying that you have a 30-
day comment period to meet this requirement, and over here you 
have a 90-day comment period for public input, and maybe those 
can be run consecutively, and maybe they cannot. There needs to 
be continual look both by the agencies and by the Congress 
those requirements, the hurtles you have to go through to make 
sure that there are not some opportunities to streamline them 
so that we can get the job done on a timely manner.
    Mr. Bishop. So if Secretary Salazar changes a 60-day 
comment period to a six-month comment period, maybe we could 
streamline those types of things in a way.
    Let me ask you another question that is probably a little 
bit more significant. When you worked at the Forest Service, 
you were under both Republican and Democrat administrations.
    Mr. Leanard. Yes.
    Mr. Bishop. Did you see efforts to politicize the 
decisionmaking process during any of that time?
    Mr. Leanard. When I first came to the Washington office, 
the Forest Service, frankly, benefitted from a period of benign 
neglect in the Department of Agriculture. The Department of 
Agriculture was busy doing the things the Department of 
Agriculture is good at, and we only attracted the attention of 
the Department when we created a problem for them, a political 
problem that they had to get involved in.
    Over time what used to be the Assistant Secretary, now the 
Under Secretary position was more concerned, spent more of his 
time with the Soil Conservation Service, now the Natural 
Resource Conservation Service, and less with the Forest 
Service. Starting with the Carter Administration, the Assistant 
Secretary positions spent more time with the Forest Service 
than with the agriculture interest, and they have become 
progressively more involved in the day-to-day operations and 
decisions of the agency.
    Mr. Bishop. Thank you. I appreciate that. Appreciate your 
time in service, and I appreciate all the witnesses that are 
here. I think, Mr. Thatcher, you made one comment that it is 
probably not wise to have a top-down secretive decisionmaking 
process, rather it would be better to tap into the collective 
wisdom. I think what you are seeing what is happening in 
Congress today, maybe Congress should take that advice, not 
just simply the Department of the Interior.
    With that, I do not have anymore questions of this panel. I 
appreciate all of you for being here.
    Mr. Grijalva. Thank you. Mr. Simpson, I think through your 
testimony and through the written testimony you talk about 
leadership as being key, and employee satisfaction. Give us an 
example of an agency that excels in this area of leadership, 
leadership development and how they do it.
    Mr. Simpson. Well, one of the consistent high performers in 
the best places rankings would be NASA, and they actually have 
an extremely developed and sustained attention to development 
of leadership qualities. They try to understand and try to--
first of all, what I think is important as a general matter is 
to understand what are the qualities that are going to make a 
leader successful within your organization; how is that leader 
going to be able to incentivize and engage employees so that 
they can give their discretionary energy, to give them a sense 
of purpose, and to give them a sense that their work is 
directly linked the mission of the organization. Those are the 
basics of leadership development. And I think NASA, I would 
commend their leadership development programs to you. You could 
invite them in, have them describe to you in greater detail 
exactly how they do it, but they are certainly a model within 
the Federal government.
    The high performers include the Nuclear Regulatory 
Commission, the General Accounting Office, I think they all 
have a very deliberate conscious approach to understanding that 
you want to be able to cultivate your leaders before the 
opportunities come up for promotion. You want to be able to 
understand that I have a set of people, all of whom need to 
be--their leadership capabilities need to be cultivated before 
I place them into leadership positions. You need to have some 
sense that there are succession challenges coming up, and not 
do what a lot of agencies do, which is, let us have a selection 
board, let us promote this person into a leadership position, 
and now just when they are being asked to perform we are going 
to throw them some training at them so they are actually 
learning while they are actually doing it at the same time. 
That is not the ideal situation. So you really want to be 
forward-looking in your leadership development activities.
    Mr. Grijalva. Thank you. Mr. Thatcher, share for us if you 
could a simple example of how changes in the Forest Service 
organization, the example we are talking about today over and 
over again, centralization, directly impacts an employee, that 
employee in the field that you were talking about, and how that 
affects their ability to manage the resource.
    You know, centralization, I use the example it is like 
calling India to get tech help on your computer.
    Mr. Thatcher. Sure.
    Mr. Grijalva. It is detached, but how does that affect that 
person, that employee working in the field, and trying to do 
their job.
    Mr. Thatcher. Well, you know, where would I stop? I mean, I 
could go on and on----
    Mr. Grijalva. One example.
    Mr. Thatcher.--on those kind, but I will give you a simple 
example of the average typical Forest Service employee who used 
to have a clear understanding of what his mission was with the 
agency for the work that he did out in the field typically now 
is going to spend countless hours, if not days, trying to get 
the menial tasks that need to be done for him to do his job.
    The IT reorganization now a persons cannot even open a box 
if he is going to get a computer replacement. He has got to 
wait for a person to come down from outside of town that may 
take days just to open the box and set his computer up. He is 
tied to his desk waiting for that kind of response. If an 
employee has a pay issue, now they are required to call a 1-800 
number, receive a ticket, and then wait for that phone call to 
be returned to them. Those kind of things are what is impeding 
our employees from their ability to go out and do what they 
love to do, and that is work in the national forests and 
grasslands and care for that land.
    Mr. Grijalva. Let me, perhaps an unfair question, Mr. 
Thatcher--or anybody on the panel can answer--the question 
referenced by the Ranking Member, Mr. Bishop, is centralization 
in the organization, new computer systems, different kinds of 
management requirements that have been put in place that you 
have just spoken to one example of, are they impacting work as 
say--the work and productivity say as much as litigation?
    Mr. Thatcher. Well, I think that would be fair to say. You 
know, I work at a national forest office, and a preponderance 
of the time that our resource specialists spend is responding 
in litigation.
    Mr. Grijalva. OK. Mr. Wade, I appreciate the perspective 
that you have brought. Let me ask this question and then turn 
over to Ms. Lummis for her questions.
    You cited the lack of contracting officers is a very, very 
serious concern. Elaborate on that issue and how it affects the 
agency's mission.
    Mr. Wade. Well, right now I think the biggest concern in 
the National Park Service about the capacity for contracting 
and procurement and that sort of thing has to do with the 
increase in the money through the stimulus package. Certainly 
there has been concern about the centralization of these 
functions, and this degree of separation that I talked about 
where you lose the immediate knowledge of the park and the 
program and so forth because that function is now moved to some 
other location, whether it is a greatly centralized function, 
like in the Forest Service, as Mr. Wenk talked about in several 
parks in the region. But the fact is right now there is just a 
real shortage of contracting capability within the National 
Park Service, and I think the workforce is very worried. 
Certainly the management of the National Park Service, 
superintendents and so forth is very worried about how that is 
going to be carried out with this extra stimulus package money 
and anything else that might come out of a couple of years' 
budgets that are coming down the road.
    Mr. Grijalva. Thank you. Ms. Lummis, any questions or 
comments?
    Ms. Lummis. Thank you, Mr. Chairman. I appreciate the 
panel's indulgence with our busy schedules today, and 
appreciate your being here.
    My first question is for Mr. Simpson. I want you to know 
that I appreciate the portions of your testimony about clearing 
red tape associated with filling a growing number of open 
positions in public land management agencies. But I also had 
some concern about the recommendations in the Federal 
Applicant's Bill of Rights Act, and my concern is that they 
could actually have the opposite effect. So my question is 
this.
    Have you considered the risks of such additional hiring 
mandates from a litigation perspective, such as notification of 
non-hires within 10 days, or prohibitions against requesting 
certain background documentation as being a couple of examples?
    And I can tell you those are examples within the portion of 
my working life that I spent managing public agencies, seem to 
be sort of ripe for creating litigation rights that actually 
drag out the effort to fill positions.
    Mr. Simpson. Sure. I mean, I think we offered those 
legislative suggestions on the assumption that they would be 
well executed, and I think it is perfectly appropriate to try 
to take into account real world considerations about how 
effectively some of these notices can be given and so forth. I 
think our underlying point is simply that the status quo is 
unacceptable, and that the current Federal hiring process is 
completely inadequate to the challenges of recruiting and 
retaining the next generation of Federal employees.
    And so I would be happy to engage with you or your staff on 
any of these details. I think they are perfectly legitimate 
considerations, but I think our underlying point is that we 
have to move off the dime from where we are right now because 
the processes are not adequate to the task.
    Ms. Lummis. Thank you. Quick follow up on that. You also 
stated that Congress and the administration need to work 
together to ensure that adequate resources are available such 
as making sure that agencies are using all of the tools at 
their disposal, and ensuring that those tools are being used 
effectively. So, of course, I wanted to ask about what types of 
resources and tools that you are referring to. Is it funding, 
or communications, or regulations?
    Mr. Simpson. I think in that sense that part of the 
testimony was referencing hiring authorities. Many 
organizations already have certain kinds of hiring 
flexibilities and hiring authorities, but often they are not 
known or not used fully by the agency involved, whether it is a 
matter of simply following old practices, or not sufficient 
communication, or not sufficient commitment from top down to 
really produce results and to move away from the existing 
status quo, and so that was, I believe, the gravamen of that 
recommendation.
    Ms. Lummis. OK. So communications is an issue, in other 
words. They may not be known by the employer, but they are not 
communicated to the employees. So are you seeing both sides of 
that transaction being----
    Mr. Simpson. I think even more narrowly what I was trying 
to get across was that sometimes the person responsible for 
running the hiring process is not aware that they have 
statutory authorities, certain flexibilities that have been 
given to them by Congress to respond to very acute talent 
recruitment needs, but their willingness to embrace those 
authorities is, you know, I think hindered by a number of 
institutional factors, and you have to really work it to make 
sure that those people and that the entire organization uses 
its statutory flexibilities to the maximum extent by law.
    Ms. Lummis. Thank you. Now, my last question, Mr. Chairman, 
is for the entire panel, so feel free to jump in. For those of 
you representing public employee unions or retiree groups, I 
would reiterate that I have been an employee of government, I 
have been an employer or a manager within government, and I 
know that these lines of work comes with tremendous challenges. 
But I have also spent a considerable amount of time in the 
private sector, and when I look at the economic challenges that 
are occurring now in our country they seem to be borne much 
more heavily by the private sector than the public sector, and 
I am wondering, especially with regard to private industry 
groups that depend on public lands for their livelihood, have 
you seen some morale issues in those industries, like timber 
and energy contractors, and the ag community that would be 
parallel or different? Yes, sir.
    Mr. Leanard. May I address that? Specifically one of the 
major issues today for the national forests and some of the BLM 
lands and all is a tremendous build-up of fuels in our forests.
    Ms. Lummis. Yes.
    Mr. Leanard. I did a little back-of-the-envelope 
calculation a couple of years ago that on just the roaded 
portion of the national forest we are adding roughly 4 billion 
cubic feet of wood a year, and that is the energy equivalent of 
750 million gallons of gasoline. If you wonder why we have a 
fire problem on the national forest, we are adding tremendous 
amount of fuel.
    The other side of that though is that that growth, because 
of its energy potential, has economic or at least potential 
economic value. Unfortunately, we do not have a timber industry 
in place to take advantage of that. We do not have the 
facilities in place, and the small towns and communities that 
used to be dependent upon the sawmill no longer have that.
    There are some real opportunities to use economic values of 
the excess and growing amount of wood on the public lands to 
both use those economic values to address the fire problem and 
also to make a contribution to our renewable energy needs.
    Ms. Lummis. Well, that is a marvelous point. Thank you so 
much for making it. Mr. Chairman, thank you.
    Mr. Grijalva. Thank you. Mr. Inslee.
    Mr. Inslee. Thank you. I was unable to hear your testimony. 
I will read it. I want to thank you for being here. And my 
principal reason for being here is just to say thank you for 
you and your brothers' and sisters' work, and I just want to 
tell you why I personally appreciate it.
    I am a big user of the national parks, and I have seen 
dedication by people who work in our national parks that is 
just extraordinarily. I climbed Mount Rainier a few years ago, 
and going up there all the way up past the snow level you see 
these little, tiny like rock careens, and maybe little pink 
tape showing where people were not to walk on the alpine 
meadows, all the way up to Camp Muir. Some park employee had 
gone out there and busted their back to take care of the alpine 
meadow like that. And just with this exquisite care that people 
were showing for this amazing resource, I do not know who that 
person was, but thank all of your fellows for that kind of 
work.
    And I was hiking up at Mount Daniels, which we did not 
succeed in submitting on, and I met this guy who was out there, 
he said it was almost like it was his day off doing trail work 
because he just loves this area, and I am embarrassed, I cannot 
remember his name right now, but he spent time telling us about 
the status of the trail and all the bud worm kill that we were 
experiencing, and went through and explained to me and 
everything.
    I just want to say how much I appreciate people working so 
hard for Uncle Sam, and my family appreciates it, my 
constituents appreciate it. I look forward to some way we can 
help them, you know, reach your professional goals. It has been 
a really though eight years for you, and I appreciate the Chair 
holding this hearing to help restore some of these issues, and 
I know a lot of them is budgetary. We are going to try to 
continue to increase the parks' budget, and now we have to get 
to the Forest Service. So anyway I just came here to say thank 
you. Thank you.
    Mr. Grijalva. I just want to continue with a couple of 
questions. Ms. Downing, in your estimation or if you had a 
recommendation to give to Congress, what would be the most 
important thing we could do to help rank and file members do 
their job and also to improve their morale? If you had one 
thing you could say, Congress, I would like you to do this?
    Mr. Downing. When I tell folks I was coming, there was a 
variety of reason everybody wanted to, you know, their licks 
in, but the one common thread was accountability all the way up 
the line and down. That is it. That is it. It is that simple.
    Mr. Grijalva. Thank you. Mr. Leonard, you mention in your 
testimony your recent support of the FLAME Act and thank you 
for that comment, but based on your experience what 
recommendations would you offer the agency as it reclassifies 
the one example I used, the forestry technicians, and other 
long-term wild land fire fighters into a new job series that 
will have a requirement of a college education? What 
recommendation would you say to deal with what I think is--as 
Mr. Kashdan said--something that we are trying to figure out as 
we are right now?
    Mr. Leanard. I think it is essential that our career fire 
fighters have a logical avenue for progression up within the 
fire community. Some of them have the capability of moving out 
into other jobs, broader management responsibilities, but 
certainly we should not put classification requirements in that 
preclude a successful professional fire fighter from advancing 
to the top of the fire profession.
    Mr. Grijalva. Mr. Thatcher, any comment on that?
    Mr. Thatcher. Well, I would certainly, you know, just 
expand upon that, that what you have to realize is that the 
fire fighters that the Forest Service have are some of the most 
well trained, most educated folks that we have. They not only 
understand fire, they also are the people that sit on 
interdisciplinary teams to provide the input that is necessary 
on fire ecology, how to burn, where to burn, when to burn. 
These folks go through an extensive training, and we need to 
recognize that and value that, and not say that that be simply 
replaced by having a college degree in biological science. We 
need to keep our fire fighters home grown and have the ability 
to work their way up through the system. They are the best. 
They are the brightest.
    Mr. Grijalva. Thank you. Mr. Simpson, we spoke earlier, I 
think, also in part of the testimony about the need for land 
management agencies to do a good job at attracting and 
retaining well-qualified folk to work in the agency, to work 
toward a diverse workforce.
    From your insight, what are the obstacles that typically 
prevent agencies from dealing with these two goals or these two 
issues that are important, and why do they not go after them 
more aggressively?
    Mr. Simpson. There is a multitude of answers to that and 
some of it implicates the factors we talked about earlier in my 
exchange with Congresswoman Lummis. But many times you see the 
institutional reluctance to embrace the statutory 
flexibilities, and hiring authorities that have already been 
given to agencies. I, myself, if I was looking at an agency 
that was experiencing those issues, I would start with 
leadership and try to understand has leadership embraced those 
goals, and have they communicated their commitment to those 
goals down through the organization, and that would apply to 
both political and top-ranking career leadership.
    I think that we need to talk about the stewardship of large 
organizations. It is difficult to think of serious challenges 
facing that agency that are not ultimately accountable, you 
know, that are not traceable to leadership. It is either a lack 
of attention. There is no doubt that numerous smaller issues 
that are getting in the way. If you have sustained attention 
from leadership, you can resolve them.
    Mr. Grijalva. And I think one general question probably 
more directed at Mr. Thatcher, Ms. Downing, but also any of 
you, Mr. Wade. As we go forward the role of the employee needs 
to have prominence in this whole discussion, the rank and file 
as you stated. We have talked about partnerships. We talk about 
once again activating the labor prerogatives that were there 
and make sure they are utilized. We talked about new and 
pending legislation.
    Could both of you talk about the necessity for involvement 
of rank and file, one; and two, the one instrument, the one 
mechanism that you would recommend to us that would be 
essential?
    Mr. Thatcher. Well, I will start out as far as on the 
Forest Service side. I think it is essential, Mr. Chairman, 
that we involve and engage the folks that are actually out 
there doing the work on the ground. These are the people that 
know it. These are the people that can see where the 
impediments are. These are the people that can make it work 
better. It is imperative that we always have that voice, and 
the mechanism that we have for that voice, now the Forest 
Service was unique.
    In the Clinton administration, or the partnership mandate 
that the Clinton administration had, we worked together with 
management to solve those types of problems.
    When the Bush administration took office, the first 
executive order that was issued was to get rid of partnership. 
The Forest Service was wise. They saw the value, they saw how 
we could make our agency better by having our employees buy in, 
get behind, and do what needed to be done, so we kept that 
partnership. It is working, it has worked, and it will continue 
to work provided that we continue to have that opportunity to 
come to the table, discuss those things with management, and 
work together and collaboratively, not only for the benefit of 
the employees, but the benefit of the agency which will then 
benefit the public sector.
    Mr. Grijalva. Ms. Downing.
    Mr. Downing. When we lost our partnership council, that 
started a slow trend of really shutting us out. Our contracts 
are not enough for us to be able to get our voices heard. 
People stopped engaging in activities. The Merit System 
Protection Board just did two studies last fall that hit the 
nail directly on the head. If you do not engage your workforce, 
you are not going to have happy employees. Happy employees make 
happy productive agencies.
    Our supervisors are critical to that. We ask them to be 
supervisors before we train them to be supervisors. I was a 
supervisor for six years. I have learned more about managing 
and making good human resource decisions doing my work as a 
union officer than I did in the six years I was a BLM manager. 
We have to invest in our management. We have to invest in our 
employees, and value what they have to say even if they do not 
agree. To understand and be involved in the decision, and be 
able to have that open transparent communication is so 
valuable. We have to have the mechanism in place.
    Mr. Grijalva. Ms. Lummis, I will extend the courtesy to 
you. I went over time on my second round of questioning.
    But Mr. Wade, the issue from the perspective of your 
organization in terms of the consultation issue with employees 
being able to be part of the process that we just heard from 
your two colleagues at the table.
    Mr. Wade. Well, I think it goes back to what Mr. Simpson 
said earlier, and I had not made this kind of a comparison, but 
my guess is that agencies or organizations that have highly 
effective leadership within the organization probably need 
these external kinds of avenues to engage the workforce and to 
involve employees and so forth less.
    So, I think that what we are seeing now with the Best 
Places to Work Ratings, particularly in the National Park 
Service and I suspect others, when you see effective leadership 
having a very, very low level by comparison, that suggests that 
the workforce is not being engaged by the leadership and that 
is what causes these other mechanisms to sprout up in order to 
make sure that that happens. Not that they are not effective 
and in some cases needed, but I would put the focus on 
effective leadership to make sure that the engagement of the 
workforce takes place, and we have heard examples this morning 
where that is not happening.
    Mr. Grijalva. Would that engagement be a requirement?
    Mr. Wade. Well, I think it is--I mean, I think it is 
inherent in a leadership position. I mean, I do not know how 
else to put it. It is required because it is inherent in a good 
leadership or management position.
    Mr. Grijalva. OK. Thank you. Ms. Lummis.
    Ms. Lummis. Thank you, Mr. Chairman.
    You are so right that good leadership skills, good people 
skills and good issue skills do not necessarily all go 
together, and training is especially important when it comes to 
designating a supervisor. So thanks for those comments.
    Mr. Chairman, I would like to submit a statement for the 
record by Steve Eubanks who is a 38-year career employee with 
U.S. Forest Service, and he was unable to join us today. So 
submitting it for the record.
    Mr. Grijalva. Without objection, thank you very much.
    Ms. Lummis. Thank you.
    [NOTE: The letter submitted for the record has been 
retained in the Committee's official files.]
    Mr. Grijalva. And thank you, and let me thank all of you 
for the passion and the testimony that you brought to us today; 
very heartfelt and very informative and very much appreciated. 
Thank you. Let me invite the next panel up, please.
    Thank you very much. Thank you for being here, and let me 
welcome our final panel, and thank you for your time and being 
here, all of you. Let me begin with Mr. Jim Austin, Chairman, 
U.S. Park Police Labor Committee. Welcome, sir, and thank you 
for your patience today.

   STATEMENT OF JIM AUSTIN, CHAIRMAN, U.S. PARK POLICE LABOR 
                  COMMITTEE, WASHINGTON, D.C.

    Mr. Austin. Thank you, Mr. Chairman. I want to say thank 
you for allowing me the opportunity to come here and speak 
before you today.
    My name is Jim Austin, a 20-year veteran of the United 
States Park Police, and I have the proud honor and distinction 
of being able to represent over 400 officers within the United 
States Park Police as their labor chairman.
    We have been in existence since 1791. The United States 
Park Police was founded by George Washington, and we have been 
providing law enforcement services in the nation's capitol 
since then. In 1974, we started branching out. We have a field 
office, a New York field office, as well as the San Francisco 
field office.
    Over the years we have had a proud history that has gone on 
and a strong tradition in the United States Park Police that 
seemed to begin to unravel probably three years ago, and one of 
the things I should interject is that we also have a lot of the 
same issues and problems as our compatriots in the Forest 
Service as well as the National Park Service, but I want to 
focus a little bit on just specifically the park police morale 
issues and the issues that we have been struggling with over 
the past few years.
    Since 9/11, the leadership on the park police, we have gone 
through three chiefs of police. We are currently on our third, 
I should say. Each of the prior two chiefs has brought 
significant challenges to the force, being that they came from 
outside of the Federal government. One of the biggest things 
that got our attention that we started seeing a downslide or a 
downslope in our agency was back in 2006.
    Several concerned members of our horse-mounted patrol unit 
approached to see what I can do to help out because the funds 
that were set aside to purchase grain and feed for the horses 
were in shambles. There was no contract that was up to date, 
and after we investigated it, we found out that the situation 
was very significant where the horses were actually almost out 
of feed, and that prompted us to go ahead and actually purchase 
horse feed for the unit so that the horses did not have to get 
cut down on half rations and put out to graze in fields for 
their nutritional needs.
    When that first occurred, there was a lot of contention 
within the bargaining unit members about why the union is 
expending funds to purchase something that the department 
should be automatically purchasing on a reoccurring basis 
without delay, and as we started looking into our other 
contracts that we had with outside vendors, we learned were not 
just with the horse-mounted unit where the hay vendor was not 
paid for awhile, the farrier services to shoe the horses and 
take care of their hooves was pretty much canceled, and 
fortunately the vendor was doing this all on his own, trying to 
come in and assist the park police only because of our 
reputation with our horse-mounted patrol unit.
    As that sort of come to light, we started to notice and 
hearing stories about how motorcycle officers who were 
responsible for a lot of high-profile dignitary escorts as well 
as the President of the United States were having issues with 
maintenance on their motorcycles, where they were actually 
paying out-of-pocket expenses to change, you know, make minor 
repairs on their motors. Then we learned in the New York field 
office, the same rang true with the marine patrol unit.
    It sort of escalated from there. Unfortunately, there were 
times when the staffing levels were so low, and I think the 
IG's report came out and indicated that pretty well, and in my 
written testimony it goes in there a little bit about how the 
staffing, the mandated staffing levels were all smoke and 
mirrors; where there was people listed on a detail but they 
were actually on leave.
    We asked them, and when we could see some relief from this 
from our leadership, and they were getting a class put together 
back in July of the same year, and they told these individuals 
that they were hired, they gave notices to their prior 
employers, they were getting ready to come down, and I believe 
it was two days before they were supposed to report each one of 
them was contacted and said that in fact the Park Police did 
not have the money.
    And how it comes down to that was a fundamental 
mismanagement of money. I could go into a long time about our 
vehicle fleet situation, it was in very poor condition. We had 
vehicles that had 160,000 miles on them that we were driving 
around which increased the maintenance costs on them. It was 
even so bad that different divisions within headquarters were 
putting out e-mails, hey, we have extra paper clips, we have 
extra toner, we have extra reams of paper, because effectively 
our whole budget system was shutdown. The Park Police really 
could not efficiently operate.
    The biggest concern that we have is our staffing levels. 
Since 9/11, our mandated posts and our mandated coverages have 
gone up and yet our staffing members have remained the same. 
Based on our inability and our safety concerns of having such 
short staff at work sites, especially in these mandated areas, 
prompted us to come up with that survey which then sparked that 
whole Office of Inspector General's report.
    Since then there has been some positive changes in there 
which I am glad to report. We have more classes coming up where 
we can start staffing these more properly, but the concern I 
think that comes in from the membership goes back to the 
reasoning that this is a short-term fix based on an IG's 
report, and we would like to see some long-term goals and 
accountability come from those who are responsible for ensuring 
that the officers are able to do their job safely and 
effectively.
    The prior chief took a burden of the responsibility for all 
this. When he was removed, we noticed that had a great effect 
on morale. We have been able to work with Chief Lauro as a 
union to meet on common goals and common cooperation to try to 
move this department forward, and I think we are slowly but 
surely getting there.
    We still do have some significant concerns and things that 
we need to see, and I think it is critical that with the Park 
Police there is no determined size that we should have on our 
force. Back in 1999, Booz Allen Hamilton released a report that 
says that we should have 820 officers, and this was before the 
9/11 attacks, and the additional responsibilities that we were 
given, and currently we are at 600. But we need some sort of 
mechanism to say what is the actual strength of the Park 
Police.
    Somewhere in Interior and Park Service it has come up that 
639 is a good number. Well, that is better than what we have 
now, but it is not going to be enough because when you fill 
those mandated spots that we have, we still have other 
districts that we have that have some pretty significant 
critical infrastructure that is very important to this nation, 
and those resources are being pulled away from those areas to 
cover the icons.
    So we need to decide and we need to come up with an actual 
number of the amount of officers where we can effectively 
provide assurance to the visitors to the icon areas as well as 
those critical infrastructures as other Park Service areas that 
we also patrol.
    Another thing that I think really needs to be done----
    Mr. Grijalva. Pardon me. Let me ask you to wrap it up, and 
it is a five-minute limit.
    Mr. Austin. OK. I am sorry.
    Mr. Grijalva. That is OK.
    Mr. Austin. But basically we need to have more support from 
the Park Service and Interior. There is a lot of budget and 
things that we are absorbing when we have to worry about 90 
percent of our budget going into personnel costs such as, you 
know, payroll and benefits. So there is a lot of support that 
we need from the National Park Service and Members of Congress 
as well.
    [The prepared statement of Mr. Austin follows:]

    Statement of James Austin, Chairman, Fraternal Order of Police, 
               United States Park Police Labor Committee

    Mr. Chairman, thank you for the opportunity to speak before the 
Committee regarding the United States Park Police. My name is James 
Austin and I am the Chairman of the Fraternal Order of Police, United 
States Park Police Labor Committee. I have both the honor and privilege 
of representing over 400 dedicated men and women who provide law 
enforcement services to many of the most recognizable symbols of 
democracy in the United States.
    Since 1791, the United States Park Police has been tasked with the 
responsibility of providing law enforcement services in the nation's 
capital. In 1974, the Force began to provide the same services in the 
National Park Service areas within New York and San Francisco. 
Currently, the Force has approximately 600 sworn members spread 
throughout the Washington Metropolitan Area, New York and San Francisco 
Field Offices.
    Despite the long, proud history, several issues have emerged the 
past three years that have thrust the Force into an unfavorable public 
spotlight. The extent of the poor status of the Force began to surface 
in July of 2006, when it was brought to my attention that the most 
highly visible units on the Force, the Horse Mounted Patrol Unit, was 
about to exhaust its horse feed supplies. After verifying the concern, 
the Labor Committee contacted the vendor and ordered a supply of feed 
for the horses. This resulted in the discovery that several vendors 
that had contracts with the Horse Mounted Patrol Unit had substantial 
outstanding debts owed to them. Additionally, it became clear that some 
officers were making minor repairs to their assigned motorcycles to 
keep them running. In the New York Field Office, some members of the 
Marine Patrol Unit also purchased minor boat parts to ensure that they 
could fulfill the mission.
    At the same time, several desperately needed recruits were hired 
and were about to report for their first day on the Force. At the last 
minute, these recruits were contacted and advised that the class was 
cancelled. Many of these recruits had already left their jobs and one 
was actually having a going away party when he received the call. This 
event further demoralized the morale of the Force.
    Mandated and voluntary training had effectively ceased throughout 
the entire Force. Other than mandatory on-line computer training, all 
other training was essentially cut. This included the required semi-
annual firearms qualifications. As the February 2008 Inspector 
General's report stated that officers assigned to the San Francisco 
Field Office had not been through a mandatory firearms qualification 
for over a year due to the lack of ammunition.
    The vehicle fleet was in poor condition and no new vehicles were 
projected to arrive to help improve the situation. First responder 
equipment such as fire extinguishers and first aid kits were in short 
supply.
    Different stations and administrative offices were scrounging for 
simple office supplies, such as paper clips, staples, pens, copier 
toner and tape.
    Contracted services were in complete disarray. Building maintenance 
services, bottled water replacement, leased vehicles and ballistic vest 
replacement contracts were at some point stalled or cancelled.
    A former senior-level manager informed me that on one occasion the 
Force had received an eviction notice to remove one of our 
communications ``repeater'' systems from a rented radio tower in the 
Washington Metropolitan Area due to an outstanding payment due. This 
would have had a devastating effect on the officers that would've lost 
all communication with the dispatcher and other street units.
    Most importantly, however, was the critical Force-wide staffing 
levels. It quickly became clear during the entire 2007 year that the 
Force would have great difficulty in fulfilling the minimum staffing 
levels each shift. Often times, as confirmed by the Department of the 
Interior Office of Inspector General's report, posts that were required 
to be staffed were left empty. Often times officers would be reassigned 
from a patrol beat to a sedentary security post, leaving the patrol 
beat uncovered. In the New York Field Office, the lack of staff 
prompted one of the Statue of Liberty supervisors to admit that not all 
the mandated posts were covered; rather it was ``...all smoke and 
mirrors.''
    In February 2008, the Department of the Interior Office of the 
Inspector General (OIG) released a report that was initiated based on 
an unscientific survey that was conducted by the Union, which 
encouraged the membership to evaluate the command staff and provide 
feedback on the working conditions. After two preliminary interviews 
with Union Executive Board members, the investigators for the OIG 
interviewed several Force members and gave every Force member, civilian 
or sworn the opportunity to respond via email. As the Force spoke, a 
rather telling report was issued that publicly highlighted the 
ineptness and the struggles that the Force has had to endure. This was 
a pivotal event that began the process of bringing the necessary change 
and hope to the United States Park Police.
    Since the report was published, the Force has seen several changes. 
First and foremost, the direct and immediate involvement of the 
Secretary of the Interior, and the Director of the National Park 
Service was essential. While there were many other priorities within 
the Department of the Interior and the National Park Service, their 
prompt attention gave confidence to the members of a grateful Force 
that positive change would be imminent.
    Eventually the Chief was reassigned and all of the senior level 
commanders retired. The Chief Financial Officer had transferred to 
another agency prior to the release of the report. A retired United 
States Park Police Major who was employed by the Office of Law 
Enforcement, Security and Emergency Management (OLESEM) was installed 
as the ``Acting Assistant Chief of Police'' until recently appointed as 
the permanent Chief of Police.
    Currently, the vehicle fleet has seen an influx of new police 
vehicles deployed to the street and there is a reserve of approximately 
one dozen vehicles. A vehicle committee has been established to develop 
a plan of action to produce and maintain a vehicle replacement program 
and determines other vehicle policies.
    While voluntary training is still largely considered if it is at no 
cost to the Force, the mandatory In-Service training in the Washington 
Metropolitan Area has been broken up in an attempt to be more efficient 
for the officer and lessens any detrimental impact on the operational 
needs of the Force. For example, the blocks of instruction are given 
individually and usually last for about 2 hours per block. Instead of 
officers being assigned to the Training Branch for an entire week, an 
officer may be assigned to training for a two-hour period at a time for 
each block until the mandatory requirements are fulfilled. Although the 
training may take a few weeks to complete, the impact of street 
operations are minimal. Mandatory bi-annual firearms qualifications are 
being conducted at all locations.
    The Force has completed the replacement of all the ballistic body 
armor that contained Zylon material. The uniform/equipment replacement 
program is in the process of being Force-wide. This will assure 
accountability of all uniforms and equipment that is issued or 
replaced.
    At the Station Commander level and above, all personnel, including 
the Chief of Police, have re-instituted regular meetings with the 
National Park Service. This communication has gone a long way to 
increase cooperation and progress for each bureau to fulfill each of 
the missions.
    Improvements in financial management and accountability have been 
made. With the assistance and training from the National Park Service 
and the Department of the Interior, the Force has hired financial 
professionals with federal budget knowledge and knowledge of federal 
purchasing regulations. Additionally, the NPS and DOI budget offices 
have also assisted the Force to become more accountable and 
knowledgeable about the budget process, financial management as well as 
purchasing and contracting practices. It is clear that the Force is 
benefiting greatly from the assistance from the NPS and DOI.
    To illustrate the commitment to preserving and protecting the 
Icons, the Force has consolidated its resources by realigning the 
Force, which resulted in the development of the ``Icon Security 
Division.'' Affecting mainly the Washington Metropolitan Area, the 
Central District and the Special Forces Branch have been consolidated 
to form the new Division, which includes the New York Field Office, 
which emphasizes the protection of the Statue of Liberty and Ellis 
Island. In the Washington Metropolitan Area, the core Icons areas such 
as the Lincoln, Korean War, Vietnam War, World War II and Jefferson 
Memorials, Washington Monument, White House/Ellipse and the National 
Mall are now patrolled by the ``Icon District'' officers in addition to 
the S.W.A.T., Canine, Motorcycle and Horse Mounted units. Although 
these units were already in the core Icon area, this change streamlines 
the protection responsibility into one chain of command rather than 
several commanders with overlapping responsibilities and reporting to 
different senior level commanders.
    Since September 11, 2001, the Force has not had consistent 
leadership. At the time of the terrorist attacks, three Deputy Chiefs 
were alternating in the vacant Chief position. Then a Chief was brought 
in from outside of not only the United States Park Police, Department 
of the Interior but from outside of the federal government system. This 
inexperience proved problematic. Further complications arose when an 
equally inexperienced Chief replaced the terminated Chief. When this 
Chief was reassigned as a result of the OIG report, it emphasized the 
fact that the Force is not yet ready to stand on its own. Whether 
members of the Force agree or disagree, we cannot deny the fact that we 
need the assistance of the National Park Service resources. Our slow 
progress has proven this.
    While I have highlighted some of the negative issues and some of 
the changes that have taken place over the past 12 months, there is 
more vital action that needs to be taken to keep the United States Park 
Police progressing forward.
    Currently in the Washington Metropolitan Area, San Francisco and 
New York Field Offices, personnel numbers are extremely low. Although 
approximately 40 recruits have been hired so far this fiscal year, our 
attrition rate is 35-40 officers per year. Recruit hiring must be 
increased to stay ahead of the attrition rate.
    The following steps must be taken:
    <bullet>  Determine what the authorized strength of the United 
States Park Police should be.

        Within the Department of the Interior and the National Park 
        Service, an arbitrary number of 639 officers seem to have been 
        determined as the number of officers to keep the Force 
        functioning. Conversely, an October 1999 ``Strategic Counter-
        Terrorism Plan'' conducted for the National Park Service by 
        Booze-Allen & Hamilton indicated that the Force should be 
        staffed with 820 officers. It is important to note that this 
        study was completed 2 years before the 9-11 attacks and the 
        increased responsibilities mandated by the National Park 
        Service and the Department of the Interior. There needs to be a 
        definitive number of sworn personnel to achieve and maintain.

    <bullet>  Determine who has the ultimate responsibility for the 
individual Icons.

        The Department of the Interior and the National Park Service 
        has the overall decision-making responsibility for the Icons; 
        however, the supplemental protection costs (e.g. civilian 
        guards and video monitoring systems) are the financial 
        responsibility of the Force. The funding that is dedicated to 
        this would be better served in hiring personnel, training, 
        equipment or vehicle replacement.
    <bullet>  Ensure that other patrol district beats are required to 
be properly staffed.

        The United States Park Police has many critical infrastructures 
        in all of our areas or immediately adjacent to our primary 
        jurisdiction. Our unique peace officer status in many of the 
        adjacent States provides the United States Park Police Officer 
        to be on the front lines in the war on terror. In addition, the 
        calls for service, proactive and selective enforcement and 
        emergency response must not be compromised due to the Force's 
        commitment to the core Icon areas.
    <bullet>  Increase the funding for the United States Park Police to 
account for the rising personnel costs.

        A large portion of the annual budget for the Force is dedicated 
        to salary and benefits. The Force has officers in two separate 
        retirement systems. Those hired prior to January 1, 1984 are in 
        a system known as the ``Title 4'' retirement system 
        administered by the District of Columbia. Officers hired after 
        January 1, 1984 are in a retirement system known as ``Title 5'' 
        and are incorporated in the FERS law enforcement retirement 
        system. The Force incurs an estimated cost of 7-12 percent of 
        the Title 4 officer's salary to fund the benefits/retirement 
        package on a yearly basis, compared to the Title 5 officer's 
        benefits/retirement package of an average of 35-49 percent on a 
        yearly basis. Both retirement plan costs are reoccurring. This 
        contributes to the fact that although our budget sees 
        incremental increases, our staffing levels fall.
    <bullet>  Ensure that key civilian positions are filled.

        The Force has several vacant civilian positions that are vital 
        to our operation. Dispatchers, a safety officer, personnel 
        specialists and a contracting specialist are desperately needed 
        to provide relief to others who are working in several 
        positions to fill the void.
    In conclusion, I would like to stress upon the Committee that the 
men and women of the United States Park Police are dedicated to the 
mission of the Force. I have witnessed these true professionals handle 
some very stressful times and conditions with complete grace and 
professionalism. It is this commitment that truly makes me proud to be 
a United States Park Police Officer.
    Thank you again for this opportunity to speak to the Committee and 
I will be happy to address any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me ask Mr. John Waterman, 
President, Fraternal Order of Police, National Park Rangers 
Lodge. Sir.

   STATEMENT OF JOHN WATERMAN, PRESIDENT, FRATERNAL ORDER OF 
 POLICE, NATIONAL PARK RANGERS LODGE, TWAIN HARTE, CALIFORNIA; 
 ACCOMPANIED BY GEORGE DURKEE, VICE PRESIDENT, FRATERNAL ORDER 
             OF POLICE, NATIONAL PARK RANGERS LODGE

    Mr. Waterman. Thank you, Mr. Chairman. Mr. Chairman, 
Members of the Subcommittee, I would like to thank you for the 
opportunity to testify in front of you today regarding 
workforce morale within the Department of the Interior's law 
enforcement program, and the DOI's progress in the recent OIG's 
report from a field perspective.
    My name is John Waterman, and I am President of the United 
States Park Ranger Lodge of the Fraternal Order of Police, and 
have been a law enforcement ranger for 13 years. With me to my 
left is our Lodge Secretary and Executive Director, George 
Durkee, who has been a seasonal ranger for almost 40 years.
    We are composed almost entirely of front-line law 
enforcement rangers who are deeply committed to the mission of 
preserving and protecting national parks, to leave the 
unimpaired for the enjoyment of future generations.
    The Ranger Lodge seeks to ensure our national parks have 
adequate staffing with the level of professional law 
enforcement ranger that visitors expect from the National Park 
Service and that those rangers receive training and proper 
equipment to safely carry out the increasingly dangerous duty 
of protecting park resources, visitors, and ourselves.
    Perhaps the largest issue lodge members face is our attempt 
to legislatively mandate and codify the United States Park 
Ranger 6[c] and enhanced law enforcement retirement benefits. 
Hundreds of rangers have spent large sums of money from 
personal savings and retirement funds to fight for back time 
that they have earned for protecting our national parks. 
Current rangers like me have heard time and again from the 
Department of the Interior's Federal law enforcement retirement 
team that our enhanced retirement is in jeopardy and not 
guaranteed, depending on how they wish to define our current 
position descriptions at any particular time.
    No other Federal law enforcement officer in the DOI faces 
this arbitrary and capricious scrutiny. Enhanced retirement for 
law enforcement is a tremendous recruiting and retention tool 
without which the NPS will not be able to compete successfully 
for the best candidates. The solution is to codify the enhanced 
retirement in legislation, just as it is for our fellow United 
States Park Police officers.
    The second largest morale issue that we face is the 
inconsistent application, enforcement and adjudication of our 
medical standards. The National Park Service medical standards 
are some of the most rigorous in Federal law enforcement, and 
one medical director has characterized the standards as tougher 
than a flight physical for NASA.
    The agency's failure to provide consistent guidance and 
fair adjudication is costing the government millions in lost 
cases, millions of dollars in settlements, and rangers spend 
years fighting, and eventually winning their cases against the 
agency.
    In the 12 years of the existence of the medical program, 
six people have been in charge of it with no formal medical 
background. In essence, one person in charge of the program 
would issue a waiver for a medical condition and a year later a 
new person would not issue a waiver in the same circumstance. 
The lodge believes in a medical program based on the Office of 
Personnel Management's guidelines that is consistently applied, 
adjudicated, and administered.
    If a ranger proves that he or she is performing 
satisfactorily with a medical condition, then the ranger should 
continue working in the job they love, and continue working a 
stewards and protectors of the resources set aside by Congress.
    The third progress report from the Office of Inspector 
General demonstrates that although the Department of the 
Interior has made recommended changes, at the departmental 
level it is management of the National Park Service Law 
Enforcement Program continues to undermine positive bureau 
successes and thereby fails to contribute progressive and 
measurable results at the field level.
    The greatest threat to the public in our ranger safety is 
inadequate staffing where a backup for a ranger working alone 
may be 30 minutes to several hours away. The lower staffing 
levels create a reactive enforcement program rather than a 
proactive one.
    As both the Office of Inspector General's report and 
subsequent studies make clear, for the last five years United 
States Park Rangers have had the highest rates of assault of 
any other Federal law enforcement officer. Let me repeat that 
again. For the last five years United States Park Rangers have 
had the highest rate of assaults against them compared to any 
other Federal law enforcement officer in this country.
    To counter this disturbing five-year trend, the Office of 
Inspector Generals recommended ``Bureaus will reduce the 
dependence on collateral duty and seasonal law enforcement 
officers, and develop contemporary comprehensive and verifiable 
staffing models within the fiscal year.''
    This statement was made by The Honorable Earl Devaney back 
in 2002. To date the National Park Service has failed to meet 
any of these recommendations, and in some cases has done the 
opposite. The National Park Service has made some past progress 
in reducing collateral duty and seasonal law enforcement 
officers by the creating of the subject to furlough positions.
    There is an unquestionable need for an expanded workforce 
in the National Park Service during a park's busy season. These 
needs are not a one-time need but rather reoccurring. The SDF 
position allows the National Park Service to ensure that there 
is an available cadre of trained, experienced law enforcement 
officers to staff a park based on that park's needs. Unlike the 
current 1039 hourly seasonal appointment, an SDF position 
allows the park flexibility and time for mandatory training, 
team building, and development of leadership without 
sacrificing time on the ground, providing law enforcement and 
emergency service for visitors.
    The subject of furlough position also provides officers 
with law enforcement retirement and Federal benefits which 
currently the seasonal positions do not. The staffing models 
and officer assault rates and numerous other studies conducted 
on a National Park Service Law Enforcement Programs demonstrate 
a clear need for increased staffing and a well-trained 
workforce.
    Park rangers are the stewards of our nation's heritage. We 
are extremely grateful to The Honorable Earl Devaney and his 
staff, Congress and this Subcommittee for all of your attention 
that you are giving to workforce morale, and the progress of 
the Department of the Interior implementing the 25 secretarial 
directives.
    The most recent progress review by Earl Devaney and his 
staff demonstrated that there is substantial work ahead for the 
Department of the Interior and the National Park Service in 
order to meet the challenges of those directives and the 
critical task of protecting the places set aside by Congress 
for special guardianship.
    Thank you once again, Mr. Chairman.
    [The prepared statement of Mr. Waterman follows:]

    Statement of John Waterman, President, U.S. Park Rangers Lodge, 
                       Fraternal Order of Police

    Mr. Chairman, members of the Subcommittee, I would like to thank 
you for the opportunity to testify in front of you today. My name is 
John Waterman. I am President of the Ranger Lodge of the Fraternal 
Order of Police and have been a law enforcement ranger for 13 years. 
With me is Lodge Executive Director George Durkee, a seasonal law 
enforcement ranger for the National Park Service (NPS) for almost 40 
years and Calvin Farmer, board member, a Ranger for 23 years. Our Lodge 
is the largest organization of U.S. Park Rangers in the country. We are 
composed almost entirely of front-line law enforcement rangers who are 
deeply committed to the mission of preserving and protecting National 
Parks to leave them unimpaired for the enjoyment of future generations. 
The Ranger Lodge seeks to ensure our National Parks are adequately 
staffed with the level of professional law enforcement ranger that 
visitors expect from National Park Service and that those rangers are 
trained and properly equipped for safely carrying out the increasingly 
dangerous duty of protecting park resources, visitors, and ourselves.
    Perhaps the largest issue the Lodge faces with its members is our 
attempt to legislatively mandate and codify the U.S. Park Rangers 6c 
enhanced law enforcement retirement benefits. Hundreds of rangers have 
been denied coverage for service prior to 1994 and have spent large 
sums of money from their personal savings, retirement funds, personal 
loans, and second mortgages to fight for back time that they earned 
protecting our National Parks. Current rangers like me have heard time 
and again by the Department of the Interior's (DOI), Federal Law 
Enforcement Retirement Team (FLERT), that our enhanced retirement is in 
jeopardy and not guaranteed depending on how they wish to define our 
current position descriptions at any particular time. No other federal 
law enforcement officer in the DOI faces this arbitrary and capricious 
scrutiny, as do U.S. Park Rangers. The solution is to codify the 
enhanced retirement in legislation just as it is for our fellow United 
States Park Police Officers (USPP). The USPP is a separate LE 
organization from the U.S. Park Rangers, also under the purview of the 
National Park Service. USPP and LE Rangers work alongside each other on 
a regular and recurring basis in the Washington DC area, San Francisco, 
and New York, along with joint assignments at many National Park units.
    The second largest morale issue we face is the inconsistent 
application, enforcement, and adjudication of the medical standards. 
The NPS medical standards are some of the most rigorous in federal law 
enforcement (LE), and one medical doctor characterized the standards as 
tougher than a flight physical. The agency's failure to provide 
consistent guidance and fair adjudication is costing the government 
millions in lost cases and settlements as Rangers spend years fighting 
and eventually winning their case against the agency. This is a 
tremendous waste of money and personnel. The NPS now employs lawyers' 
at all medical hearings in an attempt to threaten and intimidate 
Ranger's while they present their case. In the twelve years of the 
existence of the medical program, six people were in charge of the 
medical program, with no medical certification. In addition to the lack 
of professional oversight, there have been numerous cases of 
inconsistency in the adjudication of these cases. For example, one 
person in charge of the program would issue a waiver of a medical 
condition for one case, while another person in charge would not issue 
a waiver for the same medical condition of another case..
    The Lodge believes in a medical program that follows Office of 
Personnel Management (OPM) guidelines, is fair, and consistently 
applied, adjudicated and administered similar to programs already 
accepted by agencies such as FBI, DEA, Secret Service, U.S. Marshals 
Service, and NCIS. If a Ranger proves he/she is performing 
satisfactorily with a medical condition, then the Ranger should be 
allowed to continue working in that job. Instead of losing valuable 
employees, the Service in turn retains a good employee with whom is has 
invested considerable time and money through training and development. 
In contrast, the amount of time, money, effort, and energy poured into 
these cases by the rangers demonstrates how committed rangers are to 
remaining in their positions as stewards and protectors of the 
resources set aside by Congress for special guardianship.
    The two issues (enhanced retirement and application of the medical 
standards program) discussed above speak clearly of the significant 
impacts and effects upon morale in a very personal way to rangers. We 
would like to take this opportunity to shift the focus from the 
individual rangers to the NPS law enforcement program as a whole.
    We are grateful that The Honorable Earl Devaney of the Office of 
Inspector General (OIG) has been steadfast in holding DOI accountable 
for the changes they agreed to make in response to the ``Disquieting 
State of Disorder'' OIG report. This third progress report on the OIG 
recommended reforms shows that even though the DOI has made some 
recommended changes at the Department level its management of the NPS 
Law Enforcement programs continues to undermine any positive bureau 
successes and thereby fails to contribute progressive measurable 
results at the field level. (Note: The NPS is responsible for managing 
both the United States Park Police (USPP) and the law enforcement 
ranger program.) DOI has spent in excess of four million dollars in 
recent years commissioning studies on the USPP and Law Enforcement 
Ranger (LER) programs. The International Association of Chiefs of 
Police (IACP), OIG, The National Parks and Conservation Association 
(NPCA) and The Partnership for Public Service (PPS) have all conducted 
studies. Each report has detailed similar issues with both programs, 
and groups that have conducted multiple studies on the programs express 
dismay that the same conditions still exist when they conduct a second 
study.
    The Lodge reviewed the Third Progress Report on the Implementation 
of the OIG's directives and would like to address several of the 
specific OIG Directives from the ``Disquieting State of Disorder'' 
report that are still outstanding.
    Recommendation 4: DAS-LESEM should review and revise the policies 
and procedures, which guide the bureaus' interactions with OLESEM. This 
should be done in consultation with the Board of Advisors. It is 
imperative that the Office of Law Enforcement, Security, and Emergency 
Services (OLESEM) issue out standard policies to all the bureaus. 
Without this standard, each bureau continues to find ways to abuse its 
authority, leading to a lack of consistency, contradictory policies, 
and confusion for employees and managers. The revision and updating of 
Reference Manual 9 (RM-9) last updated in 2000, which covers the NPS LE 
Rangers has been held up for the past four years, waiting for the 
updated Department Manual 446 (DM446) to be issued as the NPS did not 
want to put its officers in the position of operating under 
contravening policies. Emphasis must be on completing, signing and 
issuing a final copy of DM 446 and requiring bureaus to follow it. The 
Lodge is in favor of one homogeneous set of law enforcement guidelines 
with strong law enforcement principles.
    Recommendation 9: Develop line item budgeting for law enforcement 
activities. The Department is currently implementing Activity Based 
Costing.
    With the current budgeting system, there is no accountability for 
the expenditure of funds specifically appropriated by Congress and 
through the Washington Office of the NPS (WASO) for law enforcement and 
homeland security initiatives. Recently Congress requested information 
on ONPS spending and accountability for specifically appropriated 
monies. When the Lodge reviewed the report, the Lodge found that often 
the additional monies were accepted by the parks, and then the park 
level LE division budget was reduced by the amount of money received 
from WASO. While there is nothing illegal about this re-direction of 
money, it clearly contravenes the intent of Congress and WASO to 
provide supplemental funds for law enforcement needs beyond the parks 
operating funds.
    The Lodge understands and appreciates that the Superintendent of 
each park is ultimately responsible and accountable for the law 
enforcement program in each park and desires to allocate the park 
budget based on what they believe is the best use of funds without 
interference from someone in WASO who is not necessarily cognizant of 
the challenges on the ground. The crux of the issue is that the lack of 
transparency in the park level budget process combined with the 
decentralized structure of the NPS LE program does not allow NPS WASO 
to implement the changes called for by the OIG review (along with the 
many other studies on the LE programs in DOI/NPS). Without the ability 
to distribute or withhold funds based on needs and or compliance, it is 
likely that the issues before us today will continue into the future.
    Recommendation 11: Bureaus should complete an analysis of staffing 
models and methodologies. The VRAP (Visitor Management-Resource 
Protection Assessment Program) program in conjunction with the Law 
Enforcement Needs Assessment (LENA) was to be the end all of assessment 
programs. Parks worked very hard at putting the information together 
and when they completed the assessment found that they were terribly 
understaffed. Together these assessments (LENA and VRAP) demonstrated 
the need for additional rangers to protect NPS resources based on 
parameters established by the NPS planners. Once the assessment was 
completed, the numbers of additional rangers needed was staggering to 
many people. The IACP agreed with the VRAP assessment of the need for 
additional staffing for accomplishing the mission of the NPS. In 
speaking with NPS folks who expressed their dismay at the number of 
rangers required to protect the resources as the planners envision, the 
IACP Team recommended that the NPS engage in a validation study of its 
own program assessment tool. The OIG's office recommended this in 2002. 
To date that validation study has not occurred, and the VRAP model 
would need modification to account for the new homeland security, 
incident management, and other requirements that were not in place when 
the program was developed for use in 2000.
    WASO has reported that the number of rangers decreased less then 
200 since 2003. Few parks have experienced a net gain in staff and most 
have experienced substantial loss of staff. For example, Valley Forge 
has lost 50% of its staff, Organ Pipe (down 9 rangers after the murder 
of Ranger Kris Eggle), Yellowstone National Park has lost approximately 
40% of its staff, and Delaware Water Gap 35% of its staff, Glen Canyon 
lost approximately 35% of its staff. Straight numbers on gains or loses 
of rangers also fails to consider the number of sites added to the NPS 
system over the same period. As new sites are added, sites already in 
the system do not benefit from the new hires, as those new hires go to 
new park units, or the current parks have their folks transfer to the 
new park, resulting in a loss of personnel. Current ranger staffing 
levels are significantly below the recommendations of the IACP report 
and the NPS's own assessment.
    The greatest threat to the public and our ranger's safety is 
inadequate staffing, where backup for a ranger working alone may be 30 
minutes to several hours away. As both the Inspector Generals' report 
and subsequent studies make clear, U.S. Park Rangers have among the 
highest rates of assaults on officers of any federal agencies. Several 
studies have found this rate is as high as that of many urban police 
departments, yet there is a sense that parks are safe places. Reasons 
for staffing challenges range from budget considerations, to sending 
officers to mandatory training, wild land fire response, days off, and 
leave to the shear vastness of the patrol area where a park may have 
one LEO for two million acres.
    Responses to park incidents are becoming reactive instead of 
proactive due to staffing shortages. Preemptive law enforcement action 
was once the hallmark of Rangers, where they would often identify 
undesirable, dangerous activities or acts and respond with the 
appropriate measures to deter or halt the act before an incident 
occurred or was allowed to escalate. In many ways, rangers have 
continuously enhanced the law enforcement function of protecting the 
country's natural and cultural resources by the development of 
intelligence provided through good community relations and the exchange 
of information provided by visitors, neighbors, and stakeholders in 
addition to engaging in and conducting covert and drug interdiction 
operations. Preemptive law enforcement action allows the rangers to 
protect the resources rather than having to settle for the recording of 
their loss. For example destruction of gravesites through looting, 
theft of timber from scenic easements and the subsequent destruction of 
those vistas, or the greed of poacher leaving a carcass to rot, 
desiring only the trophy part of the animal. Marijuana is cultivated in 
environmentally sensitive areas leading to ecological damage through 
the rerouting of natural water sources, the dumping and soil 
contamination of fertilizer, garbage, plastic and other items left 
behind by illegal drug producers growing marijuana on public lands.
    Numerous parks have cut the number and types of interdiction 
operations that once were conducted because it is just too dangerous to 
work alone. Park researchers and visitors have been threatened on more 
than one occasion by poachers and drug cultivators armed with 
semiautomatic rifles and other weapons. Some parks that now routinely 
assign a LEO to go with groups of resource management personnel for 
protection. While an inquiry into the comparative number of rangers 
shows that the NPS has lost several hundred since 2003, those straight 
numbers do not tell the full story. Rangers are responsible for vastly 
different array of duties that were not conceived of when the staffing 
models were developed. In addition, there is an increase in the number 
of visitors demanding and needing services. Many visitors to National 
Parks have little to no experience in the wilderness. Their experience 
with nature is framed largely by relatively sanitized paved trails 
through the trees, deer in their backyard that seem more like pets than 
wildlife, and the ever present ability to call for help on their cell 
phone. The expectations of visitors have changed dramatically in the 
past two decades, and the staffing models do not account for the shift 
in attitudes and expectations of the visiting public.
    In the 2002, OIG report ``Disquieting State of Disorder'' the OIG 
recommended an increase of 615 Rangers to meet the new homeland 
security requirements, visitor expectations, demands, and the desire of 
the NPS to continue to provide the level of visitor service that the 
agency prides itself on. Failing to update the staffing models in light 
of new expectations and demands hampers the ability of the Service to 
recruit, retain, and train new rangers. It also disregards the 
recommendations of the OIG and the Secretary's own study showing that a 
huge influx of Ranger's are needed to preserve and protect parks to 
leave them unimpaired for the next generation.
    Recommendation 12: Each Bureau will assess the extent to which 
(correct) staffing shortages impact officer safety.
    While the third progress report on the original OIG report shows 
that Directive 12 was implemented, the Lodge cautions that Rangers 
continue (as we have for five years) to top the Department of Justice 
list for the most assaulted federal law enforcement officers.
    When working alone, particularly in remote areas, reliable, up to 
date radio systems and communications are imperative for officer 
safety. Many rangers lack modern upgraded equipment, reliable radio 
communications with a professional dispatch center that has access to 
the National Crime Information Center (NCIC), allowing an officer to 
check if a person is wanted on an outstanding warrant, dangerous to 
police, a registered sex offender, or in possession of a valid 
concealed carry permit.
    Whiskeytown National Recreation Area (WHIS) is a prime example of 
where the Lodge has concerns of complacency regarding the 
``implemented'' status with Directive 12. Faced with a budget shortfall 
WHIS initiated a voice over internet protocol (VOIP) radio system 
without ensuring that the computer hardware and phone lines could 
handle the high-speed data transfers necessary for the technology to 
work. In addition to not checking the hardware requirements, WHIS also 
took down the old radio system, leaving the rangers with no radio 
communications. WHIS rangers have resorted to utilizing their personal 
cell phones, which only provide intermittent coverage as a substitute. 
WHIS is a park experiencing increased gang activity and violence, and 
rangers do not have the most basic modern police tool, a working radio 
connected to a professional dispatch center, not someone who is sitting 
at the visitor center desk trying to answer visitor questions, or 
complete the payroll at headquarters.
    Recommendation 13: ``Bureaus will reduce dependence on collateral 
duty and seasonal law enforcement officers.''
    In addition to a permanent law enforcement staff of about 1,400 
Commissioned rangers, the Park Service has perhaps 500 seasonal law 
enforcement rangers during peak visitation at various parks. There is 
an unquestionable need for an expanded workforce in the NPS during 
certain times, as many parks have a higher concentration of visitation 
during the summer months. These needs are not a one-time need; the 
necessity for more staff during a park's busy season is a recurring 
need. The STF position allows the NPS to ensure that there is an 
available cadre of trained, experienced, law enforcement officers to 
staff a park based on their needs. Unlike a 1039 hour seasonal 
appointment, an STF position allows the park flexibility to bring their 
summer workforce in before the busy summer season and ensure that they 
have all of their required in-service hours, medical exams, updated 
legal information etc., and to develop a sense of camaraderie, common 
purpose and teamwork amongst folks who will rely on each other for back 
up--and life saving action.
    The Lodge is also very concerned with the level and type of 
training seasonal employees receive. There is little to no oversight of 
the seasonal law enforcement academies, the quality of the training and 
the curricula beyond basic mandates by FLETC staff. Having a person who 
completed 360 hours of training, and the only traffic stop training 
they received was stopping tables (simulating vehicles) before turning 
an employee loose with their badge, gun, and a police car with no other 
training or supervision creates conditions that are ripe for poor 
decision-making and improper use of force. More structured oversight by 
FLETC of the seasonal academies would allow parks to receive a level of 
consistency in skills and abilities from the various seasonal academy 
candidates. This would free parks from teaching basic fundamental law 
enforcement and allow each park to tailor their field-training program 
for seasonals to the specific needs of each park.
    Some years ago--and after a long-time seasonal NPS maintenance 
employee died on duty without even death benefits for his widow--
Congress recognized the abuse of the temporary hiring system by Federal 
agencies and passed the Hudson Amendment. As a result, NPS did position 
evaluations in most parks and replaced some seasonal positions with 
Subject to Furlough (STF) positions, thus creating ranger jobs with 
full benefits. In an effort to cut costs and meet the mandate to 
utilize Centennial Challenge money, parks are now eliminating many STF 
positions and filling them, once again, with seasonal employees. Glen 
Canyon National Recreation Area, for example, recently eliminated 10 
STF positions and filled those positions with seasonal rangers.
    As the third progress report points out, as part of the Centennial 
Initiative, the NPS was tasked by the Secretary of Interior to hire an 
additional 1,000 seasonal LEO's, directly conflicting with the 2002 
directive. As demonstrated above, many full time permanent positions 
are lapsed to meet an artificial hiring quota that was and is not fully 
funded. The preliminary numbers from 2008 reflect a decrease in full 
time rangers and an increase in seasonal rangers. With the decline of 
the permanent staff, there is a greater likelihood that a ranger with 
less training and experience will not have an experienced officer to 
provide guidance before, during, and after the contact or incident. 
These conditions lead to a continued increase in the assault rate of 
rangers, and inappropriate uses of force (too little or too much) as 
shown in the Northern Arizona University study which looked at assaults 
against U.S. Park Rangers.
    Recommendation 23: OLESEM should develop a consistent Department-
wide centralized records system.
    The lack of a records management system is unconscionable in the 
modern age. Modern policing and investigations require hard data to 
measure performance, track trends, analyze crime patterns, suspicious 
activities and provide data for chief rangers and managers to justify 
the need for more staffing, or different staffing models based on data. 
Currently the ``Case Incident Reporting System (CIRS)'' is a DOS based 
system (not compatible with Windows) with very limited capabilities for 
data analysis--resulting in hand counting of incidents and or a reading 
of each individual narrative in order for the chief ranger to complete 
the annual law enforcement report.
    The NPS spent $2.8 million on a lotus notes version of CIRS that 
failed due to out of date software, and lack of hardware capable of 
running the new version (some computers were still running Windows 98 
as recently as 2004). The next incarnation of the records management 
system is the Incident Management and Record System (IMARS), which to 
date has cost in excess of $5 million, prompting a separate IG 
investigation on IMARS. DOI-NPS is no closer to a legitimate records 
management program now than it was five years ago. In the digital age, 
with increasing demands for transparency the lack of a records 
management system for data analysis, trend analysis, and investigation 
is stunning.
    The National Park Service is the steward of our nation's heritage. 
National Park Rangers are the instruments by which the American 
heritage is preserved and the vast open spaces are protected, and the 
resources therein to leave them unimpaired for the enjoyment of future 
generations. We are dedicated to that mission from the 1906 Organic 
Act, understand, and believe in the importance of the resources we 
protect.
    We are grateful to The Honorable Earl Devaney and his staff, 
Congress and this subcommittee for the attention all of you are giving 
to park service inadequacies in the critical task of protecting our 
nation's heritage, as embodied by our parks. The Lodge and its members 
will continue to work with the NPS, Congress, and the American people 
to protect that which Congress set aside for the enjoyment of all 
people. Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, and Mr. Durkee, welcome.
    One of the questions I was going to ask you, Mr. Waterman, 
let me begin with you, was having to deal with the issue of 
enhanced retirement, and your point about codification of that 
is important and we will be pursuing that with your 
organization about the kind of legislative relief that is 
needed to make that concept a permanent concept.
    Mr. Waterman. We look forward to working with you on that.
    Mr. Grijalva. Thank you. And the other one was the medical 
standards and you have covered that very well. Appreciate that.
    The other point I think, you know, the lack of--your 
testimony--the lack of officers permanent or seasonal--pardon 
me, the resources and putting people at risk, whether they be 
employees or visitors. How many additional, if you can, 
permanent rangers do we need today to begin to address that 
shortfall?
    Mr. Waterman. Well, I will give you from Earl Devaney's 
report in 2002, and it was subsequently by the Secretary of the 
Interior at the time, they agreed that--Earl Devaney 
recommended a minimum of 615 officers on top of what the 
numbers were in 2002. We have decreased since 2003 200 more 
officers. So if you take Earl Devaney's numbers, we would 
suggest more than 800 just to get us at the minimum staffing 
levels.
    Mr. Grijalva. Yes, and we spoke earlier, you were here, we 
talked about the challenges that the officers, that law 
enforcement has on our public lands, they have changed, and in 
some areas the challenges are particularly difficult, and we 
mentioned the border situation where my experience with your 
colleagues there is that 100 percent of their time is spent 
supporting the efforts of border patrol and homeland security, 
and I really believe it is not just the need for additional 
support there, but I think there is an overall understaffing in 
this very critical position that we hope to be able to try to 
address either budgetarily or through discussions with the 
Secretary on that issue. Thank you for that today.
    Mr. Austin, I thank you for your testimony and thank you 
for the candid comments that you brought to us today. Do you 
feel that adequate progress has been made to this date on 
resolving some of the issues that you spoke about that the 
officers have in the field? As of today is there progress going 
forward?
    Mr. Austin. As of today, there is progress going forward. 
Probably not as quick as the membership would want, but there 
is progress being made to address the issues and the concerns. 
We are getting back. We have regular dialogues with the chief 
and the management with the Park Police to----
    Mr. Grijalva. What would you suggest is the most 
important--one of the most important issues that is still left 
that perhaps is not being dealt with as adequately as you or 
your membership would like?
    Mr. Austin. I think the one biggest would be the funding. 
With the Park Police, we have--like I mentioned before--80 
percent of your personnel cost go toward salary and benefits--I 
am sorry, 80 percent of the budget goes toward salary and 
benefits. It is 90 percent if you factor in the overtime with 
the big large demonstrations and the uncontrolled overtime that 
comes in. I believe with the National Park Service, they have 
other funding sources that can absorb that cost should they 
have overruns, but with the Park Police it is very difficult--
--
    Mr. Grijalva. Fixed.
    Mr. Austin. Yes, it is very difficult to do that, and I 
think what the misconception is, is, you know, we are funded 
properly to absorb a lot of unexpected expenditures when we are 
actually not because the majority of our budget is going to 
directly toward those personnel costs.
    Mr. Grijalva. You noted a concern about key civilian 
positions or vacancies in the department that are not being 
filled. What do you perceive to be the obstacles in not filling 
those positions? Budgetary?
    Mr. Austin. That is going to be a budgetary issue and lack 
of the actual people to process those applications that are 
coming in because those are some of the people that we are 
missing, and our personnel specialists, and without those it is 
going to make it more difficult to hire the dispatchers that we 
desperately need. We still do not have a safety officer after 
several years, and we need some sort of contracting specialist, 
and I know it is a problem that is systemic through the 
Department of the Interior, but those are key positions that we 
do need filled.
    Mr. Grijalva. Well, I think both of you represent key 
positions within our land agencies that we have to pay 
particular attention to, and front-line in a lot of areas, and 
so your testimony today about where we are at this point is 
important.
    Let me ask both of you, if I may, if you were to gauge, 
describe the moral of the average officer you represent today 
let us say versus a year ago.
    Mr. Waterman. For me, it is based on the number of calls I 
get. It is even worse. We thought it was bad last year. It is 
even worse this year.
    Mr. Grijalva. OK.
    Mr. Austin. For us, and we had the--I guess you can say--
fortune of having a rather scathing OIG report come in where it 
sort of forced the hand of individuals to make changes.
    Mr. Grijalva. It did.
    Mr. Austin. So for the Park Police, we are cautiously 
optimistic of the change, and again we want to make sure that 
that is a long-term change and not the quick fix that some 
people suspect that it may be.
    Mr. Grijalva. One of the things in that report, I believe, 
was the need to address the issue of an adequate centralized 
record system.
    Mr. Austin. Right.
    Mr. Grijalva. And that obviously affects the officers in 
the field and how they protect the resources. Where are we at 
in response to that part of the scathing report?
    Mr. Austin. They are working on it. I am aware that they 
are working on it. As to how far they are actually getting, I 
do not have that answer for you right now, but I know it is in 
progress, and a lot of those recommendations that are in there, 
in all fairness to the Chief, he is actually, you know, 
committed to addressing those. So at some point a lot of those 
are in progress, and we are doing our part to help them.
    Mr. Grijalva. And without pointing a finger, I think it 
would be for this Committee to ask for a progress report or 
where we are on those recommendations. I think that is 
something that we need to do as well.
    I do not have any further questions. I want to thank you 
for your time and when we scheduled this hearing it was in 
response to individual request that members have had from their 
constituents that happened to be also employees of our land 
agencies, and also from the general sense that there was not 
attention--enough attention being paid to rank and file 
membership and what they are doing out in the field, and 
certainly on the law enforcement side of not only the report, 
but also issues that have come up with Park Service law 
enforcement. So we appreciated this, and the follow up for us 
is what are some legislative initiatives we need to take, 
resource initiatives we need to take, and also the mechanism, 
whether it is through the partnership that we talked about, 
revitalizing that one again so that employees have some say in 
the process of decisionmaking and in the process of setting the 
mission.
    We have very, very dedicated employees, and I want to share 
the comments that others have made here. Very proud of them and 
very proud of their service, and I think our public lands are 
to some extent the face of our nation for visitors both here 
and abroad, and I think we need to do as much as we can for the 
people that keep that face going, to give them the resources, 
the respect, and the time to help us manage these lands the way 
they should be managed and protect our resources the way they 
need to be protected.
    So we will pursue these. Thank you for it, for the 
testimony today, and the meeting is adjourned.
    [Whereupon, at 1:30 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
